Semiannual
Office of Inspector
             Report General          0
U.S, Department of Labor
U.S. Department of Labor
Ann McLaughlin, Secretary

Office of the Inspector General
J. Brian Hyland, Inspector General

April 1, 1988 - September 30, 1988
                  TABLE OF CONTENTS


Inspector General's Message                     i

Overview                                        1

Office of Audit                                 5

Office of Investigations                       53

Office of Labor Racketeering                   61

Office of Resource Management and
 Legislative Assessment                        67

Complaint Handling Activities                  73

Money Owed to the Department                   75

Appendix                                       77

   Selected Statistics                         77
   Summary of Audit Activity of DOL Programs   78
   Summary of Audit Activity of ETA Programs   79
   Summary of Audits Performed Under the
    Single Audit Act                           80
   Audits by Non-Federal Auditors              81
   Summary of Audit Resolution Activity.       82
   Status of Audit Resolution Actions on
    Audits Unresolved Over Six Months          83
   Unresolved Audits Over Six Months
    Precluded from Resolution                  84
   List of Final Audit Reports Issued          85
   Abbreviations Used in this Report           94
   Factsheets and Awareness Bulletins          96
                          Inspector General's Message


This is the twentieth Semiannual Report of the U.S. Department of Labor's Office of Inspector
General (OIG). It is with a strong sense of accomplishment that I am issuing it to the Congress
in accordance with the provisions of the Inspector General Act of 1978 (P.L. 95-452). As the
twentieth Semiannual Report, it marks exactly ten years since the passage of the Inspector
General Act that established this office and Inspector General offices like it in 11 other Federal
agencies.

With the passage of this Act in October 1978, the Congress made clear its intent that the
Inspectors General should be a leading force in detecting and preventing fraud, waste, and
abuse in Government programs. In the Congress' view, as well as in mine, the keystone of our
success in achieving this goal is the degree of independence and objectivity attained by each
Office of Inspector General.

Each of the three Secretaries of Labor under whom I have had the pleasure of serving has
supported firmly the goals, programs, and independence of this office. Secretary McLaughlin
has continued this tradition of strong support. This has assured a broadly positive relationship
between my office and the program offices of the Department: a relationship that has assured
it the independence necessary to conduct effectively our audits and investigations and the
disclosure of problems, balanced with a constructive atmosphere for interaction with the
executive staff of the Department.

Nearly six years ago, when I became head of this Office, I stated my intention to strive to
improve our productivity and impact by exploring new ways to bring about program improvements
within the Department and by introducing new technology, particularly computer technology,
to enhance our overall productivity. In the years that I have been with the Department of
Labor, I have been able to see first hand the many contributions, tangible savings, and
management improvements resulting from OIG findings and recommendations.           I am pleased
that much of this has been accomplished.        We have utilized ADP tools and techniques to
improve our operational efficiency, which has greatly increased internal coordination of audits
and investigations. We can point to real, sustained improvements in many areas, including
program operations, clarification of legislation and regulations, and an increased sensitivity to
fraud, waste, abuse, and mismanagement issues. These efforts are enabling us to increase our
impact by better ensuring that each audit and investigation contributes to improvements in the
Department's programs.
It is clear that we have had considerable success in achieving those early hopes and expectations
of the Congress, leading the Chairman of the House Government Operations Committee, Jack
Brooks, to state that, since the time of their establishment, the OIGs "have been one of the
most influential forces for good government."

Since our creation ten years ago, we have made great strides in promoting economy, efficiency,
and effectiveness in Department of Labor operations. But the impact of our operations has not
stopped there. Our involvement in investigating labor racketeering and, through the auspices
of the President's Council on Integrity and Efficiency, in promoting the use of computer card
technology in the public sector are just two unique cases of the far-reaching, compelling effect
the Department's    OIG has on the entire Government and on the working people of this
country.

Our many accomplishments have been achieved with the help of an excellent, dedicated staff
of auditors, investigators, and program support people who have often gone that "extra mile"
in accomplishing our mission. I am also pleased with the many innovations we have brought
to our work. As a result, during this reporting period we received a commendation from the
Comptroller General for our financial statement initiative. The Comptroller General wrote:
"We applaud the Department of Labor for responding with such initiative by being the first
department    to both prepare and audit departmentwide        financial statements."  This is
something in which we can all take pride.

As I look forward into the second decade of the Inspector General Act, I am more convinced
than ever of the wisdom of the Congress in establishing the Inspectors General and of the
potential of the IG concept to continue to provide an effective mechanism that will improve
Government and make it far more effective and efficient for the American people that it
serves.




J. BRIAN HYLAND
Inspector   General




                                               ii
                                                OVERVIEW

This semiannual report covers the activities of the Department of Labor's Office of Inspector
General for the period April 1 through September 30, 1988. During this period, audit
initiatives resulted in numerous economy and efficiency findings and recommendations
regarding Agency operations: the OIG issued 396 audit reports on program activities, grants
and contracts. The Office of Investigations (OI) opened 517 cases and closed 641 cases. OI
investigations resulted in 605 indictments and 390 successful prosecutions.     The Office of
Labor Racketeering (OLR) continues to focus on corruption in employee benefit plans by
accountants, attorneys, bankers, and other fund administrators and advisors. During this
period, OLR investigations produced 81 indictments and 74 convictions. Convictions established
a predicate for fines, forfeitures, and restitutions of $1,474,380.


EMPLOYMENT             AND TRAINING                          For example, we have concluded       that the use of fixed
ADMINISTRATION               (ETA)                           unit price, performance-based    contracts (FUPCs) has
                                                             so impaired the system's ability to account for and
                                                             report program costs that we have recommended that
Job Corps Full Scope Audit                                   ETA withdraw its regulation allowing FUPCs to be
                                                             charged 100 percent to training.        Other issues we
The first full scope audit completed for the Job Corps       identified have national policy implications: the use of
program compares program accomplishments against             regulations to effectively waive the statutory limitation
program costs of fiscal year 1987 and program year           on administrative     costs which allows tax-exempt
1986. This work produced several reports covering            contractors to make sometimes sizeable profits on
audited financial statements, program results, problems      JTPA funds; the use of defective procurement practices;
with documentation of eligibility, and program abuse,        and the misinterpretation   of parameters for State set-
An unqualified opinion was given on the financial            aside funds. (See pages 14-21.)
statements although the internal control report identified
three weaknesses that could have a material effect on        Job Corps RICO Investigation
them. As a result of preliminary survey work which
indicated program abuse at centers run by a Job Corps        In conjunction with the U.S. Attorney, we employed the
contractor, we conducted additional work at 26 Job           Racketeer Influence and Corrupt Organization (RICO)
Corps centers. While we did not find patterns of the
                                                             statute to indict two former top Gary Manpower
same problems, our tests revealed serious system             Administration   officials and a job training contractor
weaknesses in the attendance and allowance payments          on racketeering and racketeering conspiracy as well as
systems. Job Corps management has taken a very               bribery and conspiracy to defraud the DOL.           Our
positive approach to this comprehensive project and          investigations resulted in several other cases involving
has had hands-on       involvement   throughout   its        the theft and misuse of JTPA funds. (See page 54.)
accomplishment. (See pages 5-13.)

JTPA Continuing Audit Work                                   Unemployment Insurance Fraud
                                                             The clustering of single-claimant Unemployment
Most of the current JTPA audit work reported on              Insurance (UI) fraud cases continued to yield large
during this semiannual period concentrates on the level      numbers of indictments and disclosed meaningful dollar
of accountability existent in JTPA programs. Although        amounts in overpayments. (See pages 54-55.)
the Congress intended the JTPA system to be accountable
and to adhere to various restrictions provided in the        Illegal aliens who are not entitled to work but who
Act, we found that the system has deviated from              establish eligibility for UI benefits pose a new source for
congressional intent and ETA has neglected its               potential loss to the UI Trust Fund. (See pages 55-56.)
responsibilities to ensure compliance with the Act.
 EMPLOYMENT             STANDARDS                                 MINE     SAFETY      AND      HEALTH

ADMINISTRATION                   (ESA)                           ADMINISTRATION               (MSHA)

                                                                  MSHA Mine        Plan Approval       and Selected
 OFCCP      Should    Enforce      Federal     EEO
                                                                  Enforcement      Activities
 Regulations     More    Effectively     and
 Efficiently                                                      OIG reviewed MSHA's coal enforcement       activities and
                                                                 identified systemic weaknesses that created agencywide
 OIG completed an extensive nationwide program results           vulnerabilities and inconsistencies in the conduct of
 audit of OFCCP to evaluate the overall effectiveness            coal enforcement activities. We found that MSHA's
and efficiency of its enforcement operations. We found           mine plan approval process lacks procedural uniformity
that more effective management in the areas of program           and sufficient internal controls; MSHA was not adequately
planning, enforcement, and accomplishment reporting              documenting      legislatively-mandated    comprehensive
would improve Federal contractor compliance with                 inspections; enforcement policy communications were
EEO and affirmative action requirements.      (See pages         fragmented and cumbersome; and MSHA has neither
24-28.)                                                          used special sanctions for mine operators showing patterns
                                                                 of violations nor established a nationwide program for
Johnstown       Black    Lung Program                            reducing repeat violations. MSHA's remedial response
                                                                 to these findings has been timely, cooperative, and
OIG completed a special review of selected management            comprehensive.      (See pages 29-30.)
practices and procedures at ESA's Division of Coal
Mine Workers'       Compensation    District Office in
Johnstown, Pennsylvania. We found that, contrary to              EMPLOYEE          ETHICS      AND     INTEGRITY
ESA directives, a number of responsible mine operators
(RMOs) werenot billed for almost $272,000 in principal           The variety of employee ethics and integrity cases
and interest by the Black Lung Disability Trust Fund.            emphasizes the importance of educating and promoting
Beyond the amount OIG identified as improperlybilled,            awareness of ethics and integrity issues to employees.
the District Office determined that an additional $479,000       (See pages 58-59.)
was recoverable from the RMOs. (See pages 28-29.)

FECA      Medical     Provider       Fraud                       OFFICE      OF LABOR        RACKETEERING


A joint undercover operation resulted in the indictment          The Office of Labor Racketeering continues to emphasize
of five doctors for reporting false medical treatment            both criminal and civil enforcement measures to prevent
and services information regarding Federal Employees'            racketeering from occurring in organized labor. Several
Compensation Act (FECA) claims. In addition, OI                  civil court actions resulted from OLR investigations. A
continued to uncover FECA claimants working while                civil suit under provisions of the Racketeer Influenced
collecting benefits. These cases resulted in significant         and Corrupt Organizations (RICO) statute was filed
fines and restitutions from overpayments. (See page              against the 18-member General Executive Board of the
56.)                                                             International Brotherhood ofTearnsters (IBT) and 26
                                                                 persons alleged to be major La Cosa Nostra members
Davis-Bacon Violations                                           and associates. (See page 65.) A "decreeship" was
                                                                 imposed by a Federal court on Roofers Local 30/30B,
OI provided increased investigative support to strengthen        Philadelphia, Pennsylvania. (See page 64.) Several civil
criminal investigations of Davis-Bacon Act and Copeland          actions were filed to support the 1986 court-imposed
Anti-Kickback Act violations. The investigations found           trusteeship of IBT Local 560, Union City, New Jersey.
that employers falsified wage records to conceal                 (See page 64.) In a parallel action, the Association of
underpayment      of prevailing wage rates on Federal            Bridge, Structural   and Ornamental      Iron Workers
projects. (See page 57.)                                         International imposed a trusteeship over its local 350 in
                                                                 Atlantic City, New Jersey. (See page 65.)




                                                             2
OLR continues to participate in joint investigations
with other Federal, State, and local agencies. During
this period 63 percent of indictments and 74 percent of
convictions resulted from multi-agency investigations.



OTHER         ACTIVITIES


Legislative     Proposals

The 100th Congress enacted the Inspector General Act
Amendments, a measure which we supported, as well as
the Computer Matching and Privacy Protection Act, a
bill with which we had raised specific problems. (See
page 67.) For the 101st Congress, we support several
pending measures which can improve the efficiency and
effectiveness of the OIG and safeguard government
resources. (See pages 68-70.)

President's     Council     on   Integrity   and
Efficiency

The OIG continued its efforts to advance the use of
computer card technology in the public sector. The IG
participated in a successful international conference on
"Smart Card Applications and Technologies" and issued
a compendium of computer card applications. (See
pages 70-71.)
                                      OFFICE OF AUDIT

During this reporting period, 396 audits of program activities, grants, and contracts were
issued. Of these, 33were performed by OIG auditors, 30 by CPA auditors under OIG contract,
93 by State and local government auditors, and 240 by CPA firms hired by grantees.

The Office of Audit section of this semiannual report has five chapters. Chapter 1 contains
information on audit activities of the Department's programs. Chapter 2 highlights progress
evaluating the Department's system of financial management (see page 32). Chapter 3
presents the first report on DOL's implementation of the 1986 Program Fraud Civil Remedies
Act (see page 40). Chapter 4 showcases concerns with program abuse (see page 43) and audit
resolution is reported in Chapter 5 (see page 49). Money owed the Department is covered later
in this report (see page 75) and is followed by the Appendix (see page 77), which lists audit
reports issued and resolved.

                                                Chapter 1
                                             Agency Activities


EMPLOYMENT            AND TRAINING                        between ages 16 and 21.      Comprehensive    training in
ADMINISTRATION                                            basic and vocational education, work experience, coun-
                                                          seling and other enrichment activities within a residen-
The Employment and Training Administration (ETA)          tial setting are provided at both federal and contractor
                                                          administered centers. Some non-residential       training
administers programs to enhance employment oppor-
tunities and provide temporary benefits to the unem-      also is provided. After training, corpsmembers    are
ployed. This mission is accomplished through employ-      provided placement assistance for up to 6 months.
ment and training programs authorized by the Job
                                                          The first full scope audit of the Job Corps program for
Training Partnership Act (JTPA), the Unemployment
Insurance (UI) program authorized by the original         program year 1986 and fiscal year 1987 has been corn-
Social Security Act and other Federal laws, and the       pleted during this reporting period. A full scope audit
Employment Service (ES) authorized by the Wagner-         gives an opinion on financial statements and program
Peyser Act. In fiscal year 1989, authorized staffing is   accomplishments    from which a return on investment
1,753 and ETA's budget is almost $7 billion. Of that      can be measured by comparing program accomplish-
amount, $2.5 billion is for state UI and ES operations,   ments against program costs.
$3.4 billion is for JTPA and $134 million is for Trade
                                                          Financial and program performance audit reports contain
Readjustment Allowances.     In addition, the UI Trust
Fund totals $13.7 billion,                                three components:   an opinion on the financial state-
                                                          ments, a report on internal controls, and a report on
During this reporting period, OIG had significant audit   compliance with laws and regulations. Financial state-
                                                          ment audits determine whether the financial position,
activity in Job Corps, JTPA, and UI programs.
                                                          results of operations, changes in financial position, and

Job Corps                                                 reconciliation to budget reports are presented fairly.
                                                          Program accomplishment      audit reports determine
                                                          whether the program results statements are presented
The Job Corps program is operated under the Job           fairly.
Training Partnership Act (JTPA) and is designed to
serve primarily impoverished and unemployed youth
This full-scope audit produced two comprehensive reports,
one covering the financial area and one covering pro-                            Job Corps Budget Authority
gram results. It also produced a report on problems                                       by Agency
with documentation      of eligibility. Concurrently, pro-                      Total Budget Autl'K_'ity - $624
gram abuse audit work which resulted in several reports
was conducted and coordinated           with the full-scope
project.
                                                                                     Labor
                                                                                  8527 84.5%

The full-scope audit also provides an effective mecha-
nism to identify and prioritize future audit issues. In
fact, several conditions identified in the financial state-                                                                 *="_"_"
                                                                                                                            _.g 0.4%

ments and program results audits prompted us to con-
duct additional audit work which identified other inter-                                                                =8., 8.,_
nal control weaknesses    in the program.                                                       (Dollars=nM_,ons)

TO effectively perform a full scope audit, management's
cooperation is essential. Job Corps' management has
been very cooperative throughout the audit process.               Job Corps provides funds to contractors and Federal
Though some of our reports are still in draft and man-            agencies to operate residential training facilities through-
agement is preparing its formal comments, corrective              out the country. In doing so, over 92 percent of its funds
actions have already been taken in many areas,                    for fiscal year 1987 were expended as shown below:

AUDITED FINANCIAL            STATEMENTS        FOR JOB                                  Job CorDs Expenses
CORPS                                                                                   by Program Category
                                                                                        Total Expenses $671
The financial audit report of Job Corps contains the
following components which are required by generally
accepted Government auditing standards:     financial
statements and opinion; report on internal controls;                  _,. o,.........
and report on compliance with laws and regulations.

Financial   Statements   and Opinion                                                                                       ..............
                                                                                                                        NO_-O_IO¢coo14e_
                                                                                                                           =TIo_

The consolidated statement of financial position and
the related statements of operation, changes in finan-                                          (Dollars In Millions)
cial position and reconciliation to budget reports for
October 1,19°o6through September 30, 1987 were audited.

An unqualified opinion was given on the financial state-                                Job Corps Expenses
ments. This indicates that the financial statements are                                   Center Operations
presented fairly in accordance with generally accepted                                  Total Expenaea - $550
accountingprinciples   for Federal agencies. The follow-
ing information is taken from the audited financial                                            __.



Although the budget authority for the program is pro-                   " ................ 1

ture transfers
vided           are Department
       to the U.S.   made to theof U.S.   Departments
                                     Labor,  non-expendi-of                               _                            .....
                                                                                                                         _",';"•,-,,_.,
                                                                                                                                  =.....
Agriculture
statements.  and Interior to operate  the Civilian Conser-                  ",="=_,_
                                                                                   ' ...... _                            , ,,
                                                                                                                    _'_"'"" ........
vation Corps on Federal lands. The illustration below                                    ,,=..= ,. ....
shows the relative program dollars provided to each
Federal agency.                                                                                (t)o.=ar0
                                                                                                      =.M._.)




                                                              6
                                                                                                           tures, facilities and improvements                           account consists of
                        Job Corp Expenses                                                                  the owned or leased buildings used to house program
                           Non-Center Operations                                                           operations nationwide.
                               Total Expenses       - $98


                                                                                                           Liabilities of the program consist primarily of readjust-
                                                                                                           ment allowances and accruals for personnel types of
            •,,.....    _8_ ,g_                                                                            accounts. Readjustment allowances are the funds set
                                                                                                           aside to assist enrolled corpsmembers transition into
                                                                                                           society upon termination of their training program.
                                                                    Foe,,,,,..
                                                                            =,_,o,                         Personnel types of items reflect future payments of
                                                                   r,.°=_,,.... _38_,                      annual leave, disability benefits, and payroll.

                         Health $1,7 1,7_          Outreach, Screening             $17,g 18,3_
                         ContraCtors               snd Pl_cement




                                 (Oo,,.r,                                                                                 Job Corps Liabilities
                                                                                                                                Total Liabilities - $54.7
                                                                                                                                        FY 1987
                                                                                                                                             (Dollar8    in Millions)




The Consolidated Statement of Financial Position shows
that most of the assets of the program at September 30,
1987, are in funds with the U.S. Treasury and structures,                                                                                                                 _    =s6 _
facilities, and improvements, as shown below.
                                                                                                                                                                   ACcountsPayet_e $2.74.9%
                                                                                                                      FuIur9    Di$sblllty      $_   11.0_
                                                                                                                      Benehts




                          Job Corps Assets
                         Total Assets - $789
                                   (Dollar= In Millions)



                                                  Ot_r   I'_p_t.       IIle =,O_
                                                                                                           REPORT ON INTERNAL CONTROLS

                                                              EQu_nt

                            __'._:_'_;".,'                                            ",...P.".,.          The internal control report identified three weaknesses
                                                                                                           that could have a material effect on the financial state-
                                                                   ,_.,%_::I_,'1,,
                                                                    t_lO_t
                                                                                                           ments.
                                                                   ta_,_nl it in_¢o,,o_l_    O,ea 4._11_


  ...................                                                                                      Program Accounting and Reporting

                                                                                                           DOL and ETA accounting systems available to Job
                                                                                                           Corps and other programs do not provide complete
                                                                                                           financial information at the program level and the
                                                                                                           necessary information is unavailable from a single source.

                                                                                                           Accounting controls are at the appropriation and not at
Funds held by the U.S. Treasury appear to be excessive                                                     the program level. Job Corps, along with various other
at the end of a fiscal year only because Job Corps                                                         ETA programs, is a part of the Training and Employ-
operates on a program year and not a fiscal year basis,                                                    ment Services (TES) appropriation.      Accounting for
The majority of the obligational authority for the pro-                                                    these programs is grouped with financial activity for the
gram year beginning July 1, 1987, was still available,                                                     entire TES appropriation, which includes other training
The program would expect to expend these funds through-                                                    programs under JTPA and other statutes in the Depart-
out the program year, ending June 30, 1988. The struc-                                                     ment's and ETA's official books of account.
The Department has no central program accounting            Corpsmember     Allowance Payment System
responsibility. The Department's Integrated Account-
ingSystem maintains the control accounts at the appro-      Job Corps provides residential enrollees with living
priation level. Some accrual accounts also are main-        allowances to assist them in adapting to their environ-
tained.    ETA, on the other hand, maintains the Re-        ment. Allowances are based on attendance data main-
gional Automation System, where it controls funds at a      tained by the center operator. The U.S. Army Finance
national and regionallevel on a contract and grant basis,   and Accounting Center (USAFAC) generates and
The Office of Job Corps maintains expenditure infor-        accounts for Job Corps allowance checks. Neither the
marion on a Job Corps center/operator     level. They do    centers nor USAFAC were periodically reviewing and
not maintain asset and liability information,               reconciling center and USAFAC records for complete-
                                                            ness, consistency, and accuracy.     Centers were not
None of these systems encompasses all financial activi-     submitting accurate or timely reports.     As a result,
ties. The Departments        of Labor, Agriculture, and     approximately $1 million in corpsmember        advances
Interior each maintain separate and independent finan-      had not been reported and/or recorded by the USA-
cial management systems. Periodic reports are submit-       FAC. We recommended that Job Corps establish a
ted to the Office of Job Corps by Agriculture       and     comprehensive allowance control system. Based on the
Interior, but these reports do not include complete         results of special program abuse work at a few of the
financial information.    As a consequence, Job Corps       centers, we conducted a special survey of USAFAC
management does not have readily available informa-         functions.
tion on its entire operation. One result was not being
able to identify an antideficiency violation at the U.S.    REPORT ON COMPLIANCE             WITH LAWS AND
Department of Interior in a timely manner.                  REGULATIONS

We have recommended the development of a program            The report notes that, as discussed in the Report on
accounting system to provide management complete            Internal Controls, Job Corps cannot demonstrate uni-
information on the program's activities and financial       versal compliance with the twelve eligibility criteria.
position. However, Job Corps management has indi-
cated that it believes the cost of such a system would      Audited Program Results Statements
outweigh its benefits.
                                                            This report presents the first audited program results
Controls   to Ensure Enrollee Eligibility                   statements for a DOL program.         The audit report
                                                            contains the following components:     program results
Regulations and ETA policy issuances specify verifica-      statements and opinion; repor! on internal controls;
tion and documentation requirements for twelve eligi-       and report on compliance with laws and regulations.
bility criteria. Job Corps could not demonstrate that
every enrollee had met the required eligibility criteria    Program Results Statements     and Opinion
because the necessary verification and documentation
were not always available. The problem appeared to          Working with Job Corps management, we compiled
result from the complexity of the screening system and      and audited the following five statements for program
inconsistent application of screening procedures which      year (PY) 1986, ending June 30, 1987: Statement of
were difficult to use.                                      Program Operations; Statement of Placement Results;
                                                            Statement of Training Received; Statement of Program
Our review of 1,683 corpsmember files found enroll-         Standards Accomplishments; and Statement of Partici-
ment documentation was error-free for just 21files. We      pant Characteristics.
reviewed the documentation       only and did not verify
eligibility independently or externally.   We issued a      In our opinion, except for the effect of the adjustments
separate report on the eligibility system which evalu-      that were necessary due to two scope limitations, the
ated the system for each criterion and suggested ira-       statements present fairly the status of the Job Corps
provements to streamline and strengthenit. As a result,     program at June 30, 1987. The statements were pre-
Job Corps management is planning a complete evalu-          pared in conformity with Job Corps reporting require-
ation of the eligibility system,                            ments under JTPA and related regulations.
The scope limitations were:

Participant Eligibility

Our audit procedures were limited to verifying that               STATEMENT         OF PLACEMENT     RESULTS
information in the corpsmember flies was accurately                                 NOT PLACED
included in and summarized from Job Corps auto-
mated records. As discussed above, eligibility was not
verified.

Placement   Outcomes

The absence of placement information for 30 percent of
Job Corps terminated participants may materially af-
feet Job Corps' placement results. Job Corps assumes
that the percentage of participants (29 percent) known
to have been self-placed also applies to the participants
for whom information was not available. The state-
ments were adjusted by distributing enrollees where in-
formation was not available to all non-placed categories
which included "cannot locates." The 29 percent of the                     NOT SEEKING
                                                                           EMPLOYMENT
                                                                                         22.6e6


"cannot locates" were allocated to the "placed" cate-
gory as self-placements.    We were unable to verify the
validity of this allocation basis.

The following information was taken from the audited
program results statements.   In PY 1986, Job Corps
provided placement assistance to 60,946 corpsmembers
with the following results.

         STATEMENTOF PLACEMENT RESULTS
                    TOTAL

              PLAC_O
                  - 56_                                         Training was provided to 61,523 corpsmembers   as fol-
                                                                lows.




                                                            9
REPORT ON INTERNAL CONTROLS
                                                                  EMPLOYERSCONFIRMATIONRESULTS

Our study and evaluation of internal controls disclosed
the following f'mdings which we believe could result in
material errors or irregularities (which may not be               ,_EE-,_
promptly detected) in relation to Job Corps program
results statements.

Differences Exist between the Weekly Corpsmember
Strength Report (WCSR) and the Job Corps                                               t_S,_.EE-23_
Management Information System (JCMIS)

Job Corps uses two systems, the WCSR and the JCMIS,
to report program results to the Congress, but does not
have procedures in place to ensure that statistics are re-
ported consistentlyon both systems. JCMIS and WCSR
differ by approximately 3,000 participants. Approxi-
mately 2,500 participant records were not purged after
remaining on the data base for periods in excess of 2
years. Approximately 700 participant transfers per the
WCSR were not identified on the JCMIS data base. We
also found that documentation for the year-end reports
was not maintained, and that while data on Puerto                   SCHOOLCONFIRMATION
                                                                                     RESULTS
Rican corpsmembers was not included in JCMIS in PY
1986, it was to be included in subsequent years.

We recommended that Job Corps periodically recon-
cile the JCMIS' on-board-strength report with the WCSR,
maintain year-end documentation support for program
statistics, and ensure that participants from Puerto Rico
are included in JCMIS. Management has generally
concurred with our recommendations and is developing                                _,_.E_- 3,_
corrective action.

Confirmation of Sample Placements Found that 25
Percent of the Placements Were Invalid

We sent 974 confh'mation letters to employers, schools,
and participants (in the case of a military placement).
Responses were received to 838 letters with the follow-
ing results.

           CONFIRMATIONRESULTS                                    MILITARYCONFIRMATIONRESULTS




                                                             10
Based on the negative responses,   we have recommended            Current Placement Criteria Do Not Specify a
about$24,000 in placement fees     be disallowed. In addi-        Minimum Period of Employment so that Employment
tion, we found only 7 of the       10 Job Corps regions           of Only a Few Days is Counted as a Valid Placement
monitored placement activities,    and invalid placements
which were identified by them      were not deleted from          Review of the placement confirmations and informa-
JCMIS.                                                            tion on JCMIS indicated that a placement is counted
                                                                  regardless of length of stay in employment, school, or
We recommended that Job Corps standardize proce-                  military. We also found numerous instances where
dures for monitoring placement invoices, ensure that              individuals were self-employed and the placement was
procedures are followed by Job Corps regional offices             invalid or questionable.
and that invalid placement records are promptly re-
moved from JCMIS. Job Corps management con-                       For positive placements, our confirmation    responses
curred with our recommendations. They plan to con-                showed the following days employed:
firm PY 1987 placements and disallow fees for errone-
ous placement data. We will provide technical assis-
tance to management.
                                                                         CONFIRMATION RESPONSES
Placement Contracts Did Not Provide Monetary                                 DAYS EMPLOYED
Incentives for Placements To Meet Program Goals and
To Ensure Complete Reporting

Our review of placement contracts showed that three
types of contract fee schedules were used to reimburse
placement agencies for placement services. The major-
ity of the contracts called for paying the placement
agencies the same fee regardless of whether the partici-
pant was placed. Another type of contract had separate
fees for participants placed and not placed. However,
no distinction was made as to whether the participants
found their own employment, if the employment was in
a field related to training received at the Job Corps
center, or if the employment paid minimum wage. Only                                           ovE_,80-,,_
one contract contained a different fee for participant
self-placement.

We recommended, and management concurred, that
procurement procedures be revised to ensure future
placement contracts contain a fee schedule that pro-              It should be noted that the confirmation process for
vides:                                                            days employed confirmed only the placement status of
                                                                  the corpsmember with respect to the original place-
1. The maximum amount allowed in the contract only                ment. Job Corps does not track subsequent place-
when the participant is placed through the referral by            ments.
the placement agencies to a job related to the Job Corps
training received;                                                Virtually all placements are considered valid, with a
                                                                  placement contractor receiving a fee for the placement.
2. A reduced amount if the placement agency only veri-            In discussions with Job Corps management, we learned
ties the status of the participant; and                           that Job Corps would consider as valid a placement in
                                                                  employment for 1 hour so long as the job opportunity
3. A minimal fee for submitting non-placement       infor-        could have provided 20 hours minimum paid employ-
mation,                                                           merit, as required by current definition.




                                                             11
We believe that the criteria used by Job Corps to record          We determined that a number of areas must be strength-
placement results need to be revised to specify a mini-           ened to provide adequate control over the allowance
mum length in employment.        We also recommended              systems. Several of these are discussed below.
that Job Corps develop specific placement criteria for
self-employment.                                                  USAFAC has limited electronic data processing sup-
                                                                  port to process corpsmember allowance documents. In
Management concurred with the recommendation            to        addition, clerical responsibility is assigned by document
strengthen self-employment criteria, but believes the             type rather than by center. As a result, clerks may not
recommendation      on retention criteria would be too            have all information readily available to process a
costly and difficult to implement. They noted that no             document.      Inefficiencies and delays result. We have
other ETA program specifies a duration requirement                recommended increased automation and a realignment
for placements.     We believe that for a program that            of responsibilities.    At our exit conference, USAFAC
reported spending over $16,000 per corpsmember serv-              management stated that it had received authorization
ice year for PY 1986, it is not unreasonable to expect an         to purchase 10 desktop computers which have subse-
adequate minimum length of employment upon corn-                  quently been received by USAFAC.
pletion of training.     Working 1 day should not be
considered a positive program accomplishment.                     USAFAC was receiving documents and information
                                                                  that frequently were late, incorrect, and/or incomplete,
While Job Corps Historically has Reported                         resulting in additional clerical and processing time. Of
Participants in Training, It Does Not Report                      the 3,915 documents sent to USAFAC in March 1988,
Participants Receiving Placement Services, which is               42 percent (1,631) were rejected for incorrect or con-
Inconsistent with JTPA Title II-A Reporting                       flicting information. As of March 31, 1988, 168 docu-
                                                                  ments were in a suspense category because of requests
We recommended that year-end reporting be revised to              for information on terminations that had gone unan-
accommodate outcome statistics consistent with JTPA               swered by Job Corps centers and 147 were over 120 days
Title II-A reporting and to report the activity in both           old. We made a number of recommendations to reduce
training activities and placement assistance. Manage-             the error rate and improve communications         and ac-
ment generally concurred with the recommendation                  countability.
provided the benefits outweigh the difficulties in chang-
ing the method of reporting program outcomes.                     Job Corps regulations require that corpsmembers not
                                                                  remain enrolled beyond 16 consecutive absent without
REPORT ON COMPLIANCE             WITH LAWS AND                    leave (AWOL) days or after 30 AWOL days within a
REGULATIONS                                                       180-day period. As of February 1987, approximately
                                                                  1,200 corpsmembers were in non-pay status in excess of
The Job Corps program, except for the matters dis-                90 days and many Job Corps centers had not responded
cussed in the Auditor's Opinion and the Report on                 to USAFAC requests for information on corpsmem-
Internal Control, complied with the terms and provi-              bers in a non-pay status. We noted that USAFAC is
sions of lawsandregulations  for the transactions tested          unable to invoke sanctions on centers that do not
that could have materially affected its program results           respond to requests for needed corpsmember      status
statements,                                                       information. As a result, we made additional recom-
                                                                  mendations to improve communication and accounta-
Job Corps Enrollees' Allowance Systems                            bility by the centers.

Job Corps expects to spend over $75 million for living            There are no written procedures to instruct the centers
and readjustment allowances and corpsmember allot-                when and how to return undistributed living allowance
ments in 1988. Another $10 million was to be spent on             checks after the original allowance register is returned
transportation and related meal expenses. USAFAC                  to USAFAC. (The register is sent to the center with the
makes these payments for the program based on infor-              checks and is returned to USAFAC annotated for
mation provided by each Job Corps center,                         corpsmembers no longer entitled to allowances.) Many
                                                                  checks were returned to USAFAC without explanation
We surveyed the adequacy of the manual and auto-                  several months after they were issued. For example,
mated systems as well as procedures and actual prae-              one center returned 775 checks in February and March
rices in place at USAFAC to process and account for               1988. The checks were issued for pay periods from Sep-
payments of allowances, allotments, and travel expenses,          tember 1987 through January 1988. A similar problem


                                                             12
was found with readjustment allowance checks which                  training, and inadequate monitoring. As a result, over-
were sent to placement contractors. We recommended                  payments to corpsmembers         occurred, performance
procedures for the timely return of checks,                         measurement statistics were distorted, and a less than
                                                                    acceptable percentage of corpsmembers completed the
Suspense accounts used to record tax liabilities for                program. In addition, enrollment slots were unavail-
corpsmember Federalincome and FICA taxes were not                   able that could have been used by other applicants who
reconciled. The accounts should have a zero balance as              had the capabilities and aspirations to complete and
appropriate payroll deposits are made. On June 30, 1988,            secure the full benefit of the Job Corps program.
the balance should have been zero. The actual balance
on USAFAC      books was about $2 million.                          The contractor has not yet responded to these reviews
                                                                    but did prepare corrective action plans in response to
We worked closely with Job Corps management through-                our special program abuse surveys. Corrective actions
out this survey. As a result, Job Corps concurred with              promised include improved compliance with regula-
our recommendations     and is implementing corrective              tions, especially those relating to AWOL corpsmem-
action. In addition, USAFAC management concurred                    bers and corpsmembers' leave; early identification of
with many of our recommendations        and noted that              corpsmembers with problems; improved documenta-
several of them complement its own management ob-                   tion; and improved internal controls.
jectives. USAFAC is implementing corrective actions
on many of the recommendations      and is studying the             Based on the poor performance as demonstrated by our
others to determine the most appropriate action,                    reports, Job Corps management is closely monitoring
                                                                    the operations of all centers currently operated by the
PROGRAM ABUSE SURVEYS AND REVIEWS                                   contractor. For one center with particularly poor per-
                                                                    formance, Job Corps did not exercise the option year on
This work was initiated in response to an allegation                the contract.   The contract has been competitively
referred to OIG by the Office of Job Corps. The                     advertised and awarded to another organization. For
allegation of program abuse concerned one of its Job                the second center where we found serious problems,
Corps center contractors. We conducted limited pro-                 the contractor promised a host of corrective actions;
gram abuse surveys at four of the centers operated by               performance measurement statistics have improved;
the contractor, followed by more detailed reviews at                and the third option year of the contract was granted.
two of the four centers to determine whether serious
program abuse existed. (See Chapter 4 for additional                In conclusion, the Office of Job Corps has been respon-
discussion on Program Abuse.)                                       sive to our findings and recommendations.       In most
                                                                    instances, they have initiated corrective actions based
When our preliminary survey work of the contractor                  on oral briefings even before our reports were issued.
indicated flagrant violation of program regulations, and            This degree of cooperation fosters improved program
that patterns of corpsmembers status changes (pay to                management at all levels.
non-pay) initiated by the contractor were not always
credible, we conducted similar but very limited surveys             Job Training     Partnership      Act
of corpsmembers status at 26 additional Job Corps cen-
ters.                                                               GRANTS TO STATES

Program Abuse by Job Corps Contractor                               The purpose of the Job Training Partnership Act QTPA)
                                                                    is to provide job training to economically disadvantaged
Our detailed reviews at the two centers indicated gen-              individuals, individuals with special barriers to employ-
eral failure of the contractor to meet certain critical per-        ment, and dislocated workers to assist them in obtaining
formance standards set forth in its contracts for center            productive employment.        Under Titles II and III of
operations, and failure of the contractor to follow pre-            JTPA, the Secretary of Labor grants funds to 59 States
scribed program regulations and procedures,                         and entities which, in turn, distribute them to service
                                                                    delivery areas (SDA) and other organizations. Grants
We believe these deficiencies were caused by apparent               are used for adult and youth programs, summer youth
program abuse, failure to follow proper procedures,                 programs, and dislocated worker assistance.
inadequate controls, unqualified staff, insufficient staff




                                                               13
RESOLUTION        OF AUDIT OF JTPA                                project entitled, "Using Unemployment          Insurance
PARTICIPANT       TRAINING AND SERVICES                           Records to Evaluate Pre-Post JTPA Program Earn-
                                                                  ings." A cooperative research project currently involv-
REPORT I                                                          hag 11 States, it will address measures of increased
PARTICIPANT TRAINING AND EMPLOYMENT                               earnings of JTPA participants using the Unemploy-
                                                                  ment Insurance (UI) wage records to study both pre-
Report I was issued to the Employment and Training                and post-JTPA earnings patterns of certain individuals
Administration   in January 1988 and discussed in our             who terminated from JTPA during PY 1986; explore
March semiannual report. In the report, we recom-                 the differences in earnings by demographic subgroups;
mended that ETA develop a means to demonstrate that               compare earnings patterns by type of service(s) provided;
the program is showing a productive return on invest-             examine how the results of the 13-week participant
ment as envisioned by the Congress.                               follow-up system compare to the information in the UI
                                                                  data base; and publish a report documenting the strengths
The return on investment concept is the cornerstone     of        and weaknesses of using the UI wage records as an
Section 106 of the Act which states, in part:                     evaluation resource.

     "The Congress recognizes that job training is an in-         The Commission anticipates having a final report pub-
     vestment in human capital and not an expense. In             lished as early as April 1989.
     order to determine whether that investment has
     been productive,   the Congress finds that--                 ETA has had some involvement in the project: as part
                                                                  of resolving the audit recommendation with O/G, ETA
         it is essential that criteria for measuring the          has agreed to partially fund the Commission's project.
         return on this investment be developed; and              In resolving the audit recommendation with ETA, OIG
                                                                  requested that ETA keep us informed of research
         the basic return on the investment is to be              projects which address JTPA outcomes and include
         measured by the increased employment and                 OIG in any future ETA involvement in the Commis-
         earnings of participants and the reductions in           sion's project.
         welfare dependency."
                                                                  Although the report is now resolved, OIG will continue
From OIG's viewpoint, Section 106 required ETA to                 to work actively with ETA to ensure that corrective
perform a type of pre- and post-program        analysis in        action is taken and that policymakers receive timely
terms of increased employment and earnings and re-                information on the return on investment from JTPA.
ductions in welfare dependency of JTPA participants.
Although ETA had a large multi-million dollar evalu-              CONTINUING      AUDIT WORK
ation under way to determine the net impact of the
program and offered this study as resolution for the              The majority of our current JTPA audit work has
audit, the results of the study would not be available            concentrated on the level of accountability existent in
until 1993, too late to be of any use to policymakers in          JTPA programs.
focusing the program on those areas showing the great-
est return on investment.                                         Although the Congress intended the JTPA system to be
                                                                  accountable and adhere to various restrictions provided
We did learn of isolated attempts to satisfy the require-         in the Act, we found that the system has deviated from
ments of Section 106. For example, Indiana, Nevada,               congressional intent, and ETA has neglected its respon-
and South Carolina have published reports on the                  sibilities to ensure compliance with the Act.
return on investment or net impact of the program
within the State. Additionally, the National Commis-              The Congress, in passing JTPA, established provisions
sion for Employment Policy (the Commission) funded                to require that 70 cents of every Title II-A dollar be
a study performed bySRI International on the effects of           spent on training. To ensure this level of expenditure
JTPA performance standards on clients, services, and              was maintained, the Congress required that SDAs be
costs. The Commission, established under Title IV of              accountable for spending no more than 15 percent of
the Act, has a role in Section 106 to "evaluate the               their Title II-A funds for administration    and, with
impacts of such standards."                                       limited exceptions, no more than 30 percent of these
                                                                  funds for a combination of administration and partici-
The major initiative, however, which ultimately re-               pant support.
solved the audit recommendation,  is a Commission

                                                             14
OIG first reported potential problems affecting compli-                several cost categories but may be charged entirely
ance with the above provisions in a management letter                  to training when the agreement: (i) Is for training;
to ETA on September 15, 1987. This report discussed                    (ii) Is fixed unit price; and (iii) Stipulates that full
the JTPA system's inappropriate use of f'Lxedunit price,               payment for the full unit price will be made only
performance-based     contracts (FUPCs). We suggested                  upon completion of training by a participant and
that, based on the limited audit work we had done to                   placement of the participant into unsubsidized em-
date, FUPC definitions of training need much further                   ployment in the occupation trained for at not less
clarification, incremental FUPC payments to contrac-                   than the wage specified in the agreement."
tors be considered advances against full contract per-
formance, and that profits should be kept to a reason-             We have two major concerns with the application of the
able level and considered program income for govern-               provisions of 20 CFR 629.38(e)(2). First, the regulatory
mental and non-profit entities. Our March 1988 semi-               wording indicates that if the agreement contains the
annual report also discussed the impact that the use of            elements specified in (i), (ii), and (iii), all contract
these contracts was having on accurate cost reporting,             payments can be charged solely to training. Although
since FUPCs are 100 percent chargeable to the training             we believe ETA intended placement performance to be
cost category,                                                     the determining factor to support a single unit charge to
                                                                   training, some operators believe the only requirement
Since that time, we have conducted additional audit                is to develop a FUPC agreement. Therefore, regardless
work in several locations. We have concluded that the              of participant outcomes, if there is a FUPC, all costs are
use of FUPCs has so impaired the system's ability to               reported as training. Second, program operators have
account for and report program costs properly, that we             developed very broad local definitions of the elements
have recommended ETA withdraw its regulation allow-                (e.g., training, placement in the occupation trained for,
ing FUPCs to be 100 percent charged to training. The               and at not less than the wage specified in the agree-
following is a discussion of the results of this additional        ment) required in 20 CFR 629.38(e)(2).       We recom-
audit work.                                                        mended that ETA redefine the terms used in 20 CFR
                                                                   629.38(e)(2) so such broad interpretations     cannot be
JTPA COST LIMITATIONS                                              used to shift administration and participant support
                                                                   costs inappropriately to the training cost category. We
On July 13, 1988, OIG issued a management letter to                also recommended that ETA require unit cost/per-
the Assistant Secretary for ETA outlining our concerns             formance based contractors to maintain expenditure
that legislatively mandated limitations and restrictions           records so contract payments can be properly classified
on JTPA expenditures are being circumvented and                    iftherequirementsin20CFR629.38(e)(2)         arenotmet.
rendered unenforceable.
                                                                   ETA has Allowed Reporting Methodology which
We identified four issues which we believe contribute to           Records Expenditures on a "First-ln-First-Out" (FIFO)
the unenforceability of JTPA cost limitations. They are            Basis by Cost Category, rather than Program Year of
as follows.                                                        Obligation

ETA has Failed to Adequately Define the Use and                    A lack of definitive program guidance has allowed
Restrictions of Fixed Unit Price Contracts (FUPCs)                 recipients to report program expenditures against a
                                                                   previous year's unexpended funding authority by cost
A lack of program guidance from ETA has allowed                    category rather than by grant.
SDAs to use overly broad definitions of terms in 20 CFR
629.38(e)(2) when developing FUPCs.          This has a            The statute allows recipients with unexpended funding
major impact on cost limitation compliance because the             authority at the end of a program year to carry-over
FUPCs are used extensively by the SDAs.                            these funds for expenditure the following 2 years. These
                                                                   carry-over funds are accounted for on a FIFO basis.
The regulations at 20 CFR 629.38(b) state costs are                This means the first funds available for expenditure at
allowable to a particular cost category to the extent that         the start of the program year are carry-over funds. OIG
benefits are received by such category. However, regu-             believes FIFO is a reasonable accounting concept to
lations at 20 CFR 629.38(e)(2) state:                              record expenditures against program year funding.
                                                                   However, the recipients have applied the FIFO concept
    "Costs which are billed as a single unit charge do             by specific cost category rather than by program year of
    not have to be allocated or prorated among the                 obligation. As an example, if the SDA had expended all


                                                              15
its administration and participant support funding but             period plus the 2 years for expending unobligated       fund-
carried over $50,000 originally budgeted in the training           ing).
cost category, the SDA would not necessarily report the
first $50,000 of the new year expenditures against the             Further, ETA has not addressed the period for testing
carry-over funds. If administration or participant sup-            compliance in Titles II-B and III, since these Titles are
port payments were expended from the $50,000, they                 not covered by the Job Training Plan.
would be shifted forward to the next year's obligation
and not reported against the carry-over. Conversely,               We recommended that ETA change the interpretation
the first $50,000 of new year expenditures for training            on the time period for testing compliance with the II-A
would be reported back against the previous year's                 cost limitations so testing can be conducted before the
carry-over balance.    This reporting methodology of               date SDAs are allowed to dispose of their records, and
FIFO by cost category rather than by program year                  to establish a time period for testing compliance with II-
obligation allows the recipients to expend administra-             B and III.
tion funds at a rate in excess of the 15 percent cap by
shifting the reporting of excess administrative expendi-           ETA acknowledges that OIG's concern regarding the
tures to future funding periods,                                   current record retention requirements         is legitimate.
                                                                   With regard to the time period for testing compliance
We recommended that ETA issue regulations on the                   for II-B and III funds, ETA contends that compliance
carry-over of unexpended funds from one year to the                for these programs is measured using allotments over
next which would establish that the first monies spent in          the course of the 2-year job training plan and the
the carry-over year, regardless of cost category, be               Governor's Coordination and Special Services Plan.
reported back against the previous year of obligation.             While this approach may be clear to ETA, we continue
                                                                   to maintain ETA has not addressed the issue for the
ETA has Issued Interpretations     which may Allow                 JTPA system as a whole. ETA's March 1985 Final
Program Records to be Destroyed before Compliance                  Interpretations   on cost limitations specifically provide
with Cost Limitations can be Tested                                that it is the States' responsibility to determine policy
                                                                   regarding cost limitations for Titles II-B and III. Fur-
When ETA'sinterpretationofmaximumandminimum                        ther, the March 1985 interpretations         do not make
limitations is coupled with the JTPA record retention              reference to the Governor's Coordination and Special
criteria, the recipients could destroy records before cost         Services Plan.
limitations compliance can be tested.

ETA issued an interpretation of the JTPA II-A Maxi-                ETA Failed to Adequately Clarify at which Operating
mum and Minimum Limitations on Expenditures which                  Level Cost Limitations and Restrictions Apply
stated that: they would review compliance based on
each year's allotment, and the time period for determin-           Current regulations are so unclear that the appropriate
ing compliance would be the 2 years of the approved                level (i.e., State or SDA) to apply cost limitations cannot
local job training plan. With the 2-year carry-over                be determined. In some instances, the cost limitations
period for expending unobligated funding, the period               promulgated in JTPA are specifically applicable to the
for testing compliance would not end effectively for               service delivery area (Section 108). However, the
over 4 years from the first year of obligation. However,           statute is silent as to the applicability of these limitations
20 CFR 629.35(e) states:                                           to the State. Current regulations do not define the
                                                                   operating levels at which cost limitations should be
    "The Governor shall ensure that procedures are                 applied. Cost limitations are unenforceable without
    developed for retention of all records . . . for a             universal understanding of the operating level to which
    period of three years from the date of obligation of           they apply.
    funds."
                                                                   We recommended that ETA clarify the level, State or
Unless States and SDAs have instituted a longer record             SDA, at which each of the JTPA cost limitations apply.
retention period, ETA regulations allow grant records              ETA maintains that the current requirements are clear.
to be disposed of 3 years after funds were first obligated.        However, we continue to believe this issue needs to be
However, the first date for final testing of cost limita-          addressed so that the cost limitations can be properly
tions, as interpreted by ETA, would be over 4 years after          enforced.
funds were first obligated (this is the Job Training Plan


                                                              16
PROCUREMENT OF JTPA TRAINING AND                                     the basis to determine compliance with legal restric-
SERVICES BY THE OREGON CONSORTIUM                                    tions of fund expenditure have been eliminated.

On August 23, 1988, OIG issued a draft audit report to               The SDA's response to our draft report stated that OIG
Oregon State officials on selected procurement activi-               had overstated the requirements of the law and regula-
ties conducted by the administrative unit of The Oregon              tions and ignored the appropriate roles of the State,
Consortium. The Oregon Consortium is the SDA for                     SDA, ETA, and OIG in interpreting the statute and
the JTPA program operated by the State of Oregon.                    regulations. SDA representatives believed the program
The SDA includes 27 counties throughout the State and                regulations suggest that it is the State and local level, not
is divided into nine administrative districts, each com-             the Federal level, where program questions regarding
prising one to five counties. Within each district, a                cost classification, fixed unit price contracting and cost
single contractor is selected to administer the JTPA                 limitations are to be resolved. The response provided
program in the district. The nine district operators                 no evidence to support that the SDA contracts met the
receive a yearly, sole source, fixed unit price contract,            requirements of 20 CFR 629.38(e)(2).
With one exception, each district operator received a
yearly contract totaling over $1 million.                            We recommendedETA         require reclassification of $53.8
                                                                     million of the SDA's reported training expenditures to
Because the program vulnerabilities were so extensive,               the proper JTPA cost categories. Upon completion and
and because the State JTPA administrative unit certi-                verification of proper cost classification, expenditure
fied that the SDA's procurement      operation was in                totals must be analyzed to determine compliance with
compliance with prescribed     standards of program                  statutory limitations on fund expenditures for admini-
administration, we directed our recommendations      to              stration and participant support. Any amounts exceed-
ETA's Assistant Secretary in our final report dated                  ing the legal limitations must be repaid to the Federal
September 27, 1988.                                                  Government from non-JTPA funds.

PROGRAM ACCOUNTABILITY HAS BEEN                                      Deficiencies in the Contract Negotiation Process
ELIMINATED THROUGH THE USE OF                                        Reduced the Funds Available to Provide Training and
INAPPROPRIATE CONTRACTS                                              Services


Misapplication of Federal regulations governing the                  Negotiation of contracts without State-required cost or
use and restrictions of FUPCs resulted in major mis-                 price analysis resulted in contract unit prices which
classification of program expenditures,                              could not be supported as reasonable.

The SDA designed its program to operate exclusively                  The SDA did not provide evidence to support that cost
through FUPCs. An analysis of the contracts, however,                or price had been evaluated during the SDA's contract
found they conform neither to the regulatory require-                negotiations, as required by the State JTPA administra-
ments for single unit charging of FUPCs to the training              tive unit. Without accurate information on the actual
cost category (20 CFR 629.38(e)(2)), nor to the intent               costs required to provide specific training and services,
of JTPA and its regulations which call for actual train-             the prices agreed upon may be unrealistic. Unrealistic
ing and job placement for specified individuals in speci-            prices can result in unreasonable      profit margins or,
fled occupations. Therefore, the SDA has no regulatory               conversely, contractor bankruptcy.       Obviously, both
basis for its decision to report all district expenditures as        situations lessen the quality and level of participant
training,                                                            training and services.

Since 1983, the SDA has reported approximately $53.8                 A review of 20 of the 45 contracts showed that, of the
of $57.6 million as training expenditures. Included in               $25.8 million of training funds provided to contractors,
this reported total is undetermined amounts of admini-               an estimated $4.2 million (16 percent) was retained by
stration, participant support, and other non-training                the contractors as profit. Because the SDA neither
expenditures which have been misclassified as training               requires nor evaluates contractor cost and price infor-
expenditures.     The misclassification  completely ob-              mation, no valid gauge of a reasonable unit price exists.
scures any ability to determine whether statutory limi-              With no basis to determine if the contract prices were
tations on expenditures of JTPA funds were observed,                 reasonable, it is not possible to determine if the profits
Thus, the major element of program accountability and                were warranted.



                                                                17
The auditee responded that there was no evidence cited            ployment and Training Act (CETA) and JTPA costs
in the draft report which suggested that the contract             per entered employment and numbers of participants
negotiation process resulted in reduced training funds,           entering employment.      The auditee claimed the bar
nor was there any evidence that contract earnings were            charts showed FUPCs provided increasingly cost effec-
used for anything except allowable JTPA costs,                    tive services within the SDA.

We concluded that the funds available to provide train-           The information provided by the auditee was incom-
ing and services to JTPA eligible clients in the SDA's 27         plete. We do not know the validity of information used
counties were reduced. The profits represent funds                to prepare the bar charts or whether the CETA and
available but not expended on JTPA training and serv-             JTPA data are, in fact, comparable. Also, factors other
ices during the contract period. Because the recipient            than contracting methodology could cause changes in
has not provided evidence that cost or price was ana-             the "cost per entered employment" and the "numbers
lyzed, we cannot determine if the contract prices were            of entered employment" figures.
reasonable.   Therefore, we have questioned the esti-
mated $4.2 million retained by the contractors as prof-           We recommended that ETA provide the necessary di-
its.                                                              rection and assistance to State and SDA personnel to
                                                                  develop and monitor contracts which meet Federal
We recommended that ETA require a complete ac-                    regulatory requirements and report measurable per-
counting of profits generated from the improperly                 formance statistics directly related to the job training
negotiated contracts.     Any "profit" realized under             received.
contracts ending before June 30, 1986, must be re-
turned to the U.S. Treasury unless the SDA can demon-             JTPA GRANT FUND PROTECTION
strate the "profits" were expended to provide JTPA                FORT WORTH CONSORTIUM
training and services, and were expended within 3 years
of fund obligation.    Section 161 of JTPA states that            Another JTPA audit initiative during this period was
funds obligated for any program year may be expended              conducted at the Fort Worth, Texas Consortium SDA.
by each recipient during that program year and the two            Our primary focus was to build on the single audit work
succeeding program years. Our review of 20 contracts              by evaluating the SDA's compliance with JTPA and its
found approximately $3.4 of the $4.2 million in esti-             regulations which affected financial reporting during
mated "profits" falls into this category. All "profits"           program years 1986 and 1987. Our scope was limited to
realized for later contracts should be returned to the            programs under Title II of the Act.
program and expended to provide JTPA training and
services in accordance with existing regulations and              In our final report issued to ETA, we recommended
limitations.                                                      $300,179 for disallowance and questioned $6,529. Fur-
                                                                  ther, we recommended that $441,486 in costs charged to
Reported Contract Performance does not Provide a                  the training cost categorybe reclassified to administra-
Realistic Gauge of how Effectively JTPA Funds have                tion.
been Utilized or how Meaningful Participant Training
has been                                                          While the audit covered only a single SDA, the follow-
                                                                  ing are issues which we have identified in other audit
Assertions that FUPCs resulted in increased perform-              work as well and which we believe have national policy
ance at decreasing cost could not be supported,                   implication.

An analysis of three sets of district contracts generally         Using Regulatory Provisions to Effectively Waive the
showed decreases in the number of participants to be              Statutory Limitation on Administrative Costs
served and increases in unit costs between program
years 1986 and 1987. Additionally, a review of 50                 Our audit found that costs of 10 fLxed unit price con-
participant files showed that for 16 (32 percent) partici-        tracts were charged entirely to training even though
pants, no direct causal relationship existed between              they did not meet the criteria in 20 CFR 629.38(e)(2).
JTPA training and performance statistics showing par-
ticipants had either entered unsubsidized employment              In responding to our draft report, the State disagreed
or attained employment competency,                                with this finding, adding that the practice of charging
                                                                  costs entirely to training was standard practice in the
The auditee responded to our draft report providing               State and throughout the nation as well.
two bar charts which compared Comprehensive Em-

                                                             18
We believe that, if the State's position prevails, the            TheSDA, however, was not free to move to a less costly
legislatively-mandated     limitation on JTPA administra-         location because the PIC had the power to approve or
tive costs is, in effect, circumvented,                           disapprove proposed leasing actions by the SDA. This
                                                                  potential conflict of interest is further supported by the
Allowing Tax-Exempt SDA Contractors         to make               fact that, despite the decline in local economic condi-
Profits on JTPA Funds                                             tions, the SDA did not renegotiate lease terms or move
                                                                  to a more reasonably priced location.
We recommended for disallowance profits from JTPA
funds received by tax-exempt entities. We found the               In disagreeing with our finding, the State advised that
profits were not "necessary and reasonable for proper             many SDAs lease space from entities with oversight
and efficient administration of the program." One non-            responsibility of their actions. No explanation regard-
profit entity received a profit of $62,443 or 977 percent         ing the excessive lease expense was offered.
over its actual costs of $6,388. Further, the profits were
used to finance a cash management fund, one use of                Using Defective Procurement       Practices   for Service
which was to pay disallowed audit costs. Another                  Provider Contracting
contractor, a public school district, was paid profits
ranging up to 41 percent ($I09,834) under f'Lxedunit              We found little, if any, price competition in negotiating
price contracts,                                                  fair and reasonable prices when fLxed unit price con-
                                                                  tracts were awarded. Additionally, arms-length nego-
The State contended that the issue of profits is irrele-          tiation of prices and other contract terms is apparently
vant since profits are "plowed back into the programs"            lacking. These practices caused, in part, most of our
authorized in a non-profit corporation's charter and are          other findings of noncompliance and our recommenda-
allowable under the Internal Revenue Code. Since the              tions that costs of $295,107 be disallowed and $416,063
charitable purposes are not limited to JTPA activities,           be reclassified.
JTPA program funds could be expended for activities
not authorized under the Act.                                     JTPA regulations contain a single paragraph on pro-
                                                                  curement which delegates responsibility to the States to
The State response included a copy of a letter dated              ensure that procurement systems are administered in
February 1986 from a city auditor. The letter requested           accordance with "applicable State and local law, rules
guidance as to whether JTPA service providers were                and regulations as determined by the Governor" (20
free to spend the fees they received from their f'Lxedunit        CFR 629.34). Based on our findings, this appears to be
price JTPA contracts on items such as "political contri-          inadequate criteria for the JTPA procurement process.
butions, cadillacs, or whatever theychoose." TheState's
reply to the city stated, "Once performance has been              The state disagreed with our findings.
verified and payments made accordingly, the contractor
has no further liability for these funds and the JTPA             ETA has not had an opportunity to respond to the final
audit trail stops as of the disbursement."                        audit report. We will discuss their response in our next
                                                                  semiannual report.
We believe that JTPA program funds were intended to
be used only for purposes authorized by the Act. If the           MISSISSIPPI     JTPA PROGRAM
State's position prevails, requirements that JTPA funds
be used for authorized purposes is, in effect, circum-            In August 1988, we issued a management letter advising
vented.                                                           ETA to closely examine the propriety of FUPCs used by
                                                                  Mississippi to operate its summer remediation pro-
Leasing Real Property by the SDA from the Private                 gram. In response to a complaint, we examined the
Industry Council (PIC) is a Potential Conflict of                 contract between the Mississippi Balance of State SDA
Interest                                                          and the Mississippi Department of Education.

We recommended that $122,828 be disallowed for                    The contract contained a "profit margin" line item of
unreasonable and excessive lease expense incurred for             $1.1 million, which represented 23 percent of the $4.9
real property leased by the SDA from the PIC. The                 million contract. The contract placed no restrictions on
SDA was paying the PIC twice the fair market value for            the amount or use of the profits. Further, there were no
the rental property. The excessive rental payment was,            assurances the profits would be recycled back into the
in effect, financing the PIC's mortgage payments and              program to fund other allowable JTPA activities. We
other costs,                                                      believe this planned profit margin was both inappropri-
                                                             19
ate and excessive. In addition, the contract called for a        mandated that funds be used on three high priority
fixed unit price of $1,225 per participant. We expressed         areas including: illiteracy among youth and adults, high
our concern to ETA that this cost per participant                school dropouts, and barriers confronted by disadvan-
apparently bears no relationship to the expected cost of         taged youth who do not plan to pursue additional edu-
operating and administering the program,                         cation beyond high school.

Another item of concern was the proposed purchase of             JTPA Section 123 funds serving participants at the
computer-assisted     learning programs for $650,000.            Toyota Plant were not used for the type of training
Although the computer programs were purchased us-                mandated by the 1986 amendments.
ing program year 1988 funds, the programs were not
distributed to the school districts until the summer             We are continuing our audit work. As of July 1988,
program was almost over. We also advised ETA of                  approximately $2.6 million were incurred serving 540
budgeted transportation costs that appeared inappro-             potentially ineligible participants at the Toyota plant.
priate, and indirect costs that maybe duplicated in other
budgeted line items.                                             We issued a management letter to ETA's Assistant
                                                                 Secretary on September 23, 1988, expressing our belief
The above items compound our concerns about what                 that the Commonwealth        of Kentucky has misinter-
we perceive as widespread abuses of JTPA fLxed unit              preted the provisions of Section 123 of JTPA and may
price contracting. We believe ETA should review such             be incurring millions of dollars in unallowable costs.
contracts and provide greater direction and clarity to           We recommended that immediate action be taken to
JTPA service providers to identify current problems              resolve the issue and establish and disseminate policy
and avoid future difficulties,                                   and instructions to all State JTPA recipients regarding
                                                                 the allowable use of Section 123 funds.
ETA agreed that OIG's contract review raised concerns
about questionable procurement practices in the Mis-             REPORT lI
sissippi summer program. ETA suggested that an OIG               SERVICE PROVIDER CONTRACT ELEMENTS
special audit would be appropriate, after which specific
and suitable action can be taken. Furthermore, ETA               During our 1986-87 JTPA participant training and
indicated that it would be providing explicit guidance on        services review, we collected a statistical sample of
the areas of concern related to performance based                service provider contracts at 58 SDAs. Ultimately, we
contracting when it issues final policy,                         collected 3,878 contracts representing $216.6 million in
                                                                 JTPA funding.
KENTUCKY JTPA PROGRAM QUESTIONED COSTS
                                                                 To determine whether these contracts contained ele-
We are following up on a complaint alleging that JTPA            ments necessary to properly safeguard public funds, we
training funds were used to serve ineligible participants        gave a sample of contracts to attorneys under contract
at the Kentucky Toyota Motor Manufacturing Plant.                to OIG who were selected because of their expertise in
We initiated a limited review of the Commonwealth of             Federal procurement law.
Kentucky systems and procedures for enrolling pro-
gram participants and for ensuring that expenditures             The attorneys were asked to determine those contrac-
are allowable under JTPA.                                        tual elements necessary for adequate protection of
                                                                 JTPA funds and to ascertain whether those elements
We found no major system deficiencies. However, our              were present. They subsequently selected 16 elements
review disclosed a problem in Kentucky's interpreta-             based on what is usually found in Federal contracts (5
tion of Section 123 of the Act which establishes parame-         essential and 11 supplemental) against which to test the
ters for an 8 percent "State set aside." Kentucky has            contracts.
interpreted the language in these provisions as allowing
25 percent of the funds to be used for training individu-        Overall, 83 percent of the contracts, representing $109
als who are not JTPA eligibles,                                  million or 52 percent of the JTPA funds reviewed, failed
                                                                 to adequately protect JTPA funds.
We questioned this interpretation of the Act, and a legal
opinion obtained on the issue agreed with our position.          Contracts missing one or more of the essential elements
It also raised concerns regarding Kentucky's use of              totaled 76 percent, representing $90.4 million or 43
Section 123 funds. The 1986 amendments to JTPA                   percent of the total dollars reviewed. Contracts con-


                                                            20
taining all of the essential elements but missing five or          The effect of the FUPC regulations is to allow less than
more supplemental elements totaled 7 percent, repre-               70 percent of an SDA's Title II-A funds to be spent on
senting $18.6 million or 9 percent of the total dollars            actual training and more than 15 percent on admini-
reviewed,                                                          stration, contrary to law. Since it has no basis in statute,
                                                                   as acknowledged by ETA, we believe 20 CFR 629.38(e)(2)
In analyzing the contracts, we found that they were                should be eliminated in its entirety as contrary to the letter
substantially inconsistent in the quality of draftsman-            and intent of the law.
ship and the degree of protection offered. We found
contracts at both ends of the spectrum:   from extremely           Comprehensive          Employment         and Training
poor and completely lacking protection for JTPA funds              Act (CETA)
to very well drafted, comprehensive documents. Some
clauses closely paralleled those found in Federal Gov-             MASSACHUSETI'S          CETA PRIME SPONSOR
ernment contracts, while others differed greatly.                  SPECIAL REPORT

In a program of this magnitude, the fact that such a large         The State of Massachusetts contracted with a CPA firm
percentage of the sampled contracts did not contain                to audit CETA funds awarded to the Balance of State
elements necessary to adequately protect JTPA funds is
                                                                   Prime Sponsor, using agreed-upon procedures.        The
significant. In our opinion, this has the potential to             review was performed to assist the State in a final
result in waste and abuse of Federal funds,                        closeout of its CETA program. The audit period covers
                                                                   the entire program period, extending from 1973-1984.
While we recognize that the current design of JTPA                 The report was issued in August 1988, and is presently
makes it impossible to require States, SDAs, and locali-           being processed in ETA. The report includes a ques-
ties to utilize a standard contract, much greater protec-          tioned cost of $41,067 and indicates that the State still
tion of Federal funds would result if the writing of               has a CETA cash balance of $3,636,311 which we
contracts could be improved,                                       believe should be returned to the Federal Treasury.

In response to the report, ETA plans to issue a January
1989 Training and Employment Guidance Letter (TEGL)                Unemployment Insurance Program
outlining
report. ETAthe results and concerns
               also advised that plansraised in theway
                                        are under   PIGto          The Social Security Act of 1935 authorized       the Unem-
develop a contract training package for dissemination              ployment Insurance (UI) program which is a unique
to the States and SDAs.                                            Federal-State partnership that is based upon Federal
                                                                   law, but is implemented through individual State legis-
To date, the general theme of ETA's responses on the               lation.
reports discussed above has been to agree that specific
abuses exist and that further audit work and contract              This program is administered     by the State Employment
training is in order. However, ETA continues to rely on            Security Agencies (SESAs) in the 50 States and three
its August 6, 1988, "proposed      interpretation"   of            other entities, the District of Columbia, Puerto Rico
                                                                   and the Virgin Islands. At the Federal level, the Unem-
20 CFR 629.38(e)(2), allowing FUPCs to be 100 per-
cent charged to training,                                          ployment Insurance Service (UIS) of ETA is charged
                                                                   with ensuring proper and efficient administration of the
PIG disagrees that the "proposed interpretation"       will        UI program.
bring the system closer to accountability and in compli-
ance with congressionally mandated cost limitations.               UNEMPLOYMENT            FUND CASH MANAGEMENT
The "proposed interpretation"        itself is replete with
provisions which effectively expand, rather than limit,            We completed a 10-State review to determine the po-
the use of FUPCs. Thus, ETA program management is                  tential interest income that is not realized by the States'
sending the wrong signal to the JTPA system when it                Unemployment Trust Funds because of ETA's policy
continues to promote the use of FUPCs chargeable                   that prohibits States from investing "float" generated
100 percent to training, especially after being apprised           by disbursing unemployment benefits.
officially of their use to circumvent cost limitations and
their negative impact on program accountability.                   "Float" is the period between the time that benefit
                                                                   disbursements are made by the States and the time that




                                                              21
the payment instruments are returned to the bank or                In response to our draft report, ETA declined to recon-
State treasury for redemption. Float, even if available            sider its UI cash management policies, indicating that it
only overnight, has significant earnings potential,                intends to continue to base unemployment fund man-
                                                                   agement actions on its interpretation of existing law and
We estimated that the nation's unemployment compen-                departmental statutory interpretations.     ETA indicated
sation program could realize an additional $15 million             that its position has not changed since it responded to
annually if the Department recognized the States' in-              the draft report. ETA declined a meeting to further
volvement in cash management and ensured that reve-                discuss the issues, because, in its view, there have been
nue earned on benefit payment account "float" was                  no new developments since prior meetings to warrant
credited to States' Unemployment Trust Funds (SUTFs).              further discussion.

Of major concern is ETA's prohibition against States               Technical Assistance Review to Identify High Risk
investingbenefit payment account float. In our opinion,            Employers Who Potentially Underpaid State
ETA has misinterpreted the Social Security Act's pro-              Unemployment Taxes
visions and constructed a prohibition on State invest-
ment of float which the Congress did not intend. Fur-              In our previous semiannual report, we discussed OIG's
ther, ETA's prohibitions do not prevent investments                ongoing development of computerized techniques to
from occurring. As a result, either commercial institu-            identify high risk employers for SESA field audits.
tions or the States' general funds benefit from float              Since then, we completed technical assistance reviews
earnings, rather than the States' unemployment corn-               in five States and have issued a summaryreport to ETA.
pensation programs.
                                                                   Development of Computer Software
Before meaningful reform can occur, ETA's policies
must allow the unemployment compensation program                   We develope_l computer programs which read the SESA's
to take advantage of more effective cash management                employee wage history files and calculate taxable wages
alternatives,                                                      for each employer. We then compared our calculations
                                                                   with taxable wages reported by employers on the tax file
OMB has recently issued an official Administration                 to determine potential underreported taxable wages.
position on UI cash management which concurs with                  Differences between OIG-computed taxable wages and
our recommendation to recognize float earnings and                 taxable wages reported by employers were then multi-
require their deposit into the Federal Unemployment                plied by the appropriate tax rate to arrive at potential
Trust Fund (FUTF).       In response to a congressional            underpaid taxes.
inquiry on treatment of UI funds under pending cash
management legislation, OMB has stipulated that inter-             A by-product of developing our model are computer
est should be earned on funds held at the local level until        programs that identify and correct many social security
such funds are needed to redeem benefit checks,                    number errors in wage records without requiring time-
Additionally, its position is that such earnings should            consuming manual re-entry. Our sampling showed that
return to the FUTF, as proposed by this legislation, so            98 percent of the errors we identified were properly
that maximum funds are available for investment by the             corrected by automated routines.
Secretary of the Treasury.
                                                                   Results of Review
Until such time as UI cash management is directly af-
fected by the above-referenced legislation, we continue            In the five States reviewed, we identified $10.7 million in
to recommend that ETA's Assistant Secretary assist                 potentially underpaid taxes. Of this amount, $5.4 rail-
States individually in determining the most effective              lion comes from 773 employers with potential under-
SUTF cash management systems available and encour-                 payments of more than $1,000 each. The States are
age their implementation; eliminate prohibitions on                presently reviewing these cases and recovering those
State investment of benefit payment account float; and             that are verified.
implement effective requirements or, as necessary, spon-
sor Federal legislation to ensure SUTFs receive invest-            Our software was especially useful in Louisiana in
ment revenue,                                                      identifying employers out of compliance with a newly




                                                              22
established debt service tax. The Louisiana        agency        of the three States, we found problems unique to those
wrote the foUowing concerning OIG's efforts:                     States. These problems have been identified in individ-
                                                                 ual reports which were issued to the States and ETA.
     "Through their diligent work, the Louisiana De-
     partment of Labor has the potential of collecting an        Our survey disclosed TRA regulatory provisions that
     additional $1.3 million in unemployment insurance           should be clarified to prevent abuses to the TRA pro-
     taxes due the State. Also, their assistance with our        gram and better satisfy the intent of the Act. We also
     new Debt Service Tax realized a potential collee-           identified $1.9 million of TRA overpayments.
     tion of $3.1 million.
                                                                 We recommended that ETA eliminate the vagueness in
     The software programs designed for the employee             the current regulations to ensure that individuals re-
     wage history Ides have assisted in correcting ap-           ceive TRA benefits because they are out of work due to
     proximately 33,000 social security number errors,           foreign imports, not because they once had a TRA
     and has allowed this Agency to pay unemployment             qualifying separation; and that they receive TRA bene-
     insurance benefits faster with a reduced number of          fits during legally established eligibility periods.
     benefit assignments sent to tax auditors in the
     field."                                                     Also, ETA should require Pennsylvania     to repay $1.9
                                                                 million of estimated overpayments.
We recommended that ETA disseminate our report to
all SESAs and encourage adoption of the programs.                EMPLOYMENT STANDARDS
For those SESAs willing to adopt the system, ETA                 ADMINISTRATION
should consider waiving its current requirement that
each    SESA annually audit 4 percent of covered employ-         The Employment Standards Administration (ESA) is
ers.    We believe the ADP programs provide a better             composed of three program offices: the Office of
basis    of targeting employers for review than current          Federal Contract Compliance Programs (OFCCP), the
ETA      requirements.                                           Office of Workers' Compensation Programs (OWCP),
                                                                 and the Wage and Hour Division.
ETA has responded that, although it is interested in the
programs, it first needs to study them in relation to
                                                                 OFCCP administers an Executive Order and portions
other ETA program       improvement    projects currently        of the statutes which prohibit Federal contractors from
under way.                                                       engaging in employment discrimination and require
                                                                 affirmative action to ensure equal employment oppor-
TRADE READJUSTMENT ALLOWANCES                                    tunity.
SURVEY

                                                                 OWCP administers three laws providing compensation
We completed a survey of Trade Readjustment Allow-               and medical benefits, primarily for on-the-job injuries
ances (TRAs) authorized by the Trade Act of 1974, to
                                                                 and occupational diseases, to civilian employees of the
determine if systemic problems exist which warrant a             Federal Government, coal miners, and longshore and
national scope audit of TRAs.                                    harbor workers.


TRAs are federally-funded unemployment benefits for              Wage and Hour enforces minimum wage and overtime
individuals who are out of work because of foreign               standards, establishes wage and other standards for
imports. TRAs are payable only after exhaustion of               Federal contracts, and enforces aspects of other em-
unemployment compensation,                                       ployment standards laws.

Our survey consisted of financial and compliance re-             Of ESA's $242.2 million budget for fiscal year 1989,
views of fiscal year 1987 TRAs paid by Pennsylvania,             Wage and Hour uses the largest portion to enforce a
Texas, and West Virginia.      These three States ac-            wide variety of labor standards.
counted for $58 million (28 percent) of total fiscal year
1987 TRA payments of $210 million.                               We completed significant work during this semiannual
                                                                 period in OFCCP and in OWCP's Black Lung and
We identified no common systemic problems among                  FECA programs.
the States audited that warrant a national audit. In two



                                                            23
Federal Contract Compliance Programs                               During the course of our review, OFCCP had begun
                                                                   several program initiatives which could result in im-
The Office of Federal Contract Compliance Programs                 proving the effectiveness and efficiency of its enforce-
(OFCCP) enforces Executive Order 11246, Section 503                ment operations. OFCCP has also begun implement-
of the Rehabilitation Act of 1973, and 38 U.S.C. 2012 of           ing an extensive training program to reinforce and
the Vietnam Era Veterans' Readjustment Assistance                  upgrade the job skills of its enforcement staff. Since
Act. The Executive Order and statutes prohibit em-                 these initiatives were ongoing during our audit fieldwork,
ployment discrimination by Federal contractors on the              we were unable to assess their impact on improving
basis of race, color, sex, national origin, handicap,              operational performance. However, these efforts should
religion, or veteran status. In addition, Federal contrac-         significantly improve the effectiveness of OFCCP's
tors are required to take aff'trmative action in hiring,           enforcement programs.
training, and advancement of qualified and qualifiable
minorities, women, certain veterans, and individuals               Program   Planning Process
with handicaps.      In 1978, responsibility for contract
compliance was removed from 11 major Federal De-                   OFCCP's planning process did not provide effective
partments and centralized in OFCCP.                                and efficient enforcement strategies.     Our audit dis-
                                                                   closed ineffective systems for identifying and selecting
OFCCP has a broad-ranging responsibility for ensuring              contractors for compliance reviews; inefficient tech-
nondiscrimination and affirmative action by more than              niques used to evaluate contractor compliance with
215,000 Federal contractor establishments, employing               EEO obligations; unequal and inconsistent enforce-
more than 30 million workers and having more than                  ment of Federal EEO regulations; and an ineffective
$167 billion worth of business with the United States              preaward review system.
Government.      To administer the programs for fiscal
year 1987, OFCCP was authorized a budget of $47.9                  OFCCP Did Not Identify the National Universe of
million and a total of 910 positions located in the                Federal Construction Contractors and Reliedon Supply/
national office, 10 regional offices, and 56 area and field        Service Contractors To Adhere Voluntarily to
offices.                                                           Regulatory Requirements for Identifying Themselves
                                                                   as Members of the Federal Contractor Universe
OFCCP SHOULD ENFORCE FEDERAL EEO
REGULATIONS MORE EFFECTIVELY AND                                   Contractors who failed to comply with reporting re-
CONSISTENTLY                                                       quirements were omitted from the universes and were
                                                                   rarely, if ever, subjected to an evaluation of their com-
We completed an extensive nationwide program results               pliance with EEO regulations. In addition, selection of
audit of OFCCP to evaluate the overall effectiveness               supply/service contractors for review was based pri-
and efficiency of its enforcement operations. Our basic            marily on a single ranking criteria, and construction
audit period was October 1, 1984, through September                contractors were being selected for review without any
30, 1986. However, when warranted, coverage was                    indication of their potential degree of noncompliance
expanded to include fiscal year 1987.                              with EEO regulations.       Additional selection criteria
                                                                   were available which, if used, would result in signifi-
We found that more effective management in the areas               cantly improving OFCCP's ability to identify and select
of program planning, enforcement, and accomplish-                  for review those contractors with the greatest potential
ment reporting would improve Federal contractor                    for noncompliance.
compliance with equal employment opportunity (EEO)
and affirmative action requirements.     Specifically, we          The Number of Federal Contractors Subjected to EEO
found that OFCCP's annual program planning process                 Evaluations was Reduced Significantly Due to OFCCP's
did not provide enforcement strategies which make the              Limited Review Techniques
most effective and efficient use of its staff resources;
that OFCCP needs to take more timely enforcement                   OFCCP limited EEO evaluations to full scope compli-
actions against Federal contractors who, in some in-               ance reviews of single establishments. Sole reliance on
stances, discriminated against or failed to take affirma-          this technique restricted the number of evaluations to
tive actions in hiring, training, and advancement of               just 3 percent of the Federal contractors covered by
protected group members; and that OFCCP was unable                 EEO regulations. Although the Federal Contract Corn-
to meaningfially and accurately measure the impact of              pliance Manual (FCCM) provides for limiting compli-
its various enforcement programs,                                  ance reviews to the desk audit phase, OFCCP seldom


                                                              24
used this survey technique.      In addition, OFCCP's           We recommended that OFCCP strengthen procedures
utilization of the single unit review resulted in the           to identify Federal contractors subject to EEO regulations;
expenditure of significant enforcement resources by             implement multiple criteria models for ranking and se-
repeatedly reviewing individual establishments of multi-        lecting, at the national level, Federal contractors for
establishment corporations. For example, during a 3-            compliance reviews; more fully utilize desk audits to
1/2 year period, OFCCP expended over 7,000 Equal                evaluate contractors' potential noncompliance with EEO
OpportunitySpecialist  hoursconducting73     compliance         regulations; elevate evaluations of contractor compli-
reviews on the individual establishments of just one            ance with EEO regulations to the parent organizational
parent Corporation.                                             level; rescind all self-monitoring agreements which exdude
                                                                Federal contractors from standard compliance review
Federal EEO Regulations Were Not Equally Enforced               selection criteria; and pursue steps which would remove
for All Federal Contractors                                     Federal regulatory requirements for preaward clear-
                                                                ance prior to the issuance of Federal contracts.
OFCCP made a practice of excluding significant num-
bers of contractors from its standard review selection          Enforcement of EEO Regulations
criteria based solely on their participation in one of
several self-monitoring programs. OFCCP was unable              OFCCP should take stronger and more timely enforce-
to adequately evaluate their compliance with EEO                ment actions against Federal contractors who discrimi-
regulations since the contractors were rarely, if ever,         nated against or failed to take affirmative actions in
subjected to compliance reviews. These programs have            hiring, training, and advancing protected group mem-
been utilized since 1982. In 1984, both the House               bers. Our audit disclosed that underutilization of pro-
Committee on Education and Labor and the Office of              tected group members was not effectively identified and
Civil Rights, Federal Highway Administration, U.S.              remedied; that the quality of compliance reviews could
Department of Transportation, expressed concerns re-            be improved; that the contractors' internal reviews were
lated to the utilization of these programs.   The pro-          ineffective; that the enforcement actions were not timely
grams have resulted in inconsistent enforcement of              utilized; that the monitoring contractor corrective ac-
EEO regulations and potentially lessen voluntary                tions for remedying EEO violations was inadequate;
compliance by Federal contractors subjected to more             and that complaint appeals were not processed and re-
stringent enforcement. Limited enforcement resources            solved in a timely manner.
mandate that OFCCP rely on contractors to comply
voluntarily with their EEO obligations.      Voluntary          Enforcement Regulations Were Weakened by Oral
compliance is greatly enhanced when Federal laws and            Policies and Procedures Issued at the National Level
regulations are equally and consistently enforced.
                                                                Implementation of these policies and procedures re-
Preaward Compliance Reviews Still Do Not Meet                   suited in lowering the standard for identifying under-
Regulatory Intent to Prevent the Award of Large                 utilization of protected group members and weakening
Dollar Contracts to Contractors Unable or Unwilling             the regulatory enforcement actions provided to remedy
to Comply with their EEO Obligations                            the underutilization. In determining whether protected
                                                                group members are underutilized in construction con-
The inherent ineffectiveness and inefficiency of the            tractor workforces, OFCCP historically has used what
preaward process has been recognized since 1981, and            amounted to the "any difference" rule, i.e., any differ-
was reported in an OIG survey report on OFCCP                   ence between availability and utilization was seen as
operations in September 1985. OFCCP has not, how-               underutilization. On the other hand, the agency orally
ever, acted to implement OIG's earlier recommenda-              permitted supply/service contractors to use less rigid
tion to eliminate the preaward regulatory requirement,          approaches.     For example, contractors were not re-
As a result, during fiscal year 1986, OFCCP expended            quired to declare underutilization in those instances
21 staff years processing 22,000 requests for preaward          where their employment of protected group members
clearance. The large majority of requests for clearance         was within 80 percent of availability. Oral policy and
are granted without an on-site review. Even more to the         procedures which abolished the use of ultimate and
point, reviews have not prevented the award of a single         makeup goals also drastically diminished OFCCP's
Federal contract,                                               ability to remedy the effects of underutilization.




                                                           25
Ineffective Controls Over the Quality of Compliance              tional office. Our review of a sample of completed cases
Reviews Impeded OFCCP's Enforcement of Federal                   indicated that processing timeframes ranged from 51 to
EEO Regulations                                                  450 days, and averaged 156 days. These delays were
                                                                 attributed to the low priority assigned to processing and
We identified case quality deficiencies in 57 percent of         inadequate control over these cases.
the closed compliance cases included in our sample.
Case quality problems were attributable to an ineffec-           We recommended      that OFCCP:
tire policy and procedures system and the practice of
using oral policy to direct the program; the lack of             1. Pursue the necessary steps under the Administrative
timely accountability reviews; and the lack of effective         Procedures Act to promulgate regulatory requirements
quality reviews at the area/field office level,                  which will clearly define underutilization;

The Contractor Internal Review Process (IRP) Has                 2. Require contractors, in accordance with FCCM pol-
Proven Ineffective in Resolving Complaints of                    icy, to establish ultimate and makeup goals when neces-
Discrimination Filed with OFCCP                                  sary to promptly achieve full and equal employment of
                                                                 protected group members;
Based on our sample, IRPs were not only unsuccessful
in resolving 89 percent of complaints, they significantly        3. Reduce to writing and when required, publish for
delayed OFCCP's investigations,                                  comment all oral policy currently being used;

Compliance Reiview and Complaint Investigation Time              4. Develop procedures to utilize trend analyses to effec-
Standards Were Significantly Exceeded before Formal              tively identify patterns and remedy causes of case qual-
Enforcement Actions Were Recommended by OFCCP                    ity deficiencies;

During fiscal year 1986, an average of 354 days elapsed          5. Implement controls to ensure that regional and field
before OFCCP recommended enforcement actions as                  offices are subjected to timely accountability reviews;
a result of complaint investigations.  OFCCP's reluc-
tance to recommend timely formal enforcement re-                 6. Require contractors to measure, in corrective action
sulted in compliance cases being closed by OFCCP                 reports, the effectiveness of corrective actions in in-
without corrective actions taken to remedy major EEO             creasing the utilization of protected group members;
violations.
                                                                 7. Monitor contractors' compliance with conciliation
OFCCP Was Not Ensuring that Contractors Fully and                agreements in a timely manner until it has been deter-
Timely Remedied EEO Violations Identified During                 mined that effective corrective actions have been taken
Compliance Reviews and Complaint Investigations                  to remedy the cited EEO violations;

Contractors were not consistently required to submit             8. Recommend enforcement proceedings against con-
corrective action reports which contain sufficient infor-        tractors unable to demonstrate compliance with provi-
mation. These reports were not submitted frequently              sions of conciliation agreement in a timelymanner; and
enough to thoroughly evaluate compliance with concili-
ation agreements. Therefore, enforcement actions were            9. Develop and implement controls to ensure that
not being taken against contractors who failed to rem-           appeals of complaint investigation decisions are proc-
edy EEO violations. Inadequate tracking and evalu-               essed and resolved in a timely manner.
ation of corrective action reports was cited in a 1981
GAO report and again in the 1985 OIG survey report.              Program Accomplishments
Our follow-up review of this condition showed that
OFCCP had not implemented effective corrective ac-               OFCCP did not measure the impact of its various
tions to remedy these operational weakness,                      enforcement programs to ensure nondiscrimination
                                                                 and affirmative actions among Federal contractors
OFCCP Was Not Effectively Controlling       and Timely           meaningfully and accurately. Our audit disclosed that:
Resolving Complaint Appeal Cases                                 criteria used to measure program effectiveness were
                                                                 inadequate; and that financial accomplishments   were
Significant delays occurred in processing and resolving          not reported accurately and consistently.
complaint investigation decisions appealed to the na-


                                                            26
OFCCP Used a Variety of Staff Productivity Statistics             Agency Response to Draft Audit Report
in an Attempt To Measure Effective Achievement of
Executive and Congressional Goals                                 The Assistant Secretary for Employment Standards
                                                                  responded to the draft audit report on September 7,
In response to recommendations made in the 1985 OIG               1988. While the Assistant Secretary agreed with many
survey report, OFCCP stated that it planned to choose             of the report's specific recommendations, he disagreed
a method of reportingwhich it believed would assess the           with others and with the report's overall conclusions.
program's impact.       However, program accomplish-              He contended that the report contained:
merits reporting for the two fiscal years subsequent to
issuance of that earlier survey report were based on the          1. Assertions and over-generalized conclusions based
same productivity statistics. While these productivity            on fundamental misunderstandings       about the OFCCP
statistics may provide some measure of operational                program, its policies and regulations;
efficiency, they did not measure the program's results
related to reduced discrimination and increased af-               2. Analyses and conclusions dated and removed from
firmative action,                                                 the current state of affairs in OFCCP, since the basic
                                                                  audit period was October 1, 1984 through September
Inaccurate Data Was Used To Measure and Evaluate                  30, 1986. The report does not reflect progress made
Program Effectiveness because of Ineffective                      during the review period, nor does it appropriately
Financial Reporting Systems                                       consider all relevant information from 1987. The re-
                                                                  port, as published in 1988, reflects for the most part 2-
As a result of using inaccurate data, financial accom-            to 4-year old f'mdings; and
plishments reported in OFCCP's fiscal years 1986 and
1987 annual budget request to the Congress were sig-              3. Recommendations     which suggest specific decisions
nificantly overstated. Cases included in our sample ae-           among policy options that seek to preempt the exclusive
counted for $13.2 million or 45 percent of the $29.1              policy making mandate of the Secretary, including one
million of OFCCP's reported fiscal years 1986 and 1987            recommendation     which conflicts with settled law in
financial accomplishments.    Case files did not support          disregard of decisions by the Supreme Court.
$10.4 million of the $13.2 million (78 percent) reported
financial accomplishments.      This overreporting was            The Assistant Secretary requested a cooperative effort
primarily due to OFCCP's basing accomplishments on                to clarify and resolve specific issues of disagreement
inflated estimates and erroneously claiming accom-                between OFCCP and OIG which could then lead to a
plishments which were not the result of reported EEO              more current and accurate report. The Assistant Sec-
violations,                                                       retary also requested formally that the audit be contin-
                                                                  ued to incorporate consideration of the OFCCP activi-
We recommended       that OFCCP develop and imple-                ties during fiscal years 1987 and 1988.
ment sufficient controls for ensuring that:
                                                                  We Do Not Believe the Assistant Secretary's
1. Contractor corrective action reports are used as a pri-        Contentions are Supported
mary source of meaningful data elements needed to
assess program effectiveness;                                     Instead, we believe that:

2. Program accomplishments claimed and reported are               1. Conclusions reached and recommendations      made in
based on remedies for EEO violations identified and               the audit report are based on large volumes of data,
cited during OFCCP compliance reviews and com-                    evaluation of OFCCP policy and procedures in effect
plaint investigations; and                                        during the review, and extensive interviews of enforce-
                                                                  ment staff and management officials at all levels of
3. Program accomplishments are claimed and reported               operations.
on only after adequate follow-up has occurred which
will ensure that the contractors have taken the agreed
upon actions.




                                                             27
2. Data analyzed during the reviewwas the most current           ferral of possible fraud cases to OIG's Office of Inves-
available at the time of our on-site fieldwork. Also, our        tigations; procedures to assure due process in the recov-
review of OFCCP's policies and procedures focused on             cry of BLDTF overpayments; practices and procedures
those in effect during our audit fieldwork and included          for preparing Certificate of Medical Necessity-Data
documented changes which had been implemented and                Collection Forms (CMN-DCF); and compliance with
which impacted our potential findings,                           standards and procedures       for operation of ESA's
                                                                 Employee Suggestion Program. The D.O. was gener-
3. The audit report contains no instances where the              ally in compliance with the last two areas reviewed.
OIG attempts to preempt the Secretary's authority to
make policy. The OIG has, however, exercised its right           Our review of a sample of case files disclosed that
and responsibility as mandated by the Inspector Gen-             RMOs were not billed for $271,503 of principal and
eral Act of 1978, to provide independent and objective           interest by the BLDTF. This was contrary to ESA's
leadership and coordination and recommend policies               directives and occurred because DCMWC failed to
for activities designed to promote economy, efficiency,          either calculate the amount due from the RMO or to
and effectiveness in the administration of Department            calculate it correctly.
of Labor programs and operations.
                                                                 We were unable to express an opinion on the effective-
Black Lung Program                                               ness and adequacy of the Johnstown D.O.'s accounta-
                                                                 bility review process because, according to responsible
ESA's Division of Coal Mine Workers' Compensation                agency officials, the workpapers from the last reviews
(DCMWC) administers the Federal Black Lung Pro-                  were not retained. However, we did note that the fiscal
gram under the Black Lung Benefits Revenue Act, as               year 1986 Accountability Review Report stated that the
amended. The Black Lung Benefits Revenue Act of                  Johnstown D.O. exceeded the standard for interest
1977 established the Black Lung Disability Trust Fund            calculation and assessments against RMOs. This con-
(BLDTF) to shift fiscal responsibility for Black Lung            clusion is contrary to our findings discussed above.
benefit payments from the Federal Government to the
coal industry.                                                   Based on our findings, we recommended        DCMWC:

The Act provides for monthly compensation and medi-              1. Review all cases in which a mine operator was deter-
cal treatment benefits to coal miners who are totally            mined responsible to ensure that interest on interim
disabled from pneumoconiosis arising from their era-             benefits was properly assessed and collected from the
ployment in or around coal mines. The Act also                   RMO;
provides for monthly payments to eligible surviving
dependents. Benefit costs are paid by coal mine opera-           2. Strengthen the controls within the system for moni-
tors or by the BLDTF if no coal mine operator is liable          toring the assessment and collection of funds due the
for payment. For fiscal year 1989, Black Lung has a              BLDTF from the RMOs, including procedures for
staffing level of 389 and a budget of $29.8 million. The         establishing,   liquidating and tracking accounts receiv-
appropriation for the BLDTF for disabled coal miners'            able;
benefits totals $633.4 million. Approximately 84,500
claimants are expected to receive monthly compensa-              3. Retain summary working papers generated by the
tion benefits and an additional 42,500 miners are eli-           accountability review that document cases reviewed
gible to receive medical benefits,                               and conclusions reached, and incorporate a standard
                                                                 into the accountability review process that addresses
JOHNSTOWN       BLACK LUNG PROGRAM                               the issue of debt collection from the RMO;

In response to a complaint, we completed a special               4. Adhere to established procedures relative to the re-
review of selected management practices and proce-               ferral of possible fraud cases to the OIG; and
dures at the DCMWC District Office (D.O.) in Johnstown,
Pennsylvania.                                                    5. Utilize the procedures   for recovery of funds from an-
                                                                 other Federal agency.
Specific areas covered in our review included: assess-
ment and collection of funds due the BLDTF from                  ESA concurred     with our recommendations    and is in the
responsible mine operators (RMOs); effectiveness and             process of implementing corrective action. Beyond the
adequacy of ESA's accountability review process; re-             $271,503, we directly identified as not properly billed to


                                                            28
RMOs, the D.O. had determined, as of September 13,                  ment. OIG believes that this tool can assist efforts in
1988, approximately $479,000 in additional costs recov-             medical management as well as increase employing
erable from RMOs. As a result, the D.O. has assessed                agency awareness and accountability over future com-
RMOs amounting to approximately $750,503 to date                    pensation costs.
based on our review. Further, the DCMWC Associate
Director has advised us that a review initiated by the              MINE     SAFETY       AND         HEALTH
agency in April 1986, which was prompted by an OIG                  ADMINISTRATION
report issued in 1985, resulted in the collection of

almost $1.2 million in 548 RMO cases. An additional                 The Mine Safety and Health Administration (MSHA)
1,150 cases are still awaiting collection by DCMWC.                 administers the provisions of the Mine Safety and
                                                                    Health Act of 1977. The program is designed to reduce
Federal Employees' Compensation                 Program             the number of mine-related accidents and fatalities and
                                                                    achieve a safe and healthful environment for the ha-
The Federal Employees' Compensation Act (FECA) is                  tion's miners. Approximately 5,000 coal and 11,600
the sole form of workers' compensation available to                metal/nonmetal    mining operations are under MSHA's
Federal employees who suffer on-the-job injury or                  jurisdiction.  For fiscal year 1989, MSHA had an ap-
occupational disease. DOLadministers    the Act, but all           proved staffing level of 2,790 and a $162.6 million
Federal agencies influence how effectively it is imple-            budget.
mented. In fiscal year 1989, FECA's requested staffing
levells 900 with a $50.1 million budget. With chargeback            Mine Plan Approval and Selected
collections and the appropriation, ESA will pay out                 Enforcement Activities
approximately $1.3 billion for Federal employees' and
special benefits. Approximately 52,700 claimants will
receive long-term benefits and another 77,000 Federal                In March 1987, the Senate Committee on Labor and
employees will receive continuation of pay for short-                Human Resources held oversight hearings which were
term job-related injuries.                                         , extremely critical of MSHA's Coal Mine Plan Safety
                                                                     Enforcement Program.     As a result of this congres-
OWCP Should Evaluate Non-Federal Workers'                           sional interest and our prior audit work, we initiated a
Compensation Techniques To Assess their                             review in the areas of coal mine plan approval and
Adaptability to FECA                                                selected elements of the inspection process. Our review
                                                                    was limited to Coal Enforcement because this program
As reported in our prior semiannual report, we studied              represents 60 percent of the MSHA budget. Also, coal
various non-Federal workers' compensation programs                  mining is recognized as one of the nation's most hazard-
to identify practices and techniques that could be adapted          ous occupations, with 63 deaths and over 11,500 work-
to the FECAl program. The purpose of the adaptations                days lost due to injuries in 1987.
would be to improve the timely delivery of benefits,                Our review of MSHA coal enforcement           activities iden-
increase operating efficiencies, and contain program
costs,                                                             tiffed systemic weaknesses that created agencywide
                                                                   vulnerabilities and inconsistencies in the conduct of

The agency has responded to our recommendations                     coal enforcement    activities.   These weaknesses were:
stating that they are looking forward to testing some of
the techniques described in OIG's report. We support                1. The lack of Headquarters guidance, oversight and
ESA's willingness to do so, particularly their plans to             control over the mine plan approval process;
use nurses to increase personal contact; to evaluate a
telephone-oriented      intake approach; to develop a flex-         2. The inadequate      documentation       of mandatory    in-
ible approach for calling up cases using the expected du-           spections,
ration of disability;, and to continue efforts to work with
employing agencies to increase the number of claim-                3. Inadequate and inconsistent systems for communi-
ants who return to work for light duty.                            cating policies and procedures to field enforcement
                                                                   personnel; and
While the agency believes that estimating the total
                                                                   4. The lack of any national programs to identify and ad-
"expected cost" of a case would not benefit FECA, we
would hope that ESA will reconsider the "estimated                 dress the problems of mine operators who show pat-
                                                                   terns of violations or who repeatedly violate the same
cost" tool in its long-term   plans for disability manage-         standard.

                                                              29
Mine plans are critical to MSHA's enforcement pro-                1. MSHA requested detailed information from all dis-
gram because, once approved, they are used in conjunc-            trict offices regarding existing procedures used for the
tion with Federal safety and health regulations as a basis        mine plan approval process and the conduct of safety
for mine inspections. Our review disclosed MSHA has               and health conferences. This was done to establish a
not effectively managed the mine plan approval proc-              national policy and standards for these activities.
ess, and that the process lacks procedural uniformity
and sufficient internal controls.                                 2. In August 1988, MSHA established a committee to
                                                                  begin development of a national standard inspection
The cornerstone of MSHA's coal enforcement pro-                   report documentation format.
gram is the legislatively-mandated   comprehensive in-
spection of each underground mine four times per year             3. MSHA began to update its enforcement policies and
and each surface mine twice per year. We found MSHA               procedures and to develop revised inspection manuals
was not adequately documenting these mandatory in-                and a supplemental administrative procedural manual.
spections.
                                                                  4. MSHA also took steps to establish regulations to im-
Because MSHA has decentralized its operations through             plement Section 104 (e) of the Act, which covers pat-
use of a network of district offices, effective communi-          terns of violations.
cation of procedures and guidance to field personnel is
essential to achieving uniform enforcement.       Our re-         MSHAconcurredwiththerecommendationscontained
view disclosed that enforcement policy communica-                 in the draft report and has already fully completed
tions were fragmented and cumbersome and that in-                 corrective actions on some of the recommendations.
spectors had difficulty keeping track of current policies.        With regard to our recommendation that MSHA estab-
                                                                  lish a program to address repeat violations, MSHA is
Finally, accomplishment of the statutory goals ofreduc-           convening a committee to identify elements required
ing unsafe and unhealthful working conditions in the              for an agencywide program and has requested OIG's
nation's mines would require MSHA to be proactive in              input into the process.
obtaining abatement of hazards on a short-term basis,
and identifying and resolving the causes of those haz-            PENSION AND WELFARE                  BENEFITS
ards which result in repeated violations. We found                ADMINISTRATION
MSHA has not implemented Section 104(e) of the Act
which provides   special sanctions   for mine operators           The   Pension   and Welfare   Benefits   Administration
showing patterns of violations, and that MSHA has no              (PWBA) administers the Secretary's authorities under
nationwide program for reducing repeat violations,                two Acts which affect millions of individuals:   the
                                                                  Employee Retirement Income Security Act of 1974
We recommended MSHA institute controls over            the        (ERISA) and the Federal Employees Retirement Sys-
mine plan approval process, develop standardized       re-        tem Act of 1986 (FERSA). Under these delegations,
port formats to better document mine inspections,     and
                                                                  PWBA is responsible for protecting the rights of ap-
revise and continuously update inspection manuals     and
                                                                  proximately 64.5 million individuals covered by ERISA
procedures.   Also, we recommended        MSHA imple-             and about 1 million Federal employees currently en-
ment the "patterns ofviolations"provision   oftheMine             rolled under FERSA.      Assets held by ERISA plan
Safety and Health Act and establish a nationwide pro-             administrators and the Thrift Trust Fund under FERSA
gram for dealing with mine operators who repeatedly               are estimated to be in excess of $1.7 trillion and grow-
violate the same safety and health standards.
                                                                  ing.

Throughout our review, MSHA undertook corrective
actions to address identified weaknesses. Some weak-              PWBA'S System Development Effort Shows
nesses had previously been recognized by MSHA's                   Progress But Improvements Are Necessary
management.      In those cases, our review provided              To Ensure Success
additional information on the scope of the problem and
the required corrective actions.   Actions initiated by           OIG completed its review of PWBA's effort to develop
MSHA during our review included the following:                    a new Form 5500 system, the "ERISA Information




                                                             30
System."    During this reporting period, OIG issued             B) until PWBA improved both the technical and man-
three interim reports and one final report.      These           agement areas of PWBA's system development. These
reports discussed continued weaknesses in PWBA's                 areas included system design strategy, system docu-
system development documentation and project man-                mentation, and overall management and control of the
agement. OIG also issued an interim report to PWBA               development effort with specific emphasis on project
project management and a draft report to the Director-           management.
ate of Information Resources Management (DIRM)
on weaknesses in the agency and departmental infor-              In his response, the Assistant Secretary noted that many
mation collection and clearance process,                         of the OIG's recommendations         were no longer valid
                                                                 because PWBA had received approval from DIRM to
To ensure the success of the development effort, OIG             proceed to the next phase (the design and acquisition of
recommended the Assistant Secretary take action to               the ERISA Information System). PWBA will utilize
improve the system design strategy, documentation,               facilities and software compatible with existing DOL
project management, and project plans. In July 1988,             contracts and systems and follow current DOL policy
the ERISA Database Steering Committee met and                    and DOL architecture.       PWBA described the system
PWBA provided additional documentation to DIRM.                  development as a phased implementation approach in
In August 1988, DIRM granted approval for continued              which PWBA will use relatively simple and low-risk
Phase B development (Storage and Access System)                  technology during an initial stage of development. PWBA
which included detailed system design and a phased               plans to assess patterns of data usage before commit-
implementationoftechnology.      DIRM'sapprovalstipu-            ting to development of a higher, and possibly more
lated development of additional documentation based              risky, technology.
on analysis of the results of the initial implementation.
                                                                 OIG, however, believes that the recommendations   for
OIG issued its final report to PWBA on September 23,             improved planning and information resources manage-
1988. The report recommended that the Assistant Sec-             ment remain valid throughout the system development
retary defer the detailed functional design and acquisi-         effort.
tion phases for the Storage and Access System (Phase




                                                            31
                                                     Chapter 2

              OIG Continues to Promote Departmental Accountability                                       with
                     Second Annual Audited Financial Statements

During this reporting period, OIG issued a draft audit report on the fiscal year 1987
consolidated financial statements of the Department. The Department continues to be the
only cabinet level department to issue consolidated annual financial statements which have
been independently audited.

Along with the consolidated financial statements, we                  We are also pleased to see the display of financial
also audited the separate f'mancial statements of the two             highlights in DOL's annual report. The report is a
largest DOL agencies: the Employment and Training                     good example of the direction that federal agencies
Administration (ETA) and the Employment Standards                     should be taking in reporting on their stewardship.
Administration (ESA).                                                 The concept of accountability reporting, while still
                                                                      new to many federal agencies, is an essential ingre-
Each financial statement report contains the following                dient to bringing agency operations under control.
components required under generally accepted govern-                  It underscores for the public, the Congress, and top
ment auditing standards: financial statements with                    management those key measures of performance
auditors' opinion, a report on internal accounting con-               that are indicative of successful program admini-
trol, and a report on compliance with laws and regula-                stration.
tions. Management advisory reports were also issued in
conjunction with the financial statement reports.                     We commend DOL's management for stressing
                                                                      accountability and financial management and we
In addition to financial statements at the department                 encourage    your efforts in these areas."
and agency level, we compiled and audited the first
financialstatements  andprogram output statistics for a           DOL     CONSOLIDATED                    FINANCIAL
major ETA program: Job Corps.                                     STATE]V__,aNrI'S


Although the Department        is to be commended for             Financial Statements and Opinion
preparing financial statements and subjecting the finan-
cial statements to audit, the report on internal account-
ing control identifies significant financial accounting           The consolidated statement of financial position and
                                                                  the related statements of operations, changes in finan-
and reporting problems which affect the Department's
capability to fully comply with GAO and Treasury                  cial position, and reconciliation   to budget reports for
requirements,                                                     fiscal year 1987 were audited.

Comptroller   General of the United States Commends               In our opinion, the consolidated statement of financial
Department                                                        position fairly presents DOL's financial position as of
                                                                  September 30, 1987, and the results of its oPerations,

On June 2, 1988, Charles A. Bowsher, Comptroller                  changes in financial position, and reconciliation   to
General of the United States, in a letter to Secretary of         budget reports for the year then ended in conformity
Labor Ann McLaughlin, commended the Department                    with Federal generally accepted accounting principles
for its financial statement initiative.                           (GAAP), with the following qualifications:

The Comptroller   General stated:                                 1. Accrued State and Federal unemployment insurance
                                                                  taxes due from employers totaling $3.8 billion were
                                                                  recorded based on actual tax collections from the next
    "We applaud the Department of Labor for respond-
    ing with such initiative bybeing the first department         quarter.   The validity of this amount could not be
                                                                  verified since neither ETA nor the individual States
    to both prepare and audit departmentwide     financial        find it practicable to maintain subsidiary records for in-
    statements,                                                   dividual employers.

                                                             32
2. Because subsidiary accounting records which fully
identify ETA contractor or grantee advances were not                                    EXPENSES                          BY FUNCTION
maintained, confirmation of individual account bal-                                                                     FY'87
ances was impossible and we were unable to attest to                                                                 *)"'=$_",i,,_$)
advances to grantees of $559 million shown on the state-
ment of financial position.

3. The liability of $1 billion in future FECA workers'
compensation benefits was not determined using an
actuarially acceptable method.

Audit tests were restricted to the Federal level. Report-                                                                                                          "......
ing of State and local costs will be tested under the                                                                               ...............
Single Audit Act.                                                                                                                   '_ ......
                                                                                                        TOTAL EXPEN84E_k 126,213,0OO,000


The following information is taken from the financial
highlights section of the audited financial statements.
The chart shows the major categories of revenues by
source for the Department for fiscal year 1987.




 MAJOR SOURCES OF REVENUES                                                         .-_;,,_                        GENERAL
                                                                                                                      AND
                                                                                                                        TRUST
           FY'87                                                                   I_       L             EXP-E-ENSES
                                                                                                                    BY---Dg---L
                                                                                                                             AG-E-NCY-
                                                                                                                  FY'87
                                                                               /     _"_ I
                                                                            IHE,             "            ----"



                                                                                   I.ml....                                            """°""-'"
                                                                               oo_                                          (MILLIONS)




 INTEREST $1.gB4 16.0                                                                            12.01e
                                                                                                            120e       $1se       II16S     Ill0      I=0       II_ee     Ilel


  TAXES $575 (1,7_) __._._._                                                          ETA        EBA      08HA      MBHA        BL8       OLM8     PWBA       VETB OTHER

  Sl,E_6 (4.6,_)                                                                                   TOTAL          EXPENSES:        $25,213,000,000




  REIMBURSEMENTS_
                                        EMPLOYERS' UNEMPLOYMENT
                                        TAXES $23,483 171.0_1




                                                                              DOL EXPENSES                               BY MAJOR CATEGORY
                                                                                                                         FY'87
                                                                                                                    (Dollatll   In MIIllono)


                   TOTALREVENUES:$33,093,000,000
                                                                                                                                                   OOL-OTHEREXPENBE$
                                                                                                                                                    $1.340 (5,3_]

                                                                                                 1                                                      DOL-WORKER$
                                                                                     $1_*,081(02. 15)                                                     MPEN_ATIONBENEFIT

DOL's fiscal year 1987 expenses are presented                 on the                                                                                        ,:,,=,i,,,_
                                                                              UNEMPLOYMENTBENEFIT


agency, and by major category.                                                                                                                     ETA
                                                                                                                                                     ORA.,_
                                                                                                                                                      . '16_1124.411


Statement          of Operations   by major function, by DOL                                                                                          $2,,,,,I'A
                                                                                                                                                              _,,,a


                                                                                                   TOTALEXPENSES:$25,213,000,000




                                                                       33
As indicate d, the largest category of expenses was                            REPORT ON INTERNAL ACCOUNTING CONTROLS
benefits. Benefits for unemployment ($15.7 billion)
and workers' compensation       ($1.8 billion) represent                       The internal control report identified material internal
69.2 percent of the Department's total expenses. Also,                         weaknesses in the following areas: accounts payable
as highlighted, 87.6 percent of the Department's      ex-                      and undelivered orders, ETA grant and contract man-
penses, including unemployment benefits and grants,                            agement, and valuation of unemployment insurance
were actually incurred by State governments, local                             receivables.   The accounts payable and undelivered
governments, or other organizations,                                           orders weakness is a Department-wide       problem; the
                                                                               remaining weaknesses relate to ETA and thus are also
Assets are resources owned by the Federal Govern-                              included in the separate audit report of ETA's financial
ment that are available to pay liabilities or provide                          statements.
public services in the future.
                                                                               Departmental management has not yet had an opportu-
 MAJOR                CATEGORIES OF ASSETS                                     nity to respond formally to this draft report; however,
                          9-30-87                                              based on its comments related to similar findings in the
                         (o_,=,,,, .,,,0,)                                     audit report of 1986 financial statements, we do not
                                                                               expect full concurrence.

                                                                               Accounts Payable and Undelivered       Orders

          o....                                                                With respect to accounts payable and undelivered or-
          ,,,,,.o,,                                                            ders, the following major variances from established
 ,oo,_,,,, ,0,1,                                                               Federal accounting policy were identified:

                                                                               1. The proper distinction between accounts payable and
   116.11
       (12.4111
                                                                               undelivered orders was not made by the Department in
                                         .................
                                         07.E113.611                           classifying and reporting of accounting transactions.

                                                                               2. Both accounts payable and undelivered orders in-
                                                                               cluded amounts which no longer appear valid due to age
                  TOTAL     ASSETS:    865,700,000,000
                                                                               or lack of supporting documentation.

Liabilities are amounts owed or payable to others.                             3. Miscellaneous Obligating Reports (MORs)recorded
                                                                               in the Department's accounting system were not sys-
                                                                               tematically reviewed and liquidated to accurately re-
 MAJOR CATEGORIES OF LIABILITIES                                               flect the outstanding obligations of the Department.
            9-30-87
                             (Dollatll
                                   InBIIlione)                                 Grant and Contract Management

                                                                               Regarding grant and contract     management,     we noted
                                                                               the following weaknesses:


      °"'.........1_ _......_l_o_._!_,!_
      111.6 ( .....                                             E_.....        1. Internal
                                                                               into ETA's accounting
                                                                                            accounting controls over ineffective
                                                                                                        system were   the entry of
                                                                                                                                 and,data
                                                                                                                                        in
                                                                               some cases, disregarded.     Of 316 transactions exam-
                                                                               ined, 46 entries (14.6%) were found to be in error. The
                                                                               cumulative effect of these errors was $10 million.
LOANSFRO_U.6. _R
°t.2126.06)
                                             OTHGRLIABILITIE6
                                             ,0o,621_                          2. The process used to accrue unreported grantee and
                                                                               contractor costs for entry into the Department's Inte-
                                                                               grated Accounting System (IAS) was not documented
                                                                               and did not produce adequate records by individual
             TOTAL        LIABILITIES:$27,800,000,000
                                                                               contract or grant. As a result, accrued costs of $1.6
                                                                               billion could not be adequately tested and the accrual
                                                                               system could not be adequately evaluated.

                                                                          34
3. As was also noted in last year's report on internal             EMPLOYMENT AND TRAINING
accounting controls, the IAS general ledger balances               ADMINISTRATION
for advances and the related expenditures for grants
and contracts were not adequately supported by de-
                                                                   Financial Statements and Opinion
tailed subsidiary records in ETA's accounting system,
nor were discrepancies between the two systems re-
solved in a timely manner. Unadjusted balances per the             Our draft report on the fiscal year 1987 ETA f'mancial
IAS general ledger and the ETA subsidiary records                  statements identified internal control weaknesses in
reflected discrepancies of $1.5 billion in advances and            accounting controls over grant and contract manage-
$264 milion in expenditures,                                       ment and in the valuation of the allowance for uncol-
                                                                   lectible unemployment trust fund receivables. These
Valuation   of Unemployment     Insurance   Receivables            findings are described above in the discussion of the
                                                                   Department's consolidated financial statements.   We
The accounting control weaknesses over the valuation               also issued a draft management advisory report which
of unemployment insurance receivables related to in-               describes significant weaknesses that require manage-
adequate reporting requirements for States. In admini-             ment attention but that were not material to the finan-
stering the Unemployment Insurance Program, ETA                    cial statements. As a result of problems identified in
requires States to report various types of financial infor-        our fiscal year 1986 management advisory report, we
mation, including delinquent State unemployment taxes              performed more detailed work and issued a draft report
due from employers and overpayments of State and                   on the validity of "M" accounts.
Federal unemployment taxes. In fiscal year 1987, States
reported cumulative delinquent State taxes of $1.3 bil-            ETA and departmental management have not had an
lion and benefit overpayments of $627 million. We                  opportunity to respond formally to this draft report.
noted that ETA does not require States to report an
allowance for uncollectible accounts or an aging of the            Management           Advisory Report
outstanding accounts receivable balance. As a result,
ETA cannot adequately value accounts receivable in                 In the draft management advisory report for fiscal year
accordance with GAO and Treasury accounting and                    1987, weaknesses were identified in the training and
reporting requirements,                                            employment, unemployment      insurance, and general
                                                                   administrative functions.
The report also notes prior years' internal control
weaknesses relating to ETA advances to grantees; valu-             TRAINING AND EMPLOYMENT
ation of ETA property, plant, and equipment; Black
Lung accounts receivable; and the liability for future             The following problems with controls over grants and
FECA benefits, which are in the process of being                   contracts were identified:
resolved.
                                                                   1. Payments to contractors   and grantees as recorded in
Report on Compliance with Laws and Regulations                     the Department's aocounting system exceeded the amount
                                                                   recorded in ETA's accounting system by $180 million.
The report on compliance with laws and regulations                 These differences,    caused primarily by timing, are not
noted no exceptions. Our prior year finding regarding              reconciled.
the reconciliation of ETA/DOL and Treasury records
has been corrected.                                                2. ETA's accounting system contains data which shows
                                                                   that reported costs and/or payments related to certain
                                                                   grantees/contractors   exceeded obligational authority
                                                                   by $48 million.

                                                                   3. The process of accruing costs through the ETA ac-
                                                                   counting system was not documented and consequently
                                                                   not verifiable. For fiscal year 1987, the amount of
                                                                   accrued costs was $1.6 billion.




                                                              35
4. Controls over the grant closeout process were not              "M" account is a U.S. Treasury term or account title for
adequate. We found instances where open fries could               the remaining unspent grant award balances of appro-
not be located or where the closeout process had not              priations over 3 years old. Funds in the "M" accounts
been completed in a timely manner. As of September                are available indefinitely to pay properly made (lawful
30,1987, 877 f'des were still in the closeout process. Our        and timely) obligations unless a specific appropriation
audit sample of grant closeout fdes revealed that 26              act has a limitation of time for expending the funds.
percent could not be located and 17 percent had been in
the closeout process for over 6 years.                            The following problems were identified:

UNEMPLOYMENT           INSURANCE                                  1. Large amounts of unliquidated obligations in the
                                                                  "M" accounts were not valid. Of the $193 million total,
During our examination of the Unemployment Trust                  approximately $142 million could be deobligated: $110
Fund (UTF), we identified that internal controls over             million by updating the financial status of grants and
accounting for the Federal Employee Compensation                  contracts in administrative closeout process, and $32
account appear to be inadequate. We could not recon-              million by deobligating "pool" accounts maintained to
cile various reports showing the amount of ETA billings           pay Comprehensive      Employment and Training Act
to and reimbursements from Federal employers for un-              (CETA) expenditures remaining after the program
employment compensation.       For example, reimburse-            expired in fiscal year 1983.
ments and credits for fiscal year 1987 were shown
variously as $285 million, $316 million, or $90 million.          2. Questionable expenditures of $293,527 due to expen-
                                                                  diture time violations and other accounting errors were
We also noted that Treasury administrative charges of             found in the CETA "pool" accounts. In addition to
$66 million for the UTF increased by $14 million, or 27           deobligation, we recommended ETA issue guidance
percent, over the past fiscal year. ETA has suggested             and clarification    concerning   time limitations and
that OIG investigate the justification for this increase,         strengthen procedures to monitor expenditures.

GENERAL AND ADMINISTRATIVE                                        3. Cash advances to grantees exceeded reported costs
                                                                  by $152 million. Most of this amount was erroneous due
Our review of ETA debt management records dis-                    to time lags for recording cost reports during the admin-
closed that 22 percent of accounts receivable tested              istrative closeout process. Our audit of a sample of
required audit adjustments,                                       accounts resulted in the recovery of $534,154. This
                                                                  amount includes cash recoveries, transfers in obliga-
We also found that 38 of 197 cash receipts tested were            tional authority, and other financial off-sets. We rec-
improperly credited to a miscellaneous income account             ommended accountability of cash advances be strength-
rather than to the appropriation    originally charged,           ened and timely analysis be made of closed grants.
Consequently, expenditures were overstated by $5 mil-
lion.                                                             4. Accrued expenditure estimates of $63 million were
                                                                  no longer relevant to "M" account grants.      Conse-
Accounts payable and undelivered orders are not prop-             quently, ETA's financial status was distorted for ac-
erly stated. ETA personnel did not distinguish between            counts receivable, accounts payable, and undelivered
these accounts when obligating monies for a purchase              orders. We recommended that the estimates be elimi-
order. This has made the reconciliation of these two              nated when a grant merges into the "M" account.
accounts impossible.
                                                                  5. Routine   reconciliations   and error corrections   are
ETA and departmental management have not yet had                  necessary to improve financial reporting. We recom-
an opportunity to respond formally to this draft report,          mended that procedures be changed concerning adjust-
                                                                  ing accounting entries and coordination of accumulat-
Validity of ETA's "M" Accounts                                    ing data between the Department's accounting system
                                                                  and ETA's subsystem for accounting for grants and
During this semiannual period, OIG conducted a sur-               contracts.
vey of ETA's $193 million "M" account and how the
regional automation system accounts for liabilities, re-          Correction of the problems identified will require changes
ceivables, and obligations,                                       to ETA's Regional Automation System and, to a lesser
                                                                  degree, the Department's accounting system.


                                                             36
AGENCY RESPONSE                                                   REPORT ON INTERNAL CONTROL

ETA does not agree that unliquidated obligations can              The internal control report identified material weak-
be reduced $110 million, or that cash advances are                nesses related to the management of Black Lung ac-
erroneous by almost $152 million due to not updating              counts receivable. Adequate documentation was not
the t'mancial status of grants and contracts in the close-        available to support the program estimate of $108
out process,                                                      million in interim benefit payments; accounts receiv-
                                                                  able were not properly or timely established for fiscal
ETA's accounting system has an automated accrual                  year 1987 payments; and duplicate recordings of ac-
(estimate) process for those contract/grants for which            counts receivable were made.
cost data is incomplete. Even though the actual cost
may not be recorded on the individual contract or grant,          Management Advisory Reports
such accruals compensate for the missing cost data.
                                                                  We issued separate reports for the Black Lung program
ETA does agree that actual cost should be recorded                and Wage and Hour Division. The management letters
when available; however, ETA does not feel that the               identify weaknesses which, while not material to the
missing cost data presents the serious implications               financial statements, warrant management action.
alluded to in neither the draft report in the Departmen-
tal IAS nor the ETA financial statements. ETA feels               Our management advisory report on the Black Lung
that the automated accrual process presents a fair                program identified internal control weaknesses in the
representation    of the true status of cost under the            compensation and medical bill payment systems. We
circumstances,                                                    recommended improvements in the areas of: establish-
                                                                  ment of accounts receivable following final adjudica-
ETA did not comment on questionable expenditures or               tion; review of medical bills; and case maintenance
deobligation of CETA "pool" accounts and has not yet              procedures regarding benefit augmentation.
responded in full to the draft report.
                                                                  We also issued a management advisory report on the
OIG continues to maintain ETA's automated accrual                 Wage and Hour program. We identified areas where
process is not revelant for grants or contracts in "M"            the Wage and Hour Division could improve its manage-
accounts. Estimating or accrual basis accounting is a             ment of back wages and provided suggested improve-
generally accepted accounting principle which attempts            ments to the program.
to record financial transactions in the period they occur.
However, it is not a substitute for timely recording of           REPORT ON COMPLIANCE               WITH LAWS AND
actual costs when cost reports are in the hands of ETA.           REGULATIONS
We question the accuracy and the propriety of accruals
for the "M" account.                                              No compliance    exceptions   pertaining   to ESA were
                                                                  identified.
EMPLOYMENT STANDARDS
ADMINISTRATION                                                    EFFECT OF ACCOUNTING                AND    FINANCIAL
                                                                  REPORTING WEAKNESSES

Financial    Statements      and Opinion                          Because of financial accounting and reporting prob-
                                                                  lems identified in our current and prior year reports on
The auditors' opinion on the fiscal year 1987 financial           internal accounting control, the Department is unable
statements is qualified for lack of actuarial determina-
                                                                  to comply fully with Treasury and GAO reporting
tion of the liability for future FECA benefits. There is          requirements. This problem is illustated by the sched-
also a contingency regarding the pending Supreme                  ule on page 39, which compares DOL submitted Treas-
Court review of circuit court decisions which could lead          ury reports and the audited financial statements for
to the reopening of closed Black Lung claims. Our                 fiscal year 1986.
continued work on the actuarial estimates for FECA
may permit the qualification to be removed from the
final audit report.




                                                             37
One major reason for the differences is the fact that the
U.S. Treasury has provided SF-220 report figures for
the Unemployment Trust Fund and these figures are
limited to the amounts they control rather than all
Unemployment      Trust Fund activity. Treasury has
provided these figures since the Labor Department
does not maintain a full accounting for Unemployment
Trust Fund activity.

The Department has contracted to obtain a new finan-
cial accounting and reporting system which should
facilitate correction of these deficiencies. Effective
implementation and oversight by qualified departmen-
tal accountants is essential to its success. OIG plans to
monitor the implementation        of the new accounting
system to ensure that it corrects these deficiencies.

AUDITS AT THE PROGRAM LEVEL

We have begun to perform separate financial statement
audits at the program level. Our first such audit is of the
Job Corps program which is discussed in detail in
Chapter 1.




                                                              38
                                                U.S. Department of Labor
                       Consolidated     Reconciliation of Agency-Submitted Treasury Report to
                                        Audited Statement of Financial Position
                                                  September 30, 1986
                                                    (In thousands)



                                                     Treasury               Audited
ASSETS:                                              SF-220                 Amounts               Difference

Funds with U.S. Treasury and cash                   $7,032,751              $7,328,902              $296,151
Accounts receivable, net of allowance               $5,982,740              $6,730,285              $747,545
Loans receivable                                              0             $5,103,731            $5,103,731
Investments                                        $21,272,853             $21,272,748                ($105)
Advances                                              $488,239                $805,664              $317,425
Property, plant and equipment, net                    $224,546                $269,128               $44,582
Future financing sources                                      0            $10,064,775           $10,064,775
Other assets                                              $457                        0               ($457)

TOTAL ASSETS                                       $35,001,586             $51,575'233           $16,573,647


LIABILITIES:

Accounts payable                                    $7,630,250                $224,461           ($7,405,789)
Accrued payroll and benefits                            $4,165                 $34,031                $29,866
Accrued annual leave                                   $40,679                 $48,670                 $7,991
Unearned revenue                                       $16,457                 $16,457                       0
Loans from U.S. Treasury                                      0             $9,553,810             $9,553,810
Liability for future workers'
    compensation benefits                                     0             $8,389,537            $8,389,537
Accrued unemployment benefits                                 0            $11,237,497           $11,237,497
Other liabilities                                      $77,512                $789,294              $711,782

 TOTAL LIABILITIES                                  $7,769,063             $30'293,757           $22,524,694


EQUITY OF THE U.S. GOVERNMENT:

Invested capital                                     $210,582                 $267,655               $57,073
Management fund balance                              $130,496                  $10,434            ($120,062)
Unexpended appropriations:
    Unobligated balance                            $6,012,327               $3,042,349           ($2,969,978)
    Undelivered orders                                   ($40)              $3,152,452             $3,152,492
Trust fund balance--Federal                       $20,879,158               $2,530,012          ($18,349,146)
Trust fund balance--State                                    0             $12,278,574            $12,278,574

 TOTAL EQUITY                                     $27,232,523              $21,281,476           ($5.951.047)



 TOTAL LIABILITIES AND EQUITY                     $35,001,586              $51,575,233           $16,573,647




                                                        39
                                                       Chapter 3
                                   Program        Fraud Civil Remedies                 Act


The Program Fraud Civil Remedies Act (PFCRA), Public Law 99-509, was enacted effective
October 21, 1986. The Congress concluded that false, fictitious, and fraudulent claims and
statements in Government programs are a serious problem; result in the loss of millions of
dollars annually by allowing persons to receive Federal funds to which they are not entitled;
and undermine the integrity of such programs by allowing ineligible persons to participate in
them. Further, the Congress believed that existing civil and criminal remedies for such claims
and statements were not sufficiently responsive.


PFCRA's intent is to provide Federal agencies with                  to the defendant and refer complaint and answer to a
administrative remedies for losses resulting from false,            presiding officer; and
fictitious or fraudulent claims of not more than $150,000
and any false, fictitious, or fraudulent writtenstatements          3. A "presiding officer" to conduct requested hearings
made in connection with a claim or a Federal or Feder-              for determination of liability; and to issue a written de-
ally financed contract, grant, loan, or benefit where               cision on findings and determinations,       including an
accompanied by an express affirmation; and to provide               assessment of civil penalties.
due process protection to persons subject to these
administrative proceedings.                                         _mplementation    in DOL

The administrative remedies provided by the Act, which              The Department    of Labor issued Final Rules and
are in addition to any other remedy that may be pre-                Regulations implementing PFCRA in the Federal
scribed by law, are:                                                Register of December 22, 1987, as 29 CFR Part 22,
                                                                    Program Fraud Civil Remedies Act of 1986.
1. $5,000 for each false claim, plus twice the amount of
any false claim actually paid; and                                  These regulations designate the following DOL offices
                                                                    as having major responsibilities under the Act:
2. $5,000 for each false statement accompanied by an
express certification of the truthfulness and accuracy of           1. Investigating Official: Office of Inspector General
the contents of the statement.                                      2. Reviewing Official: Solicitor of Labor (SOL)
                                                                    3. Presiding Officer: Administrative Law Judge (ALJ)
The Department's    implementing    regulations   state that
because of the intangible costs of fraud, the expense of            Actions Taken by OIG To Implement
investigating such conduct, and the need to deter others            PFCRA
who might be similarly tempted, ordinarily double damages
and a significant civil penalty should be imposed.                  During the 12-month period ending September 30,
                                                                    1988, the OIG took several steps to implement provi-
Designation of Responsibilities                                     sions of the PFCRA.

The Act requires the following separation of functions:             1. In October 1987, OIG established an Office of Pro-
                                                                    gram Fraud Audits as the operational arm to investigate
1. An "investigating official" to investigate possible              possible liability under PFCRA and to refer potential
liability under the Act, and report findings and conclu-            cases to the reviewing official.
sions to a reviewing official;
                                                                    2. In July 1988, OIG issued the U.S. Department of
2. A "reviewing official" to evaluate the adequacy of               Labor OIG Awareness Bulletin No. AB 88-2 (see page
evidence of liability under the Act; obtain approval or             105) to all DOL program offices and DOL employees
disapproval from the Attorney General for proceeding                describing PFCRA and providing a focal point for re-
with a case; and, if approved, issue notice of complaint            porting possible false claims and statements.

                                                               40
3. During fiscal year 1988, particular emphasis was                Two officials of the firm conspired to violate the Davis-
placed on identifying areas for consideration of PFCRA             Bacon Act's mandated prevailing wage requirements.
within the Department including the Employment Stan-               Our investigation, which included information from a
dards Administration's    Wage and Hour Division and               prior Wage and Hour compliance review, disclosed
the Employment and Training Administration's JTPA                  evidence showing that the company submitted certified
and Job Corps programs,                                            payrolls which were deliberately falsified to reflect
                                                                   payment of prevailing wage rates when the firm's labor-
4. During this period, OIG investigated and prepared its           ers had, in fact, received substantially less pay. Based on
first three cases. Two of these cases were submitted to            the Wage and Hour compliance review, the firm has
the reviewing official during the 6-month period ending            since made restitution of the back wages due the em-
September 30, 1988; the third case was submitted just              ployees.
after the close of the reporting period. Two of the cases
come as a result of alleged violations of contract labor           The maximum penalty which can been imposed by an
standards under the Davis-Bacon and Related Acts                   ALl in this case is $225,000:$75,000 against the com-
(DBRAs) and one relates to the alleged fraudulent                  pany ($5,000 for each of the false statements) plus
receipt of JTPA funds. The maximum potential penal-                $75,000 each against the individuals involved.
ties that can be imposed for the three cases total about
$529,000.                                                          In the second case, a construction company, working on
                                                                   a federally-funded    construction project, deliberately
POTENTIAL      PFCRA CASES IN WAGE AND HOUR                        submitted certified payrolls which were falsified to
                                                                   reflect payment of prevailing wage rates and required
The area identified by OIG with the most potential for             overtime compensation.      Our investigation, which in-
PFCRA consideration in the Wage and Hour Division                  eluded evidence from a prior compliance review by
(Wage and Hour)pertains      to certified weekly payrolls          Wage and Hour, showed evidence that, in fact, its
required by the DBRAs. By virtue of the labor stan-                employees received lower rates of pay. The company's
dards provisions contained in contract specifications              payroll records as well as employee interviews showed
which are generally in force when working on construc-             these lower rates of pay. Based on Wage and Hour's
tion projects wholly or partly financed with Federal               compliance review, the firm has since made restitution
funds, contractors are required to pay their laborers              of the back wages due employees.
and mechanics not less than the wages prevailing in the
locality (DBRA); pay overtime compensation at one                  The maximum penalty which could be imposed by an
and one-half times the regular rate of pay for work in             ALl in this case is a total of $210,000:$105,000 against
excess of 40 hours per week (Contract Work Hours and               the company ($5,000 for each of the false statements)
Safety Standards Act); and submit weekly a certified               plus $105,000 against the company officials involved in
copy of all payrolls affirming that the payrolls were              the scheme.
correct, complete and in accordance with the above re-
quirements (DOL regulations).                                      Assessment of penalties in the above cases, coupled
                                                                   with related dissemination of this fact by Wage and
No administrative remedies existed prior to PFCRA to               Hour, should assist in deterring potential future viola-
assess civil penalties for falsification of these weekly           tions of fair labor standards by employers.
payroll certifications.
                                                                   POTENTIAL       PFCRA CASE IN JOB TRAINING
As of September 30, 1988, the OIG, as investigating                PARTNERSHIP ACT (JTPA)
official, has identified 13 Wage and Hour enforcement
findings of false payroll certifications for further inves-        Funding for JTPA programs comes from the Congress
tigation under PFCRA.         For two of the cases, the            to the Department which uses grants to allocate the
investigations have been completed and have been sub-              monies to the governors of each State. They, in turn,
mitted to the reviewing official. In both cases, the em-           allocate the funds to prime sponsors.       These prime
ployees were actually paid less than the amounts shown             sponsors, known as Service Delivery Areas (SDAs),
on the certified payrolls,                                         then distribute funding to various local service provid-
                                                                   ers, who determine which local agencies and businesses
In the first case, a firm employed a scheme involving              should be contracted with to provide job training to
false statements in order to defraud their employees of            eligible JTPA participants, i.e., economically disadvan-
monies due for work on certain federally-funded high-              taged youth and unskilled adults who need such training
way construction projects,                                         to obtain productive employment.

                                                              41
One program established by JTPA was for on-the-job              ACTIONS TAKEN BY SOL TO IMPLEMENT
training (OJT).    Under this program, an employer              PFCRA AND OUTLOOK FOR PROSECUTION
contracts for a specified number of JTPA slots and
agrees to provide OJT, as well as a paid position at the        As previously noted, the regulations designate the So-
end of the contract period, in exchange for receiving a         licitor of Labor as the reviewing official.        He has
50 percent subsidy of the trainee's salary during that          assigned the function to the Deputy Solicitor for Plan-
training. The intent of this program is to encourage            ning and Coordination. The first cases under PFCRA
employers to increase their work force with less skilled        were referred by the Inspector General to the Solicitor
workers by compensating them for their investment of            for review shortly before this report was prepared.
training time required to make the employee produc-             These files are being analyzed so that the reviewing
tive.                                                           official can, in accordance with the Act, determine
                                                                whether "adequate evidence" exists to believe that the
PFCRA Case Against Employer                                     subject of the investigation is liable under PFCRA. If
                                                                such evidence is determined to exist, the reviewing
This PFCRA case involves an individual who employed             official will then seek approval from the Attorney General
a scheme using false claims to obtain Federal monies            to institute proceedings before an Administrative Law
from the JTPA program. Our investigation showed that            Judge. In addition, the Solicitor's Office is in the
the individual submitted false claims to a local service        process of establishing a structure for the prosecution
provider regarding the alleged training and placing in          of these cases.
unsubsidized employment of individuals under JTPA.
We concluded that two of the alleged participants were          Since our first three cases have only recently been
never trained or employed and the other participants            submitted to the reviewing official and none has gone
were not paid the hourly wage rate required by the              either to the Attorney General or the presiding officer
JTPA contract. The employer was reimbursed for 50               for a decision, we have no actual experience to judge the
percent of the wages allegedly paid all individuals dur-        success of prosecution under PFCRA.
ing their contracted-for-training periods.
                                                                Based on the potentially complicated flow of required
The maximum penalty that can be imposed by an ALl               activities and events under PFCRA, we can expect that
in this case is almost $94,000.                                 the process will be time-consuming, complicated, and
                                                                difficult. For example, there is no time limit imposed
Audit Exceptions   Against Local Service Provider               upon actions of the reviewing official either prior to the
                                                                written notice to the Attorney General of intent to issue
In conjunction with developing this case under PFCRA,           a complaint, or prior to service of the complaint on the
we conducted a special program abuse review of the              defendant. The Attorney General can take up to 90
local service provider. The service provider was paid an        days to give approval or disapproval to process a PFCRA
average of $1,200 per participant for the alleged train-        case. After that, there could be a delay by the presiding
ing. We found that 15 JTPA participants, who were               officer (ALl) in holding a hearing. However, there is an
alleged to have received OJT and then regular employ-           overall statutory limitation that a notice of hearing must
ment at two firms, were not being paid the hourly wages         be served on a defendant by the presiding officer within
set forth in the training contracts.                            6 years of the date of submission of the claim or
                                                                statement.
This special program abuse review has resulted in audit
exceptions totalling $62,050. Our review showed that            PFCRA ANNUAL REPORT
the local service provider inappropriately   submitted
claims for the alleged training and placing (in unsub-          The Program Fraud Civil Remedies Act of 1986 re-
sidized employment) of 15 JTPA participants,                    quires that the Secretary prepare and transmit to the
                                                                Congress an annual report summarizing actions taken
Based upon our investigation in this area and the               as a result of activities under the Act during the last
aforementioned    information developed during a na-            fiscal year. That report will be transmitted by the
tionwide JTPA audit conducted by the OIG, we plan to            Secretary under separate cover in accordance with the
expand our efforts into other JTPA SDAs.                        Act.




                                                           42
                                                  Chapter 4
                                              Program Abuse


The primary functions of the OIG are to inform the Secretary and the Congress about problems
relating to the administration of departmental programs; to work with departmental manage-
ment to prevent fraud, waste, and abuse; and to identify corrective actions needed in
departmental operations. By their very nature, potential program fraud and abuse or illegal
acts in departmental programs or operations require immediate reaction and response.


During this semiannual period, we completed signifi-           The information developed by OIG was presented to
cant program abuse audit work in Job Corps, ETA                 Job Corps so it could be taken into account by the Job
grant procurement  and management, and Indian and               Corps contracting officers and technical evaluation panels
Native American programs,                                       in their consideration of current and future competi-
                                                                tions for center operations contracts where this con-
ETA management has been very receptive and respon-              tractor is a prospective bidder.
sive to our program abuse work. ETA has made a
number of referrals to us of potential program abuses          MORE DETAILED            REVIEWS      SHOW     SERIOUS
and we have investigated these allegations. Based on           PROBLEMS
our findings, ETA has taken swift and appropriate cor-
rective action.                                                We then revisited and conducted       detailed reviews at
                                                               two of the four centers. Our reviews indicated general
Program Abuse Audits in Job Corps                              failure of the contractor to meet projected goals for
                                                               corpsmember completion: only 37 percent of the con-
Our purpose in conducting this work was to determine           tracted target training completion rate was met at these
whether serious program abuse existed at various Job           two centers, whereas the contractor was expected to
Corps centers and to provide swift response, specific          have 70 percent of its corpsmembers complete their in-
information, and practical recommendations which Job           tended training programs. Actually, only about 25 per-
Corps could readily use to improve program opera-              cent (737 of 2,923) of the corpsmembers at these two
tions,                                                         centers completed their training programs. The aver-
                                                               age cost per corpsmember completing training increases
During this reporting period, OIG performed special            significantly when the corpsmember completion rate is
program abuse surveys at four Job Corps centers oper-          only 25 percent instead of the targeted 70 percent.
ated by one contractor, followed by more detailed
reviews at two of these centers. Our survey findings:          We noted serious violations of program regulations and
                                                               procedures by this Job Corps center operator which
1. Indicated flagrant violations of program regulations        resulted in corpsmembers    not being terminated for
regarding accounting for corpsmember attendance and            excessive AWOL. We noted inadequate control over
the related monetary allowances;                               the corpsmembers' allowance system, inadequate con-
                                                               trol over and reporting of corpsmembers' status, and
2. Raised serious questions regarding the contractor's         inadequate corpsmember counseling. Also, the con-
past performance record, i.e., inherent weaknesses in          tractor's monitoring of the two centers was ineffective.
the contractor's management,      technical skills, and
operational controls; and                                      We believe the deficiencies in this contractor's opera-
                                                               tion of the two centers were caused by program abuse,
3. Indicated that the patterns of corpsmember status           failure to follow procedures, inadequate controls, staff
changes (AWOL to administrative leave, administra-             which did not meet the educational requirements of
tive leave to AWOL, etc.) initiated by this contractor         their positions, insufficient staff training, and inade-
were not credible from a programmatic standpoint,              quate corporate monitoring. As a result, overpayments



                                                          43
to corpsmembers occurred, performance measurement                 As a result, OIG expanded its scheduled financial state-
statistics were distorted, and a less than acceptable             ment audit work at 26 Job Corps centers to include
percentage of corpsmembers completed the program,                 limited abuse testing. Our limited tests at those centers
In addition, enrollment slots were unavailable that               did not disclose any center operators which granted
could have been used by other applicants who had the              leave and allowances to corpsmembers who were AWOL
capabilities and aspirations needed to complete and               to improve center performance statistics. However, we
secure the full benefit of the Job Corps program,                 found that, of the 275 corpsmembers tested, 29 percent
                                                                  had status errors that resulted in pay status differences
Corrective Action Promised by Contractor                          between the centers and the U.S. Army Finance and
                                                                  Accounting Center (USAFAC); and almost 17 percent
In response to our special program abuse surveys, the             had been granted leave not in compliance with regula-
contractor prepared corrective action plans. These                tions.
plans included increased compliance with AWOL pro-
cedures by establishing an early warning system to                The Office of Job Corps has contracted for technical
identify corpsmembers who are on the verge of manda-              assistance to develop policy guidance, update proce-
tory termination from the program because of excessive            dures and manuals as needed, improve internal con-
AWOL; counseling AWOL corpsmembers to improve                     trols, and develop training on corpsmembers leave and
their attendance; and, if all fails, prompt termination as        allowance procedures.
required. The contractor is taking early steps to identify
corpsmembers with problems. Also, the contractor's                A more detailed discussion of the conditions identified
promised actions included improving documentation,                in these reports is included in our Job Corps section in
compliance with leave procedures, and internal con-               Chapter 1.
trois.

Based on the poor performance and program abuse                   Costs Recommended       for Recovery from Job Corps
identified in our reports, the Office of Job Corps is             Contractor
closely monitoring the operations of all centers cur-
rently operated by this contractor to ensure that the             During this reporting period, OIG issued a draft audit
promised corrective actions are, in fact, implemented,            report on the costs billed by a contractor who performs
For the one center with particularly poor performance,            support functions for the Job Corps program.
Job Corps did not exercise the option year on the
contract. The contract has been competititvely adver-             The draft audit report indicated almost $2 million in
tised and awarded to another organization.         For the        various audit exceptions in indirect costs. After applica-
second center where we found serious problems, the                tion of the overhead rates to the $2 million in indirect
contractor promised a host of corrective actions; per-            costs, approximately $473,700 out of the $2.7 million
formance measurement statistics have improved; and                reimbursed by the Department to the contractor was
the third option year of the contract was granted,                unacceptably charged to the Department's contract.
Program management is continuing to closely monitor               The audit found inappropriate charges to the overhead
theoperationsofthecenter.    Finally, this contractor was         accounts such as entertainment; rental of personal
in contention in a procurement for operating another              residences and the housekeeper's salary; purchases of
center; the company's technical rating was re-evaluated           antiques, rare books, silver, crystal, and other personal
to include the results of our work. The contract was              items; and foreign travel, including charter aircraft and
then awarded to another bidder. The amount of the two             limousine rentals.
contracts lost by this contractor, including option years,
totals over $49 million.                                          The draft audit report recommended that the Depart-
                                                                  ment recover $473,700 consisting of $174,200 recom-
Audit Work Expanded to Several Job Corps Centers                  mended for disallowance and $299,500 in questioned
                                                                  costs. OIG is awaiting comments from the auditee and
We wanted to determine whether similar conditions                 is currently auditing this same contractor's expendi-
existed throughout the 106 Job Corps centers which                tures and billings for 1986 to the present.
would indicate a system-wide problem, or whether the
conditions were unique to this contractor's operated
centers which would indicate insufficient managerial
ability or oversight, or willful program abuse.


                                                             44
NONCOMPETITIVE, SOLE SOURCE ETA GRANT                             Solicitor Response
REVIEWED: HUDSON INSTITUTE
                                                                  The Solicitor of Labor stated that he would be respon-
In February 1986, the Department of Labor's Employ-               sire to our request. The Solicitor further stated, how-
ment and Training Administration (ETA) awarded the                ever, that because the former Assistant Secretary is no
Hudson Institute a noncompetitive grant to perform                longer an employee of the Department of Labor, and
research and identify policy issues relating to employ-           that because the OIG draft report did not set forth
ment and training issues. This grant, to prepare a                allegations of any criminal violations, the former Assis-
"Workforce 2000" report and related policy issue pa-              tant Secretary is no longer subject to remedial discipli-
pers, was originally estimated to cost $900,000. The              nary action (i.e., in the absence of criminal violations,
grant has been modified six times to expand the scope             the Department's ethics and conduct regulations are
of work, and the grant now totals $2.1 million,                   the basis for remedial actions which, by their very
                                                                  nature, can be imposed only upon current employees).
On October 30,1987, the New York Times published an
article alleging that the grant award to the Hudson               Departmental Procurement PolicyShould be Enforced
Institute was "a victory for the Old Boy network." The            and Strengthened
article prompted the OIG to conduct a special purpose
review of the facts and circumstances surrounding the             Even though departmental policy encourages competi-
award of the "Workforce 2000" grant to the Hudson                 tion forgrants, we concluded that ETA and the PRB did
Institute. The review disclosed:                                  not adhere to that policywhentheHudsonlnstitutewas
                                                                  awarded the noncompetitive "Workforce 2000" grant.
1. Questions about whether there were violations or the           However, ETA disagrees with our conclusion. It be-
appearances of ethical violations by the former Assis-            lieves that a sole source grant was justified and that all
tant Secretary for Employment and Training.                       procedural requirements for sole source grants were
                                                                  met.
2. Departmental   procurement     policy needs to be en-
forced and strengthened.                                          Furthermore,     to encourage competition and ensure
                                                                  integrity in the award of the Department's discretionary
3. ETA provided oversight, but the oversight was un-              grant funds, we concluded that additional procurement
structured and did not include compliance monitoring,             policies and procedures are needed for noncompetitive
                                                                  discretionary grants. We found that the following pro-
Questions about whether there were violations or the              curement policies and procedures exist for contracts:
appearances of ethical violations by the former Assis-            criteria for sole-source awards; requirements for mar-
tant Secretary                                                    ket surveys; criteria for severability work; and require-
                                                                  ments for competition advocacy functions. However,
The former Assistant Secretary for Employment and                 similar DOL, as well as Federal, procurement policies
Training had not only a professional relationship, but            and procedures do not exist for noncompetitive discre-
also a personal relationship, with the then President/            tionary grants.
Chief Executive Officer of the Hudson Institute and did
not disclose that relationship to his procurement staff or        We recommended a series of actions by the Assistant
to the Department's Procurement Review Board (PRB)                Secretary for Administration and Management to give
when he personally selected the Hudson Institute for              the Department's procurement staffs additional policy
the sole-source grant award,                                      and procedural guidance to ensure that the Department
                                                                  follows its established policy of making maximum prac-
We recommended that the Solicitor of Labor deter-                 tical use of competitive procedures for awarding discre-
mine and issue a report on whether the former Assis-              tionary grants, and to ensure integrity in the award of
tant Secretary for Employment and Training, during his            DOL's discretionary grant funds.
tenure as a public official, violated any conduct stan-
dards in connection with the noncompetitive grant to
the Hudson Institute.




                                                             45
OASAM and ETA Responses                                           The Assistant Secretary did not concur with our recom-
                                                                  mendation to have the Competition in Contracting
The Assistant Secretary for Administration and Man-               Act's (CICA's) criteria for sole source contracts also
agement concurred with or made constructive modifi-               apply to sole-source discretionary grants. He stated that
cations to nearly all of OIG's recommendations.       The         the "Congress explicitly applied the CICA to contracts
Assistant Secretary further stated that this concurrence          only." While the Assistant Secretary concurred with
was "... evidence of our [OASAM's] strong commit-                 our intent to compete discretionary grants "where
ment to an effective and fair procurement       process."         appropriate," he maintained that the Department should
The Assistant Secretary stated that the Department                not adopt the "rigid methodologies" of CICA in award-
would, among other things, take the following correc-             ing grants.
tive actions:
                                                                  The Assistant Secretary for Employment and Training
1. The Department will amend the sole-source request              informed us that ETA favors public announcement         of
forms to obtain certification from Department of Labor            proposed sole-source grant awards, and the establish-
officials regarding any past or existing relationships            ment of specific criteria by the Department for Pro-
with interested performers,                                       curement Review Board members who are required to
                                                                  conduct impartial reviews of requests for procurement.
2. The Department's Procurement Review Board will                 The Assistant Secretary further responded that ETA is
review potential conflict of interest situations and make         willing to review the feasibility of a meaningful disclo-
appropriate recommendations        to the Assistant Secre-        sure process with the Office of the Assistant Secretary
tary for Administration and Management.                           for Administration and Management and the Solicitor's
                                                                  Office.
3. The Assistant Secretary will issue a memorandum to
all agency heads and other political appointees of the            The Assistant Secretary also pointed out that ETA has
Department reminding them of the need for public of-              made considerable gains in competing discretionary
ficials to avoid any action which might create the ap-            grants. According to the Assistant Secretary, in fiscal
pearance of a violation of the conflict of interest rules,        year 1987, 7 of 51 (14 percent) new discretionary grants
                                                                  were awarded using competitive procedures. In fiscal
4. The Assistant Secretarywill issue a memorandum to              year 1988, 43 of 65 (66 percent) new discretionary
the Agency Heads and procurement staffs reminding                 grants were awarded competitively.
them of the need to conscientiously apply the require-
ments for competing grants found in the DOL's Long-               ETA provided oversight, but the oversight was un-
Term Procurement Plan and Secretary's Order 11-79.                structured and did not include compliance monitor-
                                                                  ing
5. The Assistant Secretary will convene a group of DOL
policy and procurement officials to properly implement            Although ETA provided considerable oversight of the
our recommendation      that a "Notice of Solicitation" be        Hudson Institute "Workforce 2000" grant, our review
published in the Commerce Business Daily whenever a               showed that the required compliance monitoring did not
noncompetitive discretionary grant is contemplated,               occur. The absence of structured compliance monitor-
                                                                  ing permitted the Hudson Institute to submit research
6. The Department's internal operating regulations will           papers that were not in conformance with the terms of
be amended to require that all modifications of con-              the grant. Also, Hudson failed to submit the required
tracts and grants which are outside the scope of the              monthly reports on staff utilization and the required
original procurement must be processed as a new pro-              quarterly progress reports.
curement.
                                                                  We recommended        that the Assistant Secretary for
7. The Department's internal operating regulations will           Employment and Training require the ETA program
be amended to extend the departmental        and DOL              agency staffs to develop and implement a structured
agency competition advocate functions to include grants           and systematic monitoring program for "research"
of discretionary funds as well as contracts,                      contracts and grants.




                                                             46
ETA Response                                                      Although the enactment of the Single Audit Act has
                                                                  reduced our activities in performing financial and
With respect to the Hudson Institute grant, in late               compliance audits, we perform these reviews in support
September 1988, ETA sent a monitoring team on-site                of investigations or by request of program administra-
to ensure that the Hudson Institute fully understands             tots. OIG completed two such special requests where
and complies with its contractual terms during the                potential program fraud or abuse had been alleged.
remaining life of this grant.
                                                                  NATIONAL URBAN INDIAN COUNCIL/NATIONAL
OIG will consider the Solicitor of Labor and the two              INDIAN BUSINESS COUNCIL
Assistant Secretaries' comments in finalizing the audit
report. In addition, we will review the Solicitor of              From 1986 to the present, ETA's Division of Indian and
Labor's determination and report when it is issued on             Native American Programs has entered into grant agree-
the ethical questions we raised. We will also summarize           ments with the National Urban Indian Council (NUIC)
the Solicitor's determination    and actions in our next          and the National Indian Business Council (NIBC) to
semiannual report to the Congress.                                provide various training and employment services for
                                                                  Native Americans.
Financial and Compliance     Audit of the
Hudson Institute Grant                                            At the request of ETA, OIG initiated two audits which
                                                                  reviewed the propriety of the space and equipment
In September 1988, we issued an interim financial and             expenses on four of these grants: three to NUIC and
compliance audit report on $812,000 in costs billed by            one to NIBC. Our objective was to determine whether
the Hudson Institute under the grant from February                these costs were allowable in accordance with the pro-
1986 to September 1987. The report identified audit               visions of the grant and applicable Federal regulations.
exceptions in three areas. First, the Hudson Institute
chose not to credit the grant with the income from the            We found that all the grant charges for space and
sale of the "Workforce 2000" book ($13,000). Second,              equipment rental were the result of less-than-arm's-
the Hudson Institute did not fully support expenditures           length transactions; we recommended disallowance to-
for consultant fees ($82,000). Finally, at the time of the        tailing $170,218, less depreciation and other allowable
audit, the Hudson Institute had not submitted indirect            expenses. We could not determine the allowable ex-
cost proposals for 1986 and 1987 to support the $327,000          penses or depreciation because the chief executive and
of overhead and general and administrative expenses               the chairperson of the board of directors refused to give
allocated to the grant (since submitted but not yet               us access to appropriate records.
audited).
                                                                  Prior to our audits, the Inspector General's Office of
In October 1988, ETA issued its initial determination to          the Department of Health and Human Services (HHS-
the Hudson Institute, sustaining all of our audit excep-          OIG) issued an audit report in 1986 on its review of
tions.                                                            HHS grants to NUIC. The HHS-OIG had also found
                                                                  that these NUIC grantees were involved in several less-
During the audit, we also identified an additional $48,000        than-arm's-length transactions concerning rental of space
in income from the sale of the "Workforce 2000" book              and equipment.
after our audit period; ETA will also be addressing this
audit exception.                                                  Considering the HHS-OIG       report and the serious
                                                                  questions concerning less-than-arm's-length  transac-
Indian and Native American Programs                               tions and conflicts of interest in our two reports, ETA
                                                                  has taken this grantee off the Letter-of-Credit    and is
Indian and Native American programs are federally                 requiring the grantee to submit documentation of costs
administered programs authorized by Title IV of JTPA.             incurred prior to reimbursement.    ETA has also inten-
Their purpose is to provide job training to economically          sifted its monitoring of this grantee. In addition, our
disadvantaged, unemployed, or underemployed Indian                financial and compliance audit work is continuing on
and Native Americans. Fiscal year 1989 budget author-             the four grants awarded to NUIC and NIBC.
ity is $59 million.




                                                             47
FRESNO AMERICAN INDIAN COUNCIL                                   2. The grantee failed to have adequate internal program
                                                                 management procedures in place to prevent program
In 1987, ETA's Division of Indian and Native American            abuse.
Programs entered into a grant agreement with the
Fresno American Indian Council (FAIC) to provide                 3. OIG has confirmed recommended disallowances of
various training and employment services to Native               $22,640 for fiscal years 1985 and 1986. The funds were
Americans in central California. In February 1988,               spent on unauthorizedprojects. In addition, the grantee
OIG and ETA jointly conducted a special program                  needed to reimburse the JTPA grant for cash advances
abuse review of selected grant line items. The special           made for non-JTPA expenses.
review produced the following findings:
                                                                 4. Program income generated by the grantee with JTPA
1. The grantee failed to maintain an acceptable financial        funds, participants, and staff were not retained by the
management system which would provide accurate and               grantee to carry out JTPA program objectives. The
complete disclosure of financial transactions,                   grantee must reimburse the JTPA account for all such
                                                                 funds.




                                                            48
                                                   Chapter 5
                                                Audit Resolution


                                            Audit Resolution Activity
                                                  ($ millions)

              Period          Audit Reports                   Amount                                Total
              Ending          Resolved               Disallowed     Allowed                         Resolved

              3/31/87            223                       $84.8                  $38.6               $123.4
              9/30/87            149                       $98.0                  $40.3               $138.3
              3/31/88            308                       $24.6                  $43.7                $68.3
              9/30/88            384                        $6.8                   $3.3                $10.1

   Detailed information   about audit resolution activity for the period may be found in the Appendix to this report.




Significant Resolution Actions                                  Employment Security Commission of North Carolina
                                                                Unemployment Insurance Automation Support Ac-
MANAGEMENT COMMITMENTS                                          count (Audit Report No. 05-88-009-03-315)
TO RECOVER FUNDS
                                                                OIG audited $2,442,493 of UIASA grants awarded to
The following are examples of significant resolution            North Carolina for fiscal years 1984 through 1986. The
actions taken by program officials which resulted in the        audit cited exceptions totaling $459,186 because North
disallowance of costs claimed by the Department's               Carolina bought equipment not authorized in the UIASA
contractors and grantees,                                       grants. ETA disallowed the entire amount.

Minnesota Department of Jobs and Training Unem-                 Pennsylvania Office of Emplo_nent Security Unem-
ployment Insurance Automation Support Account (Audit            ployment Insurance Automation Support Account (Audit
Report No. 05-88-008-03-315)                                    Report No. 05-88-010-03-315)

OIG audited $2,271,018 of Unemployment Insurance                OIG audited $6,774,204 of UIASA grants awarded to
Automation Support Acount (UIASA) grants awarded                Pennsylvania for fiscal years 1984 through 1986. The
to Minnesota for fiscal years 1984 through 1986. The            audit cited exceptions totaling $641,286 because Penn-
audit cited exceptions totaling $553,649 because Min-           sylvania charged excessive costs to the grants and main-
nesota bought equipment not authorized in the UIASA             tained questionable resources-on-order.      ETA disal-
grants, used equipment for activities not authorized,           lowed $491,286 of excessive costs charged to the grants.
had unused equipment, and either did not obligate               Pennsylvaniahas submitted a check for the full $491,286.
funds properly or let obligational authority expire. ETA
disallowed the entire amount.




                                                           49
Inappropriate      Permanent    Change    of Station            3. Develop a selection procedure designed to assist in
Reimbursement     (Audit Report No. 02-7-014-10-105)            the identification of deficient reports for an ongoing
                                                                quality control review by program officials.
 An OIG review of an allegation indicated that a DOL
employee was improperly reimbursed $9,487 for relo-             Deficient reports or workpapers identified as a result of
cation expenses relating to a permanent change of               our review will be referred to PWBA for appropriate
station (PCS) move. The reimbursement      should not           corrective action with the IPAs or State Boards of
have been made because the PCS was requested by the             Accountancy.
employee for his personal benefit, and the PCS at
Government    expense was authorized after the em-              Participation with PWBA and the American Institute
ployee had actually relocated, which is contrary to             of Certified Public Accountants in the Revision of
Government travel regulations. The employee is reim-            Industry Audit Standards
bursing the Government the full $9,487.
                                                                As a result of an OIG recommendation,      this office and
MANAGEMENT COMMITMENT                   TO REMEDY               PWBA are participating with the American Institute of
ADMINISTRATIVE ACTIONS                                          Certified Public Accountants (AICPA) on the revision
                                                                of the industry audit standards for audits of pension and
Non-monetary audit recommendations are important                welfare benefit plans covered by ERISA.
because they direct attention to improving internal
controls and operating procedures. They also propose            To assist with the revision process, OIG formally pre-
shifting program emphasis and policy direction and              sented to the AICPA the results of our review on the
making legislative or regulatory changes. Corrective            quality and usefulness of Independent Public Account-
actions constitute reasonable remedies and include              ant audit reports prepared for pension and welfare
descriptions and timetables of specific actions taken,          benefit plans.
completion dates, and evidence to prove recommenda-
tions were implemented.                                         OIG has a keen interest in the ERISA safeguards
                                                                afforded to all plan participants. These safeguards
The following are examples of significant resolution            include the annual audit reports and the Secretary of
actions taken by program officials to remedy adminis-           Labor's oversight of the pension and welfare benefits
trative deficiencies,                                           industry.

Follow-up Review of the Quality of Independent    Public        As we presented our findings to the AICPA, we made
Accountant Audit Reports                                        several recommendations        for improvements    to the
                                                                industry audit standards and the reporting process. In
During this reporting period, OIG initiated a review of         our opinion, the majority of those recommendations
the quality of Independent Public Accountant (IPA)              can be implemented without additional legislation. The
reports and supporting workpapers for audits of pen-            industry audit guide is illustrative of where changes can
sion and welfare benefit plans covered by ERISA. This           be made to:
project directly follows up an earlier recommendation
contained in OIG's report titled, "PWBA Should Ex-              1. Define clearly that plan participants    are the audit
pand the Role of the Independent Public Accountant in           clients;
ERISA Enforcement."
                                                                2. Stress the importance of the interest and reliance that
The follow-up project is designed to:                           plan participants and the Secretary of Labor place on
                                                                information presented in audit reports;
1. Identify specific reporting problems mentioned in the
earlier report;                                                 3. Stress the importance of the Secretary of Labor's
                                                                oversight responsibility on behalf of plan participants;
2. Quantify the extent of audit and reporting deficien-
cies through the utilization of a random sample of ap-          4. Clarify definitions   of all known ERISA violations;
proximately 300 audit reports selected for review; and          and




                                                           50
5. Require disclosure of all known ERISA violations to           The inaccurate reports resulted from a lack of internal
the Secretary of Labor.                                          control through a reconciliation of reported payments
                                                                 and DLSHWC records, and specific reporting instruc-
OIG remains committed to ensuring that adequate                  tions to self-insured employers and insurance carriers
safeguards exist for plan participants by making tools of        on how to report prior years' adjustment activity. The
the IPA audit reports which are available to the Secre-          DLSHWC assessed penalties because it misinterpreted
tary to oversee the pension and welfare benefits indus-          the advice of its Associate Solicitor.
try.
                                                                 ESA's response to our recommendations      indicates that
Reported Payments Under the Longshore and Harbor                 it has taken or is in the process of taking corrective
Worker's Compensation Act (Audit Report No. 02-84-               action to verify the accuracy of reported compensation
073-04-432)                                                      payments, including reconciliation procedures and in-
                                                                 tends to seek independent audits to verify the reported
The audit report showed that reported payments did               payments. In addition, DLSHWC agrees that interest
not accurately reflect the total compensation paid dur-          rather than penalties should be charged for late pay-
ing the period covered, and that the Division of Long-           ment.
shore and Harbor Workers' Compensation (DLSITWC)
assessed penalties rather than charged interest on late
assessment payments. Penalties are not provided for
under the Act.




                                                            51
                                   OFFICE                            OF INVESTIGATIONS


From April 1 through September 30, 1988, the Office of Investigations (OI) opened 517 cases
nationally; closed 641 cases; referred 452 individuals for prosecution and another 49 individuals
to DOL agencies for administrative action. Investigative results for this semiannual period
were 605 indictments, 390 successful prosecutions,          and $4,390,443 in recoveries, fines,
restitutions, settlements and cost efficiencies. Accomplishment statistics for fiscal year 1988
and comparative indictment/conviction      results spanning the past six fiscal years are as follows.



           MONETARYRESULTS                                                                      PROSECUTIVERESULTS
                             FY 1988                                                            FISCALYEAR
                        (Dollar6   in Thousands)

                                                                                                 1983 -



                                                                                                 1984 -
                                                                                                                  258




    REBTITUTION8   _                                          $2,03Z                             1986   -


                                                                                                 1986 -                                  809
        $3,t00     _                                                 [
                                                   ......... fi_:::::_:_ SETTLEMENT




                                                                   =431                          1987 -                                        P66




                                                                  FINE8                          1988 *                            726
                                         RECOVERIES

                                           $2,832                                                       0     200  400    600      800   1000   1200
                                                                                                        NUMBER OF INDICTMENTS      OR CONVICTIONS
                                                                                                        I   INDICTMENT8   _]    CONVICTION8


                       TOTAL - $9,162,000




EMPLOYMENT     AND TRAINING                                                                Previous reports have listed our investigative            findings
ADMINISTRATION    (ETA)                                                                    onthisissue. OMceofAuditreportsonJTPAParticipant
                                                                                           Training and Services (AIRS No. 06-86-801-03-340,
                                                                                           issued January 25, 1988) and JTPA Service Provider
Job Training Programs                                                                      Contracts (AIRS No. 06-88-802-03-340, issued during
                                                                                           this reporting period) not only confirm our previous
The problems relating to the Job Training Partnership                                      observations, but more specifically identify and establish
Act (JTPA)'program have created manynew challenges                                         the extent to which they exist throughout the program.
for OI Special Agents. Poorlywritten contracts, lack of
uniform     substantive    program    regulations    and                                   Developing cases in this inconsistent administrative
administration, the disparity in the implementation of                                     environment, coupled with weak and often ignored
regulations and reporting requirements,        and other                                   regulations, is always labor intensive and often impossible
problems associated with combating fraud and waste                                         when using standard        investigative procedures     and
have been previously reported. Little has been done to                                     prosecutive     approaches    charging such crimes as
correct these administrative problems,                                                     embezzlement, false statements, and false claims. In


                                                                                      53
 order to identify and prosecute those who would corrupt           investigation by the FBI for non-JTPA related
 this program, our Special Agents, in conjunction with             violations of wire fraud, extortion, and conspiracy.
 U.S. Attorneys, are developing new approaches which               A coordinated effort by OIG with the FBI and the
include the use of laws dealing with extortion, racketeering,      Department of Justice ultimately resulted in the
 conspiracy, and specific program funding. The complex             individual entering into a plea agreement for theft
 financial obfuscations by some JTPA grant recipients              of JTPA funds and extortion. U.S.v. Vickery (W.D.
must be translated         into fact patterns        readily       Oklahoma)
understandable      to a prosecutor and ultimately to a
judge and jury.                                                    In Houston, Texas, two individuals were named in
                                                                   an indictment charging them with theft of JTPA
While this shows the expertise and ingenuity of our                funds and conspiracy for their role in a fraud
agents, this extra effort should be unnecessary. Stronger          scheme. The individuals owned an insurance agency
program definition, such as more precisely written                 and received a substantialJTPA   contract to provide
contracts and consistent implementation of regulations             secretarial, insurance processing, and computer
and instructions, coupled with better administrative               programming training.       The indictment alleged
oversight would reduce the opportunityfor wrongdoing               that the defendants falsified training documents
in the program. In those instances where problems do               and failed to pay participants as required by the
arise, these necessary improvements           would allow          contract. U.S.v.ForwardandForward(S.D.        Texas)
investigations to be resolved without expending time
learning differing procurement procedures and eligibility          The director and president of the National Institute
requirements.     Recent case examples include:                    of Youth Safety, Inc., a Delaware corporation,
                                                                   were recently indicted on charges of fraudulently
   Two former top Gary Manpower Administration                     obtaining and misusing JTPA flmds. The defendants
   (GMA) officials and a job training contractor were              entered into contracts with various service delivery
   indicted on June 21 by a Federal Grand Jury at                  areas and contractors to train and place JTPA
   Hammond, Indiana, on charges of racketeering,                   participants in full-time jobs. However, the indictment
   racketeering conspiracy, bribery, and conspiracy to             charged     that some participants         were paid
   defraud the U.S. Department of Labor. From 1974                 approximately half their salary, mostly in cash,
  to 1984, GMA was responsible for administering                   while others were given cash to sit at home and
  Federal job training funds received by the City of               falsify reimbursement       forms. U.S.v. Clemmons
  Gary, Indiana.      The indictment, which resulted               (E.D. Arkansas)
  from a joint investigation with the Internal Revenue
  Service, alleged that from about June 1980 through               As a result of prior indictments charging conspiracy
  October 1980, the administrator and director of                  and mail fraud, on June 3, 1988, the former Assistant
  operations exacted approximately$49,000in      bribes            Director and Financial Officer of Northwest
  from PLUS, Ltd., a GMA contractor. It further                    VocationalTechnical      School and others pied guilty
  alleged that, from February 1983 to about October                to conspiring to defraud the State of Arkansas by
  1983, the former director of operations, who left                submitting false vouchers. The scheme involved
  GMA to become a principal of DECAR, Inc.,                        the creation of businesses to fabricate invoices,
  another GMA contractor, along with the indicted                  which were submitted for approval and payment
  contractor and administrator, engaged in another                 under various State and JTPA contracts.          The
  bribery scheme involving over $145,000.           The            defendants are awaiting sentencing. U.S.v. Taylor
  indictment also alleged that the defendants conspired            et al. (W.D. Arkansas)
  to defraud DOL by unlawfully using DOL funds to
  lease and operate a restaurant and lounge in the
  Sheraton Hotel at Gary. The indictment seeks                   UNEMPLOYMENT                INSURANCE            (UI)
  forfeitures of at least $228,557. If convicted, each
  defendant faces a maximum sentence        of 105 years         The UI program reported that alleged UI fraud
  in prison and a fine of up to $622,000.   U.S.v. Cain          overpayments nationwide, as detected by the State
  and Sullivan (N.D. Indiana)                                    Employment Security Agencies (SESAs), exceeded $124
                                                                 million for fiscal year 1987. This underscores the
 An investigation ofa JTPA contractor for allegedly              Inspector    General's     motivation  and continuing
 using DOL funds to operate a travel service disclosed           commitment to ensure the integrity of the UI program
 that the individual     was under      independent              by detecting significant fraud and enhancing deterrents


                                                            54
by aggressively seeking prosecutions. During this period,                In another fictitious employee/employer      scheme
several enforcement strategies were continued, which                     previously reported, a Newport News, Virginia
included clustering single-claimant investigations, seeking              man received the strictest sentence yet imposed in
Federal and local prosecutions, identifying fictitious                   a case of this type on May 16 at Richmond, Virginia.
employee/employer       schemes, promoting          benefit              He was sentenced to 15 years' imprisonment with 5
payments control through prosecutions, and identifying                   years' probation to follow and was ordered to pay
internal breaches of trust,                                              fines and restitution totaling approximately $16,000.
                                                                         On March 22 he was convicted on 33 counts, which
To efficiently manage its very limited resources, OI                     included mail fraud and making false statements.
clustered   single-claimant    fraud investigations and                  He netted over $30,000 in UI benefits before
prosecutionsat theFederalandStatelevelsinArkansas,                       detection. This was a joint investigation with the
Florida, Indiana, Louisiana, Michigan, Missouri, and                     Postal Inspection Service.       U.S.v. Lang (E.D.
the District of Columbia. In these jurisdictions, 192                    Virginia)
clustered UI indictments were returned representing
fraud overpayments which exceeded $448,000. The                        The following exemplifies the kinds of internal UI cases
following is a typical cluster of cases:                               investigated by the Office of Investigations:

  In August, 32 individuals were indicted for mail                       On August 12, a tax compliance auditor, who had
  fraud, having been accused of submitting false                         been an employee of the Louisiana Department of
  claims for UI benefits while employed.            The                  Labor since 1967,was suspended without paybased
  indictments allegedthat they obtained approximately                    upon allegations that he submitted false travel
  $61,000 in benefits. This investigation was conducted                  vouchers for travel not incurred.
  jointly with the Caddo Parish Sheriff's Office and
  the Louisiana Department         of Labor.     U.S.v.                  On September 14, a clerk in the Berwind, Puerto
  McEachern et al. (W.D. Louisiana)                                      Rico, SESA office was indicted for theft of Federal
                                                                         program funds. He was accused of a scheme where
  In a joint project with the Mississippi SESA to                        he reactivated closed UI claimant cases causingthe
  demonstrate the effectiveness of benefit payments                      computer to generate checks which he negotiated.
  control through prosecutions, OI presented 124                         He obtained approximately $6,100 before detection.
  cases in 49 of the State's 82 counties during this                     U.S.v. Pizarro (D. Puerto Rico)
  period, all of which resulted in indictments. As of
  this date, 70 defendants have been convicted, while                  Another vulnerability to potential loss by the UI system
  fines and court costs total approximately $72,000.                   occurs when illegal aliens, who are not legally entitled to
  UI losses were approximately $115,000 in these                       work or receive UI compensation,        establish a base
  cases and full restitution of this loss is expected,                 period for potential UI claims by using false documents.
  Mississippi v. Wells et al. (D. Mississippi)                         The following is an example of our work with other
                                                                       interested Federal and State agencies to address this
Fictitious employee/employer      schemes still present the            problem:
greatest single threat to UI integrity, particularly recidivist
activity, which continues to surface. These schemes are                  Agents of the U.S. Border Patrol developed
pervasive, due to the widespread nature of the activity                  information about an organized group that smuggled
and the lack of SESA interstate enforcement jurisdiction:                illegal aliens from Mexico by selling them fraudulent
                                                                         Social Security Administration       cards and other
  On Mayl3, a federalgrandjuryinlllinoisreturned                         documents which allowed illegal aliens to gain
  a 27-count indictment charging a recidivist with                       employment in the DeQueen, Arkansas, area. This
  mail fraud. It alleged that he conducted a fictitious                  led to a task force investigation which included the
  employee/employer      scheme and illegally obtained                   Border Patrol, the Department of Health and Human
  approximately $9,000 in UI benefits from Minnesota                     Services' OIG, the Immigration and Naturalization
  and Oregon before indictment. Previously, he was                       Service, the Arkansas State Police, the U.S. Attorney,
  convicted of a similar scheme in California, where                     and the DOL Office of Investigations. We identified
  he is presently incarcerated. U.S.v. Dolliole (N.D.                    139 employees of Pilgrim's Pride Industries who
  Illinois)                                                              obtained employment under false pretenses.          On




                                                                  55
  June 13, nineteen individuals were arrested at                 receiving FECA benefits. The subject also committed
  Pilgrim's Pride plant for smuggling aliens and the             perjury in previous testimony to an OWCP Hearing
  illegal sale of Social Security Administration cards.          Examiner.     U.S.v. Sorrentino (M.D. Florida)
  On July 14, six individuals pied to single-count
  criminal informations. Four were sentenced to 1                On August 15, a criminal information was filed in
  years' imprisonment,      credit for time served (64           the United States District Court, Eastern District
  days), 2 years' probation, and byorder ofthecourt              of New Orleans, Louisiana, charging a former
  "referred to the Border Patrol for processing."                fireman at the New Orleans Naval Station with
  Another      subject was sentenced       to 94 days            making falsestatementstoobtainFECAbenefits.
  imprisonment,      while the last received 1 year's            While receivingover $32,000 in disabilitypayments,
  probation. U.S.v. Valdez et al. (W.D. Arkansas)                the subject served as a full-time lieutenant in the
                                                                 U.S. Naval Reserve, attended school and obtained
                                                                 his law degree. The defendant was subsequently
EMPLOYMENT               STANDARDS                               sentenced to 5 years' supervised probation and
ADMINISTRATION               (ESA)                               ordered to make almost $32,000 restitution. Dallas
                                                                 OWCP personnel and the Naval Investigative Service
                                                                 were instrumental in the successful conclusion of
Workers'     Compensation        Programs                        the investigation.   U.S.v. Yarbrough (E.D. louisiana)

Payment for authorized services to claimants is a part of        On June 29, 1988, a six-count indictment was returned
ESA's responsibilities in administering certain benefit          charging a former postal employee with making
payments to individuals under the workers' compensation          false statements to the U£. Government. In February
and Black Lung programs.            Investigations   into        1986,whileintheperformanceofherofficialduties,
irregularities within these programs continue to receive         the subject reported having been injured during an
priority attention by OI. Typical of these types of              alleged robbery. The investigation disclosed that
investigations are the following:                                the subject was not impaired as claimed and that
                                                                 she was gainfully employed while fraudulently
                                                                 claiming and receiving FECA benefits.          U.S.v.
  A joint investigative effort with the U.S. Postal              Nelson (E. D. Michigan)
  Service, which should have significant impact on
  fraud and abuse of the Federal workers' compensation           On August 23, 1988, a federal grand jury returned
  system within the State of Alaska, culminated in the           a three-count indictment charging a former civilian
  indictment of five medical doctors in Alaska. The              armyemployee with making false statements to the
  indictments, returned on July 13, alleged that the             U.S. Government.       The subject worked for three
  doctors falsified information relating to purported            employers, earning over $27,375, while fraudulently
  medicaltreatments     for services rendered under the          obtaining FECA benefits by not reporting this
  Federal Employees' Compensation Act (FECA).                    income. In order to cover-up his activities, the
  During the investigation,         PIG    agents made           subject used his wife's social semrity number. OWCP
  undercover visits to the doctors involved stating              determined an overpayment of $97,912.98. U.S.v.
  that they had not suffered any injury or illness, but          Head (N.D. Georgia)
  rather wanted time off from work for personal
  reasons and travel. The doctors, according to the              On July 15, 1988, the manager of a health care
  indictment, then prepared reports for the Postal               company that provided oxygen equipment          to
  Service and DOL which reflected that the agents                claimants for Black Lung benefits was sentenced in
  had sufferedjob-relatedinjuriesor      illnesses, when         Federal District court to a suspended 3 year
  these doctors knew no such injury or illness had               imprisonment term, ordered to make $10,390 in
  occurred and no medical treatment was warranted,               restitution, and fined $3,000. The individual was
  U.S.v. Savikko et al. (D. Alaska)                              convicted of filing false statements with DOL
                                                                 surrounding his alteration of blood tests results
 A former postal employee was sentenced on July 14               used as the basis to qualify claimants for oxygen
 in U.S. District Court, Middle District of Florida,             equipment. The company received reimbursement
 to 5 years' probation and ordered to make restitution           for unnecessary services based on the false test
 totalling $66,276. The subject operated an automobile           results. U.S.v. Bevins (S.D. West Virginia)
 body shop and towing business while fraudulently


                                                            56
  On August 4, 1988, a woman was sentenced to 3                   and State construction projects in Washington,
  years' probation during which she must perform 20               Oregon, California, Arizona, Hawaii, Colorado,
  hours of public service work a week, was fined                  and Texas.    U.S.v. Mantikes, et al. (District of
  $1,000, and was ordered to pay $5,919 restitution as            Hawaii)
  a result of a guilty plea to one count of making false
  statements to obtain Black Lung benefits. The                   On May 9, two officers of an electrical contractor
  defendant was the widow of a deceased miner                     company were indicted by a federal grand jury in
  eligible for Black Lung benefits. She concealed her             Miami, Florida on 96 counts, including conspiracy
  re-marriage in 1970, which made her ineligible for              and making false statements. The contractor allegedly
  continued benefits. She was also ordered to make                falsified payrollreports to concealunderpaid wages
  restitution for that portion of the Government's                on federally-funded work performed on the Miami
  loss within the applicable statute of limitations.              AreaMetrorail     Stations. If convicted on all counts,
  U.S.v. Greer (S.D. West Virginia)                               the two could each face a maximum sentence of 245
                                                                  years' incarceration and approximately $960,000 in
  On June 18, an individual entered a pre-trial                   fines. U.S.v. Guerra (S.D. Florida)
  agreement approved by the Federal District Court
  in Charleston, West Virginia. He admitted to mail               On April 20, a federal grand jury in Cleveland,
  fraud and bribery violations. As part of the agreement,         Ohio returned an eight-count indictment against
  he was placed on one years' supervised probation,               both the owner and his company for the submission
  OI initiated its investigation upon receiving                   of false statements. On eight different occasions,
  information from the DOL's Black Lung office that               the subject, while working on a federally-funded
  a claimant attempted to bribe a claims examiner to              contract with the City of Akron, prepared and
  approve his Black Lung claims for benefits. During              submitted certified payroll forms in accordance
  the investigation, the ineligible claimant offered an           with the Davis-Bacon Act, on which he allegedly
  OIG agent, posing as a claims examiner, $30,000 to              falsely represented that he had paid the required
  insure that his claim would be approved. Had the                prevailing wages to his employees. Investigation
  claim been approved, the subject would have received            determined that he did not pay his employees
  a retroactive payment of approximately $50,000                  approximately $47,000 which he certified he had.
  and monthly benefits of $507. U.S.v. King (S.D.                 On September 23, following an eight-day jury trial,
  West Virginia)                                                  the owner and the company were found guilty of
                                                                  one count of the indictment and acquitted on the
Wage and Hour Division                                            remaining counts. Sentencing      is pending.   U.S.v.
                                                                  Gironda (N.D. Ohio)
OI has supported and strengthened the Wage and Hour
Division's (WILD)enforcementactivitiesbyproactively               On July, 21 in Federal District Court, Detroit,
conducting criminal investigations of Federal contractors         Michigan, two officers of a contracting firm pied
who have violated the provisions of the Davis-Bacon               guilty to an information charging violations of the
Act and the Copeland Anti-Kickback Act. In addition,              Fair Labor Standards Act (FLSA). The company
OI has sought to enter more joint efforts with WIlD to            also pied to a Charge of false statements.      The
identify criminal violations of the Fair Labor Standards          company's president and the secretary/treasurer
Act (FLSA). Examples of this continuing effort are                admitted by their pleas that during the period April
cited below:                                                      1984 to April 1986, the company failed to pay some
                                                                  of its employees overtime corn pensation and failed
  On August 3, a federal grand jury returned a 38-                to keep proper payroll records as required by
  count indictment charging three individuals with                FLSA. A plea agreement negotiated in this case
  violations of conspiracy and false statements. They             specified that the company is to pay $44,887 in
  allegedly conspired to submit falsified payroll records,        restitution to the affected employees and required
  certifying that prevailing wages had been paid on a             the defendants and two related companies to enter
  painting contract at a Marine Corps Air Station on              into a consent judgement in a civil case filed against
  the Island of Oahu. The $472,980 interior painting              them in U.S. District Court by the U.S. Department
  contract was awarded to this contractor, who had a              of Labor. The defendants agreed to a permanent
  long history of Davis-Bacon violations and who had              injunction requiring them to comply with the FLSA
  been debarred in 1986. He continued to operate                  overtime and record keeping provisions. U.S.v.
  under numerous company names on both Federal                    Guzman et al. (E.D. Michigan)


                                                             57
PENSION AND WELFARE BENEFITS                                   with DOL remain a priority of the Inspector General.
ADMINISTRATION (PWBA) and                                      The following examples are representative of the ethics
                                                               and integrity investigations which culminated during
OFFICE       OF   LABOR-MANAGEMENT
                                                               this reporting period. Some illustrate the variance in
STANDARDS           (OLMS)                                     DOL program management's           commitment to take
                                                               positive action to prevent or deter similar action in the
Under the provisions of the Inspector General Act of           future.
1978, OIG was given a very broad mandate and
responsibility to investigate fraud in any program or              On April 15, a former district director of the Office
operation of the Department.       Special Agents of OIG           of Labor-Management            Standards      (OLMS),
are the only Departmental employees officially classified          Nashville, Tennessee, was sentenced to 18 months'
by Federal personnel regulations as criminal investigators,        imprisonment, with 6 months to serve and 12 months'
With the professional expertise of our agents, and the             probation for criminal contempt after pleading
broad responsibility mandated by the Congress in the               guilty to providing protected grandjuryinformation
Inspector General Act, OI is undertaking a more                    to a newspaper reporter. The reporter then used
aggressive proactive effort to identify, investigate, and          this information in an article published in a local
seek prosecution of criminal violations within PWBA                newspaper. Thejudgeadmitted        that the sentencing
and OLMS. Historically, Departmental personnel who                 decision was a difficult one to make considering the
are not classified as criminal investigators have pursued          employee's excellent past performance and career;
these matters.     The following are examples of this              thefactthathehadgainednothingfinanciallybyhis
effort:                                                            action; and that he had voluntarily retired from
                                                                   Government       service to improve relationships
  On June 6, a former postal employee pied guilty in               between the OLMS and the U.S. Attorney's Office
  the Eastern District of New York to embezzlement                 as a result of the disclosure. However, the judge
  of union funds as a result of an OI investigation,               felt that the security of the grand jury system must
  The subject was a Postal Service window clerk and                be observed, especially by those in supervisory and
  president of American Postal Workers Union Local                 management       positions.    U.S.v.    Ward (W.D.
  2939. The investigation determined that the employee             Tennessee)
  embezzled postal funds and then attempted to
  replace that money with money taken from the                     In another case where a DOL employee received a
  union's treasury. Sentencing is pending. U.S.v.                  prison term, a former MSHA inspector who had
  Calonita (E.D. New York)                                         previously entered a nolo contendere plea to 2
                                                                   counts of bribery, was sentenced on September 19
  On June 6, a former president of the First National              to 2 years' imprisonment with 1 year to serve, and
  Health Benefit Administrators     was sentenced to               3 years' probation. He was also fined $1,000 and
  120 days' confinement in a community treatment                   ordered to make restitution of $500. His guilty plea
  center, 5 years' probation, and ordered to make                  was accepted as part of an agreement in which 18
  $19,700 restitution. He pled guilty to 4 counts of a             other counts charged in a January indictment were
  13-count indictment which charged him with                       dismissed. The former inspector had been charged
  embezzlement of $54,000 from two health benefit                  with soliciting and accepting approximately $10,000
  plans. U.S.v. Parham (C.D. California)                           in cash or other items of value from various coal
                                                                   mine operators with which he had official inspection
                                                                   oversight. U.S.v. Jessee (W.D. Virginia)
ETHICS      AND     INTEGRITY         ISSUES
                                                                   In another investigation by OI, two high-level OSHA
All Government employees have specific standards of                management employees, including an acting regional
conduct and conflict of interest laws which apply to the           administrator, received written reprimands for their
performance of their duties. Investigations of possible            personal involvement and directions given to
wrongdoing or misconduct by DOL employees and                      subordinates   regarding entries made on travel
persons or firms acting in an official capacity directly           vouchers.    An investigation determined that 25




                                                              58
OSHA employees, at the direction of, or with the              an address frequented by the employee's brother.
knowledge of these two, submitted false travel                The employee pied guilty in U.S. district court in
vouchers for costs reportedly associated with an              August 1988 to one count of theft of public funds.
area directors'    meeting.     These management              Sentencing is pending. U.S.v. Green (D. District
employees directed others to f'de travel vouchers             of Columbia)
claiming per diem costs as if they were in a high cost
area even though they knew this was not true. In              On August 10, a federal grand jury in Dallas, Texas,
addition, it was determined that room costs for all           returned an indictment charging a DOL employee
travelers were subsidized by a master account, and            with seven counts of false statements. The scheme
a suite was subsidized for one OSHA employee,                 was detected by the Office of Workers' Compensation
The investigation further revealed a number of                Programs(OWCP)         through theirmedicalpayment
weaknesses in the procurement process for official            monitoring system and reported           to OIG for
training meetings. Upon learning of the nature of             investigation.   It is alleged that the subject, an
the investigation by OIG, the Office oftheAssistant           OWCP bill payer, embezzled            funds through
Secretary for Administration      and Management              fabricatedmedicalbills,    which generated eight U.S.
(OASAM) and the Office of the Comptroller                     Treasury checks totaling $42,800. They were sent
published a conference      planning checklist for            to a post office box rented by the subject.        If
distribution to all DOL employees. OASAM is                   convicted, the subject could face a maximum sentence
currently recovering approximately $2,500 from                of 35 years' imprisonment and fmes totaling $70,000.
culpable OSHA employees.                                      U.S.v. White (N. D. Texas)

The Bureau of Apprenticeship       and Training's             In an attempt to recover lost funds, a civil action
management suspended a clerical employee for 14               was filed on May 19 in the U.S. District Court for
days without pay and required her to repay DOL                the District of Columbia seeking a $588,000 judgment
approximately $2,000 in overpaid salary after an              against a DOL contract court reporter. The suit,
OIG investigation disclosed that she had falsified            filed bythe Federal Government, charged a Kansas
time and attendance records and leave slips. This             woman with overcharging the U.S. Department of
scheme resulted in her being paid a regular salary            Labor for court reporting services. The woman was
for hours not worked and no charge being made to              the principal operating officer and director of a
her leave during periods she was absent from the              Texas corporation      that provided stenographic
office,                                                       reporting services in cases heard before the
                                                              Department's Office of Administrative Law Judges.
Another integrity investigation involved the theft of         An investigation found that from May 1982 through
DOL funds by a DOL employee who entered false                 December 1983, she submitted, or caused to be
information    into the automated      procurement            submitted, false vouchers totaling $149,382. Treble
payment system, causing the generation of a check             damages of $448,145 and $140,000 in forfeitures
in the amount of $4,896. Entry was gained to the              are being sought under the False Claims Act. U.S.
system by the use of an identification number                 v. Jackson (D. District of Columbia)
assigned the employee, a payments clerk. The
investigation revealed that the check was mailed to




                                                         59
                OFFICE OF LABOR RACKETEERING

Labor racketeering today is evolving rapidly from crimes of violence to more sophisticated acts
of economic/financial   crime such as bidrigging, kickbacks, and conflicts of interest.       The
traditional organized criminal element has been joined by a new generation of racketeers:
attorneys, accountants, plan administrators, bankers, portfolio investment managers, and
health care providers. Nowhere is this new generation of racketeers more prevalent than in
the area of employee benefit plans, which, because of their sheer volume and structure, are
highly vulnerable to criminal exploitation. This vulnerability, as illustrated in the significant
case discussion below, extends to single-employer plans as well as to multi-employer, union
affiliated plans.

Employing both criminal and civil methods of redress, OLR has continued to emphasize en-
forcement measures designed to prevent racketeering from occurring within organized labor.
Significant effort was devoted to the investigation leading to the Government's June filing of
a civil suit under provisions of the Racketeer Influenced and Corrupt Organizations (RICO)
statute against the 18-member General Executive Board of the International Brotherhood of
Teamsters (IBT) and 26 persons alleged to be major La Cosa Nostra members and associates.
The civil complaint charges that the executive board has allowed the IBT to be corrupted by
organized crime members and seeks appointment of a trustee to replace the executive board
and run new IBT officer elections.

Vigorous, extensive investigation also has been dedicated to support the court-imposed
"decreeship" of Roofers Local 30 and 30B, Philadelphia, Pennsylvania, and the court-imposed
trusteeship of IBT Local 560, Union City, New Jersey, in an effort to eliminate violence and
corruption from the affairs of these locals. In a parallel action, the Association of Bridge,
Structural and Ornamental Iron Workers International imposed a trusteeship over its Local
350 in Atlantic City, New Jersey, following the conviction for racketeering of the Local's
business manager and chief operating officer. Under the aegis of the trustees, Local 350 held
its first free elections in 40 years.

In an effort to align limited law enforcement resources against the most significant racketeer-
ing problems, OLR has continued to participate in joint investigations with other FederaL,
State, and local agencies. During this period, 63 percent of indictments and 74 percent of
convictions resulted from multi-agency investigations. Critical to this cooperative concept has
been the OLR commitment to provide at least one labor racketeering enforcement training
program to interested agencies each reporting period. One such seminar was held in San
Francisco during June.

Organizational restructuring is expected to produce an expanded enforcement effort in future
years. To address the labor racketeering potential in the nation's most populous State,
California, an OLR field office has been established in San Diego, and the special agent
complement in San Francisco will be increased. A resident agency has been established in
Newburgh, New York, in response to identified racketeering problems in western and upstate
New York.
                                            61
OLR investigations          during this semiannual period produced 81 indictments       and 74 convictions
while establishing         a predicate  for the potential civil recovery of $14.5 million.

As shown in the graph below, fiscalyear 1988 convictions increased 32percent  to 120 compared
to 91 in fiscal year 1987. The number of persons or entities indicted in fiscal year 1988 also
increased 32 percent to 152 from 115 in the prior fiscal year.




                                         0     20        40       60   80        100    120    140   160   180



                                                    INDICTMENT8              _         CONVICTIONS




Selected     significant      cases for this period               are described          below.


EMPLOYEE            BENEFIT         PLANS                                   to secure contracts to provide optical, dental, and
                                                                            other health care services. The nationwide investi-
Labor      Health   Benefit     Plans,       Inco                           gation, which began  in 1985,focused
                                                                                                    in the various on the activities
                                                                            of Commito.   Included                 indictments  are
                                                                            charges of racketeering, conspiracy, mail fraud, wire
"Dentex," a joint OLR-FBI investigation of corruption                       fraud, money laundering, embezzlement, kickbacks,
in the employee welfare plan industry, has resulted in                      and obstruction of justice.
seven federal grand jury indictments, unsealed on Sep-
tember 22, involving 11 defendants in five cities. The                      Indicted in Baltimore, Maryland, were Commito,
main defendant, charged in six of the indictments, is                       United HealthCare, Inc., and its vice president of
Angelo Commito, the principal officer of three compa-                       marketing, Alan S. Cohn.
nies--Labor Health and Benefit Plans, Inc., Diversified
Benefit Systems, Inc., and Special Vision Services, Inc.,-
that provide health care services to employee benefit                       In Atlanta, one indictment charges Commito; Carl
plans and are based in Chicago, Illinois, and San Fran-                     A. Mattison, owner of J.D. King Corporation and
cisco.                                                                      Multibenefit Systems, Inc, of California; and Monica
                                                                            Oss of Washington, D.C., a former senior vice presi-
Commito and the other defendants are charged with                           dent of marketing of U.S. Behavioral Health of
schemes to defraud single-employer and union era-                           Emeryville, California. A second indictment in
ployee benefit plans through the payment of kickbacks                       Atlanta, charges Commito, Elliott F. Kusel of San


                                                                       62
Diego, California, vice president of Eye Care U.S.A.;            tribution reports and medical bills that had already
Marc L. Kusel of Mission Viejo, California, president of         been paid or were to be paid by another insurance
Contact Contact; and Thomas A. Parnham of Reston,                provider.
Virginia, president of Quality Dental Plans, Inc.
                                                                 To date, 15 convictions have resulted from this investi-
In Chicago, one indictment names Commito, Mattison,              gation. U.S.v. William Reilly and U.S.v. Joseph Kalk
and William Wire, the former manager of the Service              (N.D. Ohio)
Employees International Union Local I pension fund.
Another indictment names William Hainsworth, a for-
mer administrator   of the welfare fund of the Plasterers        Hotel Employees and Restaurant
& Cement Masons Union Local 803 of DuPage County,
Illinois.
                                                                 Employees Union Local 28

In San Diego, an indictment      names   Commito,    both        Raymond Lane, formersecretary-treasureroftheHotel
                                                                 Employees and Restaurant Employees Union (HERE)
Kusels, and Cheryl E. Fyten, former vice president of            Local 28 in Oakland, California, pied guilty on June 20
personnel at Eye Care U.S.A. Commito, Mattison, and              to one count of accepting illegal payments to influence
Oss are again charged in San Francisco.        U.S.v.            decisions regarding the Local's benefit plans.
Commito et al. (D. Maryland), U.S. v. Commito, Matti-
son, & Oss (N.D. Georgia), U.S.v. Commito et al. (N.D.           Lane had been indicted in January 11, 1983, following a
Georgia), U.S. v. Commito et at. (M.D. Illinois), U.S.v.
Hainsworth (M.D. Illinois), U.S.v. Commito et al. (S.D.          4-year investigation by OLR and the FBI. Co-defen-
                                                                 dants in the indictment were Allen Dorfman, who was
California), and U.S. v. Commito et al. (N.D. Califor-
nia)                                                             slain on January 20, 1983, while awaiting sentencing for
                                                                 his conviction of attempting to bribe a U.S. Senator; Sol
                                                                 C. Schwartz and Abe Chapman, both Dorfman associ-
                                                                 ates; and Frank C. Marolda, president of HERE Local
Teamsters     Local 436 Welfare and Pension                      19. Allegedly, from February 1979 to February 1980,
Plans                                                            the defendants plotted to defraud six employee welfare
                                                                 benefit or pension plans by, among other things, giving
The 5-year continuing investigation of corruption in-            Dorfman privileged information so that his Amalga-
volving Teamsters Local 436 Welfare and Pension Plans            mated Insurance Company of Chicago could win a bid
in Cleveland, Ohio, continues to yield results. On May           to administer a pre-paid dental plan for Local 28. In
9, William Reilly, owner of The Suburban Building and            return, Dorfman was to use his influence with HERE
Supply Company and former trustee of Local 436's wel-            International Union officials to merge Locals 19 and 28
fare and pension plans, pied guilty to a 2-count criminal        and install Lane or Marolda as trustee of the newly
information charging him with making false statements            created Local. Through the imposition of the merger,
in reports required by ERISA. He had falsely listed              Lane would not have to face a hotly contested election.
family members and friends as his employees to enable
them to receive medical insurance coverage under the             Trial for the remaining three defendants     is pending.
Loca1436 welfare fund. On September 13, Joseph Kalk,             U.S.v. Lane et al. (N.D. California)
a former legal counsel for the Local 436 welfare fund
was indicted on two counts of submitting false docu-
ments to an employee benefit plan and one count of               Timothy Smith, Benefit Plan Debarment
being an accessory after the fact. He allegedly assisted
Salvatore "Sam" T. Busacca, former president of the              The first conviction under the Federal statute that pro-
Local, and Busacca associate Louis J. Marrali in trying          hibits persons convicted of certain crimes from serving
to prevent their prosecution for the embezzlement of             as benefit plan fiduciaries occurred in U.S. District
over $27,000 from the welfare fund from 1982 through             Court in Philadelphia.   Timothy Smith, a benefit plan
1984. Allegedly, Kalk, who at the time was the fund's            consultant, had been barred for 5 years from acting as
attorney, made false representations both in a letter to         a consultant to employee benefit plans because of a
the Ohio Industrial Commission and to the fund's board           1981 conviction for embezzling funds from the Roofers
of trustees concerning medical claims paid by the fund           Union Local 30/30B Pension Fund. On July 28, he was
to Marrali. Marrali had submitted false employer con-            found guilty on two counts of holding a position from




                                                            63
whichhehadbeenbarredandfourcountsofincometax                      court action resulted from a suit filed by the U.S.
evasion. During some periods from 1981 to 1984, Smith             Attorney's Office under the civil provisions of the RICO
acted as a consultant to the benefit plans of the New             statute.
Jersey Liquor Store Association and the Globe Security
Systems, Inc., via his employment with Pilgrim Insur-             The civil RICO suit was based on the findingsofa3-year
ance Company and Intergroup Administrators      Corpo-            investigation by OLR and the FBI that the union was
ration. He failed to report $423,807 for the years 1981           run by violence and intimidation aimed at contractors
through 1984, causing an underpayment to the IRS of               and union members alike. The court agreed with those
$153,975. U.S.v. Timothy Smith (D. Pennsylvania)                  findings and ordered the 13 individual defendants, all
                                                                  former Roofers officials, barred until further court
                                                                  order from holding or controlling any leadership posi-
LABOR-MANAGEMENT                   RELATIONS                      tion or influence in Local 30/30B or any of its affiliated
                                                                  entities. The defendants are Stephen Traitz Jr., Edward
International      Longshoremen's        Association              P. Hurst, Michael Mangini, Robert Crosley, Michael
                                                                  Daly, Daniel Cannon, Mark Osborn, Robert Medina,
Two defendants in a joint Federal and State investiga-            Ernest Williams, James Nuzzi, Stephen Traitz III, Jo-
tion of corruption in the New York-New Jersey water-              seph Traitz, and Richard Schoenberger.
front industry received heavy sentences following their
convictions on racketeering conspiracy and extortion in           The civil suit sought a trusteeship for the union, but the
the Bayonne, New Jersey, waterfront. Donald Carson,               court rejected that idea in favor of a "decreeship" with
former executive vice president of the International              22 court-ordered provisions that are being enforced by
Longshoremen's Association, was sentenced on August               the court liaison and any appropriate deputy liaison
18 in Newark to 7 years in prison and fined $20,000.              officers. The provisions affect the daily and financial
Anthony Gallagher was sentenced to 12 years in prison             business of the union and its affiliated entities. U.S.v.
on July 25. Both defendants were convicted on April 16.           Local 30/30B United Slate, Tile and Composition Roof-
Carson had accepted approximately $175,000 in illegal             ers, Damp and WaterproofWorkersAssociation        et al. (D.
payments from a stevedore company to assure labor                 Pennsylvania)
peace in connection with the movement of container-
ized cargo. Gallagher used his company, B & A Reefer              Iron Workers Union Loca 1 350
Company, to funnel the money to Carson.
                                                                  Thomas F. Kepner, the former business manager of the
High-ranking Genovese organized crime family mem-                 Bridge, Structural, and Ornamental Iron Workers Union
ber John Digilio had been acquitted in the April trial,           Local 350 in Atlantic City, New Jersey, was sentenced in
but was subsequently found murdered. Milton Held, an              Camden on September 15 to serve 10 years in prison,
officer of United Terminals, Inc., (UTI), and Harold              followed by 5 years' probation, and fined $170,000.
Friedman, a senior vice president of UTI's parent                 Kepner had been convicted on June 16 on charges of
company Diversified Transportation Resources (DTR),               racketeering, RICO conspiracy, accepting over $115,000
pled guilty to charges of bribery on July 29. John                in illegal payments in violation of the Taft-HartleyAct
Barbato, a Digilio associate, pied guilty on September            prohibiting certain payments from employers to union
14 to a criminal information charging interstate travel in        officials, conspiracy to obstruct justice, and filing false
aid of racketeering, but because of deteriorating health          income tax returns. Kepner had been conducting the
will not be sentenced. Trial for David Richman of New             affairs of Local 350 through a pattern of racketeering
York City, president of UTI and DTR, is pending. U.S.             activity involving several schemes, primarily prohibited
v. John Digilio et al. (D. New Jersey)                            payments to Kepner from businesses involved in the
                                                                  steel erection and construction industry. Five co-defen-
Roofers   Local    Union    30/30B                                dants were acquitted of charges.

A chief liaison officer was appointed by a U.S. District          Under the RICO forfeiture provisions, Kepner had
Court judge as the principal enforcement officer in a             been removed from his positions as business manager
"decreeship" imposed on Roofers Union Local 30/30B                of Local 350 and trustee of the Local's benefit plans
of Philadelphia, Pennsylvania, on May 23. The court               when he was convicted on June 16. On June 22, the
also ruled that the December 21, 1987, union election             International Association of Bridge, Structural, and Or-
would remain in effect until further court order. The             namental Iron Workers placed Local 350 under trustee-



                                                             64
ship and replaced all its officers and executive board           committed acts of racketeering that include embezzle-
members with officers appointed by the International.            ment, receipt of illegal labor and benefit plan payoffs,
                                                                 and bribery. The complaint further charges that 12
On September 12, the trustees held an election and five          board members aided and abetted wire fraud in organ-
new members were elected to act as an advisory committee         ized crime's scheme to ensure the elections of the last
for Local 350 until the next regular elections in June           two Teamsters presidents, Roy Williams and Jackie
1989. This was the first free election in 40 years for           Presser. Presser died after the suit was filed. U.S.v. the
Local 350. Prior elections had resulted in violence,             lnternational Brotherhood of Teamsters et al. (S.D. New
including shootings, arson, and throat slashings, aimed          York)
at dissidents. For the last 17 years, Kepner was the only
candidate nominated. The September election resulted             Teamsters     Local 560
in 17 nominations for various posts. Joseph Lupton, a
dissident union member during Kepner's regime, was
                                                                 Michael Sciarra, former Teamsters Local 560 presi-
overwhelmingly elected to the advisory committee and             dent, and Joseph Sheridan, former Local 560 vice presi-
appointed to replace Kepner as business agent. A                 dent, have been enjoined from running for union office
Lupton supporter, Frank Sach, Jr., was also appointed            in the upcoming elections for Local 560 in Union City,
a business agent. U.S.v. Kepner et al. (D. New Jersey)           New Jersey. The preliminary injunction was issued by
                                                                 a U.S. District Court judge in Newark in response to a
                                                                 July court action by the U.S. Attorney, which charged
INTERNAL        UNION      AFFAIRS                               that organized crime still tries to maintain control of the
                                                                 Local. In support of his decision, the judge stated, "The
International Brotherhood of Teamsters                           public interest in racketeer free corporations and un-
                                                                 ions overrides the interest of stockholders of corpora-
A complaint against the 18-member General Executive              tions or members    of unions freely to select their offi-
Board of the International Brotherhood of Teamsters              cers."
(IBT) was filed under the civil provisions of the RICO
                                                                 The July court action, "Appfication for Additional Refief,"
statute on June 28 by the U.S. Attorney for the Southern
District of New York.                                            was the latest action, using the civil provisions of the
                                                                 RICO statute, to support the Local's 1986 court-ira-

The complaint also names as defendants 26 persons                posed trusteeship. The trusteeship was the result of a
alleged to be major La Cosa Nostra (organized crime)             civil RICO suit filed in 1982 charging the local, its
                                                                 benefit plans, and all its officers--led by Anthony Prov-
members and associates, including the bosses of six
organized crime families. Within the last 8 years, 25 of         enzano--with conducting the business of the local through
these 26 defendants have been convicted of Teamsters-            a long history of corruption, murder, and violence
related crimes, including murder, racketeering, illegal          under the influence of organized crime. Provenzano
labor and benefit fund payoffs, embezzlement of unions           headed the local until he was convicted of racketeering
funds, and extortion through threats of labor problems,          and then of murder and sentenced to life in prison. In
                                                                 a hearing in August 1988, the court found that Sciarra is
The complaint charges that the defendants have al-               still aligned with the Provenzano   Group and the Gen-
                                                                 ovese crime family.
lowed the union to be corrupted by organized crime
members and associates. The complaint seeks a court-
appointed trustee to ensure the elimination of organ-            Sciarra and Sheridan had been expected to be nomi-
ized crime from the union and the return of democratic           nated for office in October for elections scheduled for
processes. The civil RICO complaint, which resulted              December    1988.
from a joint investigation by OLR, the FBI, and the
                                                                 Sciarra and Sheridan now join Stanley Jaronko, also a
Department of Justice, alleges that union members
were deprived of their rights through a pattern of               former local 560 official, in being prohibited from
racketeering by organized crime with the assistance of           running for office in the upcoming elections. Jaronko
the board members. Along with 20 murders, the rack-              signed a consent judgment in January 1988 prohibiting
eteering acts include shootings, bombings, beatings,             him from ever participating in the affairs of any labor
bribes, extortion, theft, misuse of union funds, and a           organization or employee benefit plan. U.S.v. Team-
campaign of fear. The complaint alleges that all 18              stersLoca1560andMichaelSciarraandJosephSheridan
board members have committed mail fraud, that 7 have             (D. New Jersey)


                                                            65
RELATED         CORRUPTION               CASES


Wedtech       Corporation                                        Asbestos     Removal      Contractors

U.S. Congressman Mario Biaggi (D-NY) and five co-                While investigating labor racketeering in the building
defendants were convicted on August 4 in New York                and construction industry in New York City, OLR
City of racketeering and other charges stemming from             uncovered widespread corruption in the asbestos re-
the awarding of contracts to the Wedtech Corporation,            moval segment of the industry.
a defense contractor in Bronx County.
                                                                 On September 22, Toby Romano, president of Breeze
The convictions resulted from an investigation of illegal        Demolition, Inc., was found guilty of three counts of an
payments made by Wedtech officials to public officials           indictment returned against him in February 1988.
to facilitate, receive, or maintain Government con-              Romano and 16 other asbestos removal contractors had
tracts. Department of Defense and U.S. Postal Service            been indicted and a criminal information filed against
contracts accounted for 90 percent of Wedtech's gross            another contractor between February and July 1988.
revenues.                                                        They were charged with paying the EPA inspector to
                                                                 overlook violations of Federal asbestos removal proce-
Convicted on one count each of racketeering and rack-            dures by their companies and to stay away from job sites
eteering conspiracy were Congressman Biaggi; Stanley             where their companies were conducting asbestos re-
Simon, former Bronx Borough president; John Mari-                moval.
otta, former president and chairman of the board of
Wedtech; and Bernard Ehrlich, former Wedtech coun-               Romano was found guilty of one count of giving a $1,500
sel and Congressman Biaggi's former law partner. Peter           bribe to an EPA compliance officer in December 1986,
Neglia, former chief of staff and regional director for          one count of giving a $7,000 gratuity to an EPA compli-
the Small Business Administration, was convicted on              ance officer in October 1983, and one count of offering
one count of racketeering.    All defendants, including          and promising a $5,000 gratuity to an EPA compliance
Richard Biaggi, son of Congressman Biaggi, were con-             officer in October 1985. Romano is scheduled to be
victed of various counts of extortion, giving and receiv-        sentenced   on November    4, 1988.
ing bribes and gratuities, mail fraud, false statements,
obstruction   of justice, and perjury.                           In August, John Fiume, president of Fiume Jet Spray
                                                                 Company; Sheldon Richman, vice president of RCI
Seven other defendants, including four former execu-             Contracting Company, Inc.; and Nelson Foucher, owner
tives of the company, have previously pied guilty to             of Alpine-Jencris Industrial Wrecking, pied guilty to
various charges involving Wedtech. Trial has begun in            bribery or illegal gratuity charges.
a related case involving Richard Stolfi, secretary-treas-
urer for Teamsters Local 875, and Frank Casalino,                The labor racketeering probe is continuing and is fo-
former business agent for Local 875. Their indictment            cused on suspected illegal payments between company
charges that, together with five former senior Wedtech           and union officials and on fraud in union affiliated
officials and other co-conspirators, they conducted and          benefit plans. U.S.v. Rornano (S.D. New York)
conspired to conduct the affairs of Local 875 through a
pattern of racketeering from 1980 through 1987. U.S.v.
Shnon et al. and U.S. v. Stolfi and Casalino (S.D. New
York)




                                                            66
               OFFICE OF RESOURCE                                        MANAGEMENT AND
                                  LEGISLATIVE                      ASSESSMENT

The Office of Resource Management and Legislative Assessment (ORMLA) supports the
OIG by fulfilling several responsibilities mandated by the Inspector General Act of 1978,
including legislative and regulatory review, reporting to the Congress, representing the OIG
on various committees and initiatives of the President's Council on Integrity and Efficiency
(PCIE), conducting a DOL awareness and integrity program, and performing ADP and other
support activities to achieve the mission of the OIG. This section discusses the significant
concerns and achievements of the previous six months.



LEGISLATIVE AND REGULATORY                                         Finally, we are concerned that this measure could well
ASSESSMENT                                                         make computer matching applications so cumbersome,
                                                                   costly, and time consuming that most organizations will

In carrying out our responsibilities under Section 4(a)            not attempt them. We believe that this would be an
of the Inspector GeneralAct of 1978, ORMLA reviewed                unfortunate result for legitimate efforts to rid Government
and cleared or provided comments on 408 legislative                programs of fraud and abuse.
and regulatory items during this reporting period. The
following measures that have been under consideration              Inspector General Act Amendments                  of 1988
by the 100th Congress are of special interest to the OIG.          (S.908)


The Computer               Matching   and Privacy                   :_ s. _          This bill was adopted by the Congress
Protection             Act of 1988 (S.496 and                      [ ...........   1 andwassenttothePresidentonOctober

                                                                                     measure which would include nearly 40
                                                                          A_.        additional Federal  agencies   under

companion
 _'-_- s.4_
                       measure    H.R.4699)
                        Protection Act has passed both the
                                                                   /      T:I=_: / 7,1988.Wehavestronglysupportedthis
                                                                                   of 1978, as amended. While we had
   ..... •'::-".....
                 House and Senate and was sent to the              made some technical suggestions and clarifications to
                 President on October 7, 1988. While               earlier versions, we believe that this measure w_l improve
                 we had agreed with the bill's objectives          the ability of many Federal agencies to combat waste,
    ...........
  I___X          to
                 Theprotect   the privacy and and
                       Computer                 ensure due         fraud, and abuseprovisions
                                                                                       in their programs   and operations.
                 process   rights ofMatching
                                      individuals, Privacy
                                                    we had                                      of the Inspector  General Act
                 raised a number of problems with this
                                                                   Federal Financial        Management
proposal and continue to believe changes are necessary.
The Department has supported our position on this bill.            Improvement and Public Accountability
The following are areas of concern: Data Integrity                 Act    (H.R.3142)
Boards could compromise the independence             of the
Inspectors General; OIG criminal investigations and                                This bill would establish the Office of the
prosecutions could be jeopardized; additional losses               -_!._-_/_?}_g Chief Financial Officer of the United
could result from the required 30-day delay before                  ................ States in the Executive Office of the
altering or terminating payments; requirements for                 _..__':__";._:::'_-_Z-_'_
                                                                                     President to direct and coordinate Federal
providing individualized notices are potentially costly;           _-_--'_;-_-.-"-_S_-':._:"_'_
                                                                                         financial management, and establish an
cost-benefit   analyses  and estimates       of savings            ..... _..'L_....... Officer of the Assistant Secretary for
requirements would be unreliable; the exemptions for                .................... Financial   Management   within each
law enforcement matches is too limited; and the definition         executive department and an Office of the Controller in
section contains ambiguous language,                               each executive agency.



                                                              67
Federal Government Contractors                                        relations, and in internal union affairs. Because OLR's
Personnel Protection Act (S.208)                                      special agents are charged with investigating serious
                                                                      allegations of labor racketeering and organized criminal

 ..... s. _        This proposal   would prohibit     reprisal        activity in the union movement, they need full law
 ..... --.-
         • .....                                                      enforcement authority. The potential for violence is
                   Federal   Government     contractors    for        inherent in virtually every investigation undertaken by
                                                                      OLR. In gathering compelling evidence for successful
                   disclosing certain information to a Federal        prosecution of labor racketeers, OLR special agents
                   Government agency.
I__                actions against offÉcers and employees of          must have the ability to protect witnesses and other
                                                                      cooperating third parties as well as themselves against
Federal Employees Cost-Savings                  Awards                criminals who have a demonstrated proclivity for violent
Act (H.1L4574)                                                        retaliation.


 _'--"rtwt_u           This measure would amend Title 5,              The Office of Investigations (OI), the other investigative
      - - -            United States Code, with respect to            unit within the OIG, has statutory responsibility for
  .._.'.'_._.":-:_;._'_certain programs under which awards            conducting criminal investigations relating to programs
        ,f,A_r-        may be made to Federal employees for           and operations of the Department.      Law enforcement
 "-_:_:_(f_.=_'_'_ superior acoomplishments or cost savings           authority for OI investigators would also help to ensure
 :'2"_:_!_._;::L.:; disclosures, and for other purposes. It           the protection of witnesses and enhance employee
                       has passed the House.                          safety as well as to provide the critical traditional law
                                                                      enforcement tools necessary for this organization to be
                                                                      more effective, economical, and efficient.
OIG LEGISLATIVE AGENDA
                                                                       Currently, all special agents in OLR and some special
For the 101stCongress, OIG supports several legislative               agents in OI are deputized for a limited time period
proposals which we believe are essential to improve the               through the U.S. Marshals Service.          This interim,
efficiency and effectiveness of OIG operations and                    piecemeal deputization process, while necessary, has
safeguard departmental resources. We recommend                        proved to be time consuming, cumbersome, and
that the Department propose or support legislation in                 inefficient. Recognizing the need for a more permanent
the following areas, should measures introduced into                  solution, the Senate Governmental Affairs Committee
the 100th Congress that would correct some of these                   called for a hearing to consider the issue of statutory law
problems fail to pass.                                                enforcement authority for OLR. Such legislation was
                                                                      introducedinthe98thCongresswatha •      n" Actto I mp r o v e
Law Enforcement Authority           for                               Enforcement Against Organized Crime" (S.2090) but
OIG Special Agents                                                    theDepartment kept the issue"under study" and failed
                                                                      to support this bill. We believe that the Congress is
The need for statutory law enforcement authority for                  prepared again to consider the issue of statutory law
Office of Inspector General special agents, particularly              enforcement authority and is seeking Department
in our Office of Labor Racketeering (OLR), has continued              concurrence.
to be a matter of dispute within the Department.     Full
law enforcement authority for OIG special agents includes             Another      bill, "The Comprehensive         Federal Law
the authority to carry firearms, make arrests, execute                Enforcement        Improvements      Act" (S.1975), was
search warrants and administer oaths to witnesses,                    introduced in the Senate in the 100th Congress which
                                                                      would grant permanent, full law enforcement authority
The Office of Labor Racketeering, one of the two                      to all special agents in OIG's Office of Labor Racketeering
criminalinvestigation units within the OIG, has a special             and Office of Investigations. The Department did not
mission to identify and reduce labor racketeering by                  take a position on the law enforcement provisions of
traditional and emerging organized criminal groups                    this bill. The time has come and the need is clear for the
within employee benefit plans, in labor-management                    Department to take a strong position in support of full
                                                                      law enforcement authority for its criminal investigators.




                                                                 68
Implementation  of the Recommendations of the                     effect of the Supreme Court's decision in United States
President's Commission on Organized Crime                         v. Enmons, 410 U.S. 396 (1973), by amending 18 USC
                                                                  1951.
The report of the President's Commission on Organized
Crime described the integration and penetration of the            Such legislation would make clear that the Hobbs Act
pervasive intrusion of organized crime into the entire            punishes the actual or threatened use of force or violence
marketplace. According to this report, organized crime            to obtain property as part of a labor-management
is not only restricted to the influence of certain unions         dispute. The Department of Justice has sought this
or the corruption of certain leaders, but has a broad             result for over a decade.
base of economic corruption in a number of key industries
and operates through various mediums. They include a              OIG Authority to Use Testimonial      Subpoenas
combination of unions, trade associations, and legitimate
and illegitimate businesses.                                      Investigations which the Office of Inspector General
                                                                  conduct have, in many instances, both civil and criminal
In order to deprive organized crime of its economic               remedies.     Many of these investigations and studies
resources,    the Commission     recommended    several           require complex analyses of books and records. The
legislative proposals. The Office of Inspector General            Office of Inspector General currently has the authority
supports legislation to implement        some of the              to serve administrative IG subpoenas duces tecum,
recommendationsofthePresident'sCommission.        They            thereby compelling the production         of documents.
include the following actions:                                    However, OIG has no authority to serve and execute
                                                                  subpoenas ad testificcmdum, compelling testimony outside
1. Enact a labor-bribery statute by amending the Labor            the grand jury which can be utilized in both criminal and
Management Relations Act to prohibit the purchase of              civil proceedings. By not having the authority to serve
a union or union office or the sale of the right to obtain        and execute such subpoenas, OIG is at a substantial
union work;                                                       disadvantage in conducting more complex investigations
                                                                  or studies. For example, OIG cannot now require the
2. Amend Section 501 of the Labor Management                      subject of the subpoena duces tecum to explain anything
Reporting and Disclosure Act (LMRDA) to give the                  about the books and records being produced without
Secretary authority, on behalf of union members, to               compelling grand jury testimony.
enforce 29 USC 501(a) without a specific complaint and
be able to remove, if needed, fiduciaries who have                The subpoena ad testificandurn is a law enforcement
breached their fiduciary responsibilities;                        tool, the use of which has been approved as necessary to
                                                                  obtain compliance with many Department         of Labor
3. Amend Section 209 of the LMRDA, to make delinquent             programs. The OIG investigative activities will operate
and false reporting of union activities a felony; and             more efficiently with this authority.

4. Amend the LMRDA, to prohibit persons convicted                 Improve Cash Management        in the Unemployment
of any crimes in Title V and VI of the LRMDA from                 Insurance Trust Fund
holding any union office under Section 504 of the
LRMDA.                                                            The Office of Inspector General recommends that the
                                                                  Department pursue a legislative change to prevent the
The Department's       Policy Review Board has already            loss of State Unemployment Trust Fund (UTF) earnings
approved these proposals in response to recommendations           while funds are on deposit in the State Employment
of the President's Commission and has supported an                Security Agencies' benefit payment depository accounts.
initiative in this area.                                          If such earnings could be recovered, the financial position
                                                                  of the UTF would be enhanced by an additional $15
Hobbs Act Amendment                                               million annually if revenue earned on benefit payment
                                                                  account float was credited to each State's account in the
The Office of Inspector General recommends that the               UTF.
Department support legislation that would nullify the
                                                                  A legislative proposal introduced in the 100th Congress,
                                                                  S.1381, the Cash Management       Improvement Act of
                                                                  1988, would require interest earned on any float in



                                                             69
SESA's benefit payment accounts to be paid the state               The DOL Employee Ethics Handbook
account in the UTF. S.1381 was also incorporated into
S.1920, the "Omnibus        Budget Reconciliation    Act of        An ethics handbook has been newly developed for all
1987."                                                             Department employees. The handbook discusses major
                                                                   workplace ethical issues and focuses on employee integrity
The State/Federal    Cash Management Reform Task                   and OIG areas of concern, including such topics as
Force has proposed a State/Federal    Equity Program               conflicts of interest, acceptance of gifts and gratuities,
that would require payment of "reciprocal interest" by             outside employment,         improper use of government
the Federal Government if the Treasury delays its                  resources or facilities, and reporfingabuse. The handbook,
response to requests for drawdowns of funds or by                  which includes an introduction by the Secretary, is to be
States for the time period between deposit of the funds            distributed to all DOL employees and will be part of the
and their redemption by check at the local level. The              DOL employee orientation packet.
program proposes that such interest would be imposed
through State/Federal      agreements.                             Ethics Training        Package

Utilization of the Proceeds of Fines, Penalties,                   We are producing a video tape and accompanying
Restitutions, Judgments, Settlements, and                          instructor's manual which have been designed to effectively
Recoveries by the Department                                       illustrate the issue areas that have been included in the
                                                                   ethics handbook. This video tape is an integral part of
Between fiscal years 1983 and 1987, fraud investigations
                                                                   our ethics and employee integrity training initiative and
conducted by the Office of Inspector General's Office              is intended to form the core of a flexible, easily taught
of Investigations   (OI) resulted in fines, penalties,             ethics seminar which provides guidance and instruction
restitutions,  judgments,    and settlements      totaling         both to new DOL employees, and to present employees
$24,997,361, with an additional $20,275,795 in recoveries,         at headquarters and in the field.
This 5-year total of over $45 million represents an
average of more than $9 million per year (the OI annual            PCIE ACTIVITIES
budget is less than $7.5 million). The OIG proposes
that the actual receipts that result from investigations
conducted byOI be returned directly to the Department              Smart Card Applications
of Labor instead of the United States Treasury, in
particular   to offset the cost of investigations.                 The OIG is continuing its efforts to promote the use of
                                                                   computer card technology in the public sector. Computer
                                                                   cards are plastic cards with various capabilities. They
COMMUNICATIONS,                   AWARENESS,                       can contain an embedded microcomputer chip, a magnetic
AND     PREVENTION             ACTIVITIES                          stripe, or a bar-code and have the capability to store
                                                                   data, program logic, and maintain updated information.
Awareness Bulletins and Factsheets
                                                                   In both on-line and off-line applications, a card or
                                                                   related device can be linked to a computer data base to
During this reporting period, two additional awareness
                                                                   positively identify individuals, to verify their eligibility,
bulletins were published and distributed to all employees          to specify benefit or services authorizations or limitations,
to provide general information and guidance about                  to record transactions, to reconcile balances, to provide
OIG operations and selected topics of concern. No. AB
                                                                   accounting, or to perform similar functions. Computer
88-1,TheAudit, providesabasicdescriptionoftheOIG                   cards have the potential to reduce fraud and abuse,
audit and how it can improve program operations.       No.
                                                                   improve the delivery of services, and increase economy
AB 88-2, The Program Fraud Civil Remedies Act,                     and efficiency of operations.
includes a description of the Act and employees'
responsibilities under it. Sample copies of these bulletins        To promote computer cards, the OIG recently participated
are provided on pages 103-106. Upcoming awareness                  in two successful projects. The IG served on the Executive
bulletins include: The OIG Investigation, Investigating            Steering Council for the international conference on
Labor Racketeering, Accepting Gifts and Gratuities,                "Smart Card Applications and Technologies."        The IG
and Bribery. Factsheets describing OIG activities for              led the benefit delivery module at the conference.
the general public have been revised and updated during
this reporting period. Sample copies can be found on
pages 97-102.

                                                              70
Under the auspices of the PCIE Computer Committee                       SUPPORT           INITIATIVES
chaired by the Inspector General, the OIG developed a
comprehensive inventory of computer card applications
entitled, Applications of Compt_ter Card Technology.                    Standardization        of   OIG Minicomputer
This compendium of public sector uses of on-line and                    Systems
off-line computer systems using card technology provides
an overview both of applications in actual operation as                 The Division of Information Resources initiated a program
well as developed proposals,                                            to standardize all systems operations software and
                                                                        hardware configurations to the maximum extent possible.
                                                                        New modular system operator menus were developed,
Individual copies of the inventory are available from the
U.S. Department of Labor, Office of Inspector General,                  tested, and installed on all OIG minicomputers.   These
                                                                        menus incorporate an on-line help facility that obviates
601 D Street, NW, Room 4120, Washington, DC 20210.                      the need for a tailored operations manual.

Investigative Standards Booklet                                         The standardized operations software, which has been
                                                                        in place for only a few months, has greatly simplified the

               The demand
               published      for our
                          24-page      recently
                                    booklet       revised
                                            entitled,      and
                                                      "Quality          training
                                                                        improved required   for operators
                                                                                   the reliability          of remote systems
                                                                                                   of OIG minicomputers.        and
                                                                                                                           Because
               Standards for Investigations" has been so                less time must be spent in supporting day-to-day operations,
*_'_*_'/'_'**_h*_g*
               great that several thousand additional copies            the professional computer staff has been better able to
               are now being printed. This booklet contains             plan service improvements          and to focus on the
               general guidelines for qualitative standards             implementation of the OIG ADP Modernization Plan.
               applicable to all types of investigative efforts.
This OIG had taken lead responsibility for the PCIE for
the development and production of these standards.




                                                                   71
                   COMPLAINT                     HANDLING ACTIVITIES

The OIG Complaint Analysis Office and OIG Regional Offices serve employees and the
general public for reporting suspected incidents of fraud, waste, and abuse in the Department
of Labor programs and operations. The Inspector General Act of 1978provides that employ-
ees and others may report such incidents with the assurance of anonymity and protection from
reprisal. Nationwide, the OIG received, analyzed, and processed 939 complaints from all
sources during this period. Over 600 calls were received on the OIG Hotline; however, of that
number, only 48 were actual allegations.


The following hotline complaints are examples of alle-              TOTAL      ALLEGATIONS             REPORTED
gations which resulted in successful prosecutions,                              NATIONWIDE:            939
administrative action, and/or identified weaknesses in

programs operations:                                               ALLEGATIONS BY SOURCE:
         A recipient of JTPA funds submitted false
      time sheets indicating program work, when actu-            Walk-in                                            3
      ally he was engaged in private business. The               IG Hotline                                        48
      recipient received funds based on these falsified          Other telephone calls                             26
      time and attendance reports. As a result of an in-         Letters from Congress                              7
                                                                 Letters from individuals or
      vestigation, $14,940 of questioned costs were
      disallowed,                                                 organizations                                    80
                                                                 Letters from DOL agencies                        206
         A contractor   filed fraudulent time cards while        Letters from non-DOL agencies                    417
      working on a project for the Department        of          Incident Reports from DOL agencies                95
      Labor, Office of Workers Compensation.       Ad-           Reports by agents or auditors                     52
      ministrative action was taken which required               Referrals from GAO                                 5
      sign-in/sign-out logs for all contractor person-
      nel and a Notice was issued emphasizing the pro-
       cedures for Time Verification   Sheets.                     BREAKDOWN            OF     ALLEGATIONS
           As a result of a complaint referred by the              REPORTS:
      Complaint Analysis Office, a Job Corps contrac-
      tor, who was submitting false billings, entered            Referred to Audit or Investigations              371
      into a settlement agreement and over $10,000               Referred to program management                    49
      was recovered by the Department of Labor.                  Referred to other agencies                        19
                                                                 No further action                                260
                                                                 Pending disposition at end of period             240




                                                            73
                                          MONEY OWED TO THE
                                         DEPARTMENT OF LABOR

In accordance with a request in the Senate Committee on Appropriations'                      Report on the Supplemental   Appropriation
and Rescission Bill of 1980, the chart below shows unaudited  estimates                      provided by departmental   agencies on the
amounts        of money    owed,    overdue,    and written    off as uncollectible     during    the current    6-month   reporting      period.



                                          SUMMARY         OF ESTIMATED DEPARTMENT                       OF
                                                          LABOR RECEIVABLES
                                                            (Dollars   in thousands)



                                         Collections           Outstanding             Delin.            Adjustments             Under Appeal
Program                                  This FY thru          Receivables            quencies           & Write-offs            as of
Name                                     9/30/88               9/30/881               9/30/88 z          9/30/883                9/30/88 4

ESA
FECA
- beneficiary/provider
 overpayments                             $11,426              $ 20,870               $ 8,944             -$ 4,416                    $ 2683

Black Lung Program
- responsible mine
  operator reimburse-
  ment; beneficiary/
  provider overpay-
  ments                                     27,423              168,248                 12,263               - 47,975             103,492

ETA
- disallowed costs;
  outstanding cash
  balances; grantee
  overpayments                              31,957              200,192               200,192             -117,743                143,979

MSHA
- mine operator
  civil penalties                           14,107               10,511                 7,151                 -1,167                     10

PENSION          BENEFIT
GUARANTY CORPORATION
- plan assets subject
  to transfer, employer
  liability;,accrued
 premium income                           483,867                26,231                 5,490                -24,130                    400

OSHA                                        18,428               43,481                 4,245                   -367                  35,689

BLS                                            559                 117                    117                     -4                      0

Total                                    $587,767              $469,650               $238,452           -$195,802               $286,253


          1
              Includesamounts
                           identified
                                    ascontinge'nt
                                              receivables
                                                       thataresubjecttoanappealsprocesswhichcaneliminate
                                                                                                      orreducetheamountsidentified.
         2 Anyamountmorethan30daysoverdueisdelinquent.   Includes
                                                                itemsunderappealandnotavailable
                                                                                              forcollection.
         3
           Includes
                  write-off.s
                          of uncollectible
                                       i_eivublesandadjustmentsofcontingent
                                                                          receivables
                                                                                   asa resultoftheappealsprocess
                                                                                                               andreclassification
                                                                                                                               ofdisallowed
                                                                                                                                         costs
           basedondocumentationsubmittedafterauditresolution.
          4 ApproMmately
                    61percentofthetotaloutstanding
                                                receivables
                                                         (Column
                                                               2)arecurrently
                                                                           underappealtoanAdministrative
                                                                                                     LawJudge.


                                                                           75
                                       APPENDIX

                                SELECTED       STATISTICS
                              April 1 to September      30, 1988


Audit Activities

      Reports issued on DOL activities                                       396
      Audit exceptions                                             $33.3 million
      Reports issued for other Federal agencies                               33
      Dollars resolved                                             $10.1 million
        Allowed                                                     $3.3 million
        Disallowed                                                  $6.8 million


Fraud and Integrity Activities

      Allegations reported                                                  939
      Cases opened                                                          517
      Cases closed                                                          641
      Cases referred for prosecution                                        452
      Individuals or entities indicted                                      605
      Successful prosecutions                                               390
      Referrals for administrative action                                    49
      Administrative Actions                                                 88
      Fines, penalties, restitutions, and settlements                $1,553,263
      Investigative recoveries                                       $1,763,584
      Cost efficiencies                                              $1,073,652


Labor Racketeering     Investigation    Activities

      Cases opened                                                          34
      Cases closed                                                          23
      Individuals indicted                                                  81
      Individuals convicted                                                 74
      Fines                                                           $561,200
      Forfeitures                                                       $2,133
      Restitutions                                                    $911,047



                                             77
           SUMMARY OF AUDIT ACTIVITY OF DOL PROGRAMS
                   APRIL 1-SEPTEMBER 30, 1988



                                               Amount of          Amount
Agency           Reports   Grant/Contract     Questioned    Recommended
                  Issued   Amount Audited           Costs    Disallowance




OSEC                   9          $806,887        $31,600               0

VETS                  34       $53,243,370         $4,688        $691,640

ETA                  236    $4,188,876,862    $25,397,641      $7,013,035

ESA                    9    $2,030,839,250              0               0

MSHA                  23        $4,102,506        $73,826               0

OSASAM                11       $53,801,527        $65,749         $26,735

OSHA                  22       $38,508,647        $12,681          $3,962

BLS                   18       $15,830,075              0               0

PWBA                   1                 0              0               0

Other Agencies        33                 0              0               0



 TOTALS             396     $6,386,009_124    $25,586_185      $7,735,372




                                         78
          SUMMARY OF AUDIT ACTIVITY OF ETA PROGRAMS
                  APRIL 1-SEPTEMBER 30, 1988



                                             Amount of           Amount
Program     Reports   Grant/Contract        Questioned     Recommended
             Issued   Amount Audited              Costs     Disallowance




ADMIN             2                     0              0               0

UIS               6      $812,472,062              $395         $459,186

USES              1        $2,123,830                 0                0

SESA             17      $825,640,273           $18,707          $22,306

OTAA              3       $58,573,913                 0       $1,911,839

JTPA             35    $1,746,662,001       $19,109,518         $340,213

CETA             11      $355,699,413        $5,701,044       $3,883,347

DINAP            98       $47,770,519           $76,018         $269,666

DOWP             20      $232,846,012                 0                0

DSFP             31       $55,248,904            $5,456                0

OJC              10       $54,628,474           $90,109          $63,471

OSPPD             3        $5_426_454          $396_789          $637007



TOTALS          237    $4,197,091,855       $25,398,036       $7,013,035




                                    79
SUMMARY OF AUDITS PERFORMED UNDER THE SINGLE AUDIT ACT"
                APRIL 1-SEPTEMBER 30, 1988



                                                             DOL           Amount of               Amount
Agency          Entities         Reports       Grant/Contract             Questioned       Recommended
                Audited           Issued       Amount Audited                   Costs       Disallowance




OSEC                    2               8                $806,887              $31,600                     0

VETS                    2              29            $43,496,786                      0              $4,140

ETA                   84              198         $3,710,140,731           $5,891,283             $189,744

ESA                     0                1            $3,187,530                      0                    0

MSHA                    1              21             $3,473,334               $65,449                     0

OSHA                    4              19            $38,077,522               $12,681               $2,711

BLS                     1              18            $15,830,075                      0                    0

Other Agencies        26               32                         0                   0                    0



 TOTAL               120             326         $3,815,012,865            $6,001,013             $196,595




*DOLhas cognizantresponsibilityfor specificentitiesunderthe SingleAuditAct. Morethan one auditreport may
havebeen transmitted or issuedfor an entity duringthis time period. Reports are transmitted or issuedbased on
the typeoffundingand the agency/programresponsiblefor resolution. Duringthis period,DOL issued150reports
on120entities for whichDOL wascognizant;inaddition,DOL issued176reportswhichincludeddirectDOL funds
for whichwe were not cognizant.




                                                    80
                                             AUDITS BY NON-FEDERAL AUDITORS a
                      PCIE Semiannual Reporting - Summary Results of IG Reviews
                             SIX MONTHS ENDED SEPTEMBER 30, 1988


                                             A-128[102-P   AUDITS                                OTHER AUDITS
                                                                                           (Performed Pursuant to A-110 3
                                                                                               /program regulations, etc.)

                               INDEPENDENT                   STATE                       INDEPENDENT         STATE
                                  PUBLIC                   & LOCAL                         PUBLIC            & LOCAL                     GRAND
                               ACCOUNTANT                  AUDITOR           TOTAL       ACCOUNTANT          AUDITOR          TOTAL      TOTAL

A. STATISTICAL      TABLE


  1. Reports issued without    change
     or with minor changes

        a. Based on desk review 2                100               13             113             4                     0           4        117
        b. Based on QCR                            3                1               4             0                     0           0          4

  2. Total without change or
     minor changes                               103               14             117             4                     0           4        121

       Reports issued with major changes
        a. Based on desk review                    2                0                2            0                     0           0            2
        b. Based on QCR                            1                0                1            0                     0           0            1


       Total with major changes                    3                0                3            0                     0           0            3



  3. Reports with significant inadequacies
         a. Based on desk review
         b. Based on QCR


       Total reports with significant
         inadequacies

  4. Number   of auditors   referred    to
     State Boards/AICPA

  5. Number of auditors which other
     sanctions were taken




          1The non-Federal audit information on this form pertains only to those non-Federal audits where the audit services
            were procured or obtained by the auditee organization and where the audits are subject to the reporting agency's quality
            review system (i.e., desk revies and QCRs).

          2Desk Reviews are conducted         on all reports   received for which we are cognizant except for those which receive QCRs

          _I'he A-110 audits for which DOL was cognizant were conducted            to A-128 requirements,   thus were issued as A-128 reports.




                                                                          81
                               SUMMARY                OF AUDIT RESOLUTION                                    ACTIVITY
                                                      01-APR-88 TO 30-SEP-88
                      01-APR-88                     ISS._                                            RESCLV_                               30-S]_-88
_ENC'_            _       UNRES(_VED             (INCRF-J_ES)                                      (D]_P__J_ES)             _                 UHRES(_V_
PROGRAM           R_ORTS      DOLLARS        R_ORTS       DOLXARS          R_ORTS                  _         DISALLOW]_     R_R_S                  DOLLARS
     ii i   ili                                                                          .......                             , i   i        i i         --




 OSRC                0                  0        9             31,600            6                       0             0               3              31,600

 VETS                5      1,524,330           34            696,328         30                         0       26,640                9           2,194,018

 ETA:
  ADMIN              1               0           2                 0           2                 0                    0             i                      0
  UIS               11      1,992,485            5          459,186           13           218,487            1,773,998             3                459,186
  USES               1              0            1                 0           2                 0                    0             0                      0
  SESA              12      2,399,217           17           41,013           14         2,133,271              278,160            15                 28,799
  OTAA               0               0           3        1,911,839            1                 0                    0             2              1,911,839
  J_A               19        120,454           35       19,449,731           32            32,665               97,023            22             19,440,497
  CETA               9     81,486,599           ii        9,584,391           12           120,052            4,289,253*            8             87,945,853
  0STP               1         75,013            0                 0           0                 0                    0             1                 75,013
  DINAP             22        143,784           98          345,684           91            52,352              219,714"           29                237,748
  DOWP               1            619           20                 0          19               619                    0             2                      0
  DSFP               2              0           31            5,456           27                 0                    0             6                  5,456
  CLTC               2              0           i0          153,580            5                 0                    0             7                153,580
  OSPPD              0              0            3          459,796            2            33,203                2,991             1                423,602

 ESA                 1                  0         9                    0         6                       0             0               4                     0

 LMSA                2                  0         0                    0         2                       0             0               0                     0

MSHA                 1                  0       23             73,826         20                    12,500             0               4              61,326

 OASAM              15     12,902,389           11             92,484         20                    82,462       51,948                6          12,860,463

 OSHA                8         535,925          22             16,643         25                   534,995          930                5              16,643

BLS                  3           58,628         18                     0      21                    58,628             0               0                     0

PWBA                 0                  0        1                     0         1                       0             0               0                     0

M/LTI                1           77,450          0                     0         1                       0       77,450                0                     0

 0TAGY               0                  0       33                     0      32                         0             0               1                     0

 TOTAL             117   101.316.893          396        33,321.557          384         3,278,508            6,818,107"     129             125,845,623




Dollars represents both questioned costs (costs that are inadequately documented or that require the grant officer's interpretation regarding
allowability) and costs recommended for disallowance (costs that are in violation of law or regulatory requirements).

Audit Resolution occurs when the program agency and the audit organization agree on action to be taken on reported findings and recommenda-
tions. Thus, this table does not represent any activity subsequent to the final determination such as results of the appeals process, the results of the
program agency debt collection efforts or reflect the revision of prior determinations.

Differences between the beginning balances in this schedule and the ending balances of the previous semiannual report result from adjustments
required during the reporting period.

* Disallowed costs include additional claim amounts of $1,284,168(CEq'A) and $20,346 (DINAP) for a total additional claim amount of $1,304,514.




                                                                            82
                 STATUS OF RESOLUTION ACTIONS ON BEGINNING
                       BALANCE OF UNRESOLVED AUDITS
                               OVER 6 MONTHS
                                 01-APR-88                                             30-SEP-88
AGENCY                  BALANCE UNRESOLVED            (DECREASES)            BALANCE UNRESOLVED
PROGRAM                 REPORTS DOLLARS               REPORTS DOLLARS        REPORTS DOLLARS

VETS                         5          1,524,330          3       26,640          0                   0

ETA:
 ADMIN                       1                  0        1              0         0                    0
 UIS                        11          1,992,485       11      1,992,485         1                    0
 USES                        1                  0        1              0         0                    0
 SESA                       12          2,399,217       12      2,411,431         0                    0
 JTPA                       19            120,454       19        119,874         0                    0
 CETA                       9          81,486,599        8      2,788,711         1          78,697,888
 OSTP                        1             75,013        0               0        1               75,013
 DINAP                      22            143,784       27        143,628         0                    0
 DOWP                        1                619        1            619         0                    0
 DSFP                        2                  0        4               0        0                    0
 OJC                         2                  0        2               0        0                    0

ESA                          1                    0        1            0         0                    0

LMSA                         2                    0        2            0         0                    0

MSHA                         1                    0        1            0         0                    0

OASAM                       15         12,902,389       15         88,754         1           12,813,635

OSHA                         8           535,925           8       535,925        0                    0

BLS                          3               58,628      4         58,628         0                    0

MULTI                        1               77,450      1         77,450          0                   0

Other Agencies               0                    0        1            0         0                    0

TOTAL                      117        101,316,893      122      8,244,145         4          91,586,536




NOTE: Reflects resolution activity for assignments which had been unresolved at the beginning of the period;
includes only those assignments whose unresolved status is over 180 days.




                                                      83
                          UNRESOLVED AUDITS OVER 6 MONTHS
                            PRECLUDED FROM RESOLUTION
                                   APRIL 1-SEPTEMBER                   30, 1988



                                AUDIT                                                      NO OF         AUDIT
AGENCY         PROGRAM       REPORT NUMBER            NAME OF AUDIT/AUDITEE                REC         EXCEPTIONS


UNDER      INVESTIGATION        OR LITIGATION:

ETA            OSPPD         05-81-301-03-350         CONSORTIUM   VENTURE            CORP      5              75,013
OASAM          OCD           05-83-065-07-742         CITY OF DETROIT                          11          12,813,635


AWAITING        RESOLUTION:

ETA            UIS           03-83-203-03-315         UI EXPERIENCE RATING 1                       1                0
ETA            CETA          02-84-136-03-345         PUERTO RICO BOS 2                        6           78,697,888

        TOTAL     AUDIT    EXCEPTIONS                                                         2._.33      $91,586,536




      _As part of OIG's continuing effort to resolve the UI Experience Rating audit, we are currently working with
      several SESAs to reinforce the viability of our audit recommendation   to reconcile the State Unemployment
      Funds. We plan to automate the process so all the SESAs can efficiently adopt it.

      ZThis follow-up review identified material financial weaknesses which contributed to the questioned costs. Over
      the last 6 months, OIG, ETA, and SOL reviewed extensive documentation submitted by the Commonwealth
      of Puerto Rico's Right to Employment in response to the final report. ETA's final determination is expected
      to be issued early in the next period.




                                                        84
                            FINAL AUDIT REPORTS ISSUED
                             APRIL 1-SEPTEMBER 30, 1988
                                           DATE    SENT
    AUDIT                                  TO   PROGRAM

REPORT       NUMBER   AGENCY     PROGRAM   AGENCY         NAME      OF    AUDIT/AUDITEE

02-88-085-01-010      OSEC       ASP       27-JUL-88      CITY OF HARTFORD   CT. A-128
02-884)94-01-010      OSEC       ASP       16-MAY-88      CITY OF JAMESTOWN,   NY A-128

02-88-149-02-001      VETS       ADMIN     17-JUN-88      CITY OF SYRACUSE,         NY A-128

02-88-017-02-210"     VETS       VETSPM    15-JUL-88      SUFFOLK COUNTY A-128
02-88-118-02-210      VETS       VETSPM    24-MAY-88      NEW YORK STATE A-128
02-88-194-02-210      VE'I_      VEFSPM    22-SEP-88      COMM OF MASSACHUSETTS                A-128

02-87-105-03-315"     ETA        UIS       22-JUN-88      TIlE   VIRGIN   ISLANDS    ATT P

02-88-106-03-325"     ETA        SESA      23-MAY-88      MAINE DOL A-128
02-88-114-03-325      ETA        SESA      24-MAY-88      NEW YORK A-128
02-88-191-03-325      ETA        SESA      22-SEP-88      COMM OF MASSACHUSETI'S               A-128

02-86-010-03-340"     ETA        JTPA      27-MAY-88      COMM OF PUERTO RICO AT]" P
02-87-128-03-340      ETA        YI'PA     19-JUL-88      NEW YORK A-128
02-88-075-03-340      ETA        JTPA      16-MAY-88      OFFICE OF YOUTH AFFAIRS A-128
02-88-084-03-340      ETA        .FI'PA    27-JUL-88      HARTFORD   CT A-128
02-88-092-03-340*     ETA        JTPA      28-APR-88      RURAL OPPORTUNITIES   INC A-128
02-88-105-03-340      ETA        .rrPA     23-MAY-88      MAINE DOL A-128
02-88-113-03-340      ETA        JTPA      24-MAY-88      NEW YORK A-128
02-88-152-03-340"     ETA        JTPA      19-JUL-88      NATIVE AMER COMM SVCS A-128

02-84-076-03-345      ETA        CETA      27-MAY-88      CITY OF MAYAGUEZ
02-84-151-03-345      ETA        CETA      17-JUN-88      MUNICIPALITY   OF CAGUAS
02-86-038-03-345      ETA        CETA      ll-AUG-88      NEW YORK CITY DEVF OF EMPL
02-87-067-03-345      ETA        CETA      17-JUN-88      MONMOUTH     COUNTY NJ A-128
02-88-093-03-345      ETA        CETA      05-MAY-88      HUDSON COUNTY A-128
02-88-135-03-345      ETA        CETA      23-MAY-88      MAINE DOL A-128
02-88-198-03-345      ETA        CETA      30-AUG-88      MASS BOS CETA SPECIAL REPORT

02-87-142-03-355"     ETA        DINAP     16-MAY-88      AM INDIAN COMM HOUSING A-128
02-88-064-03-355      ETA        DINAP     04-AUG-88      MASHPEE WAMPANOAG    A-128
02-88-089-03-355      EFA        DINAP     12-APR-88      SENECA NATION A-128
02-88-154-03-355"     ETA        DINAP     01-AUG-88      AMERICAN  INDIANS FOR DEV A-128

02-88-115-03-360      ETA        DOWP      24-MAY-88      NEW YORK A-128



02-88-037-03-365*     ETA        DSFP      24-MAY-88      NEW ENGLAND FARM WKRS A-128
02-88-054-03-365      ETA        DSFP      30-JUN-88      TRNG & DEV CORP A-128

02-88-053-03-370*     ETA        OJC       30-JUN-88      TRNG & DEV CORP A-128


02-88-097-03-380"     ETA        SPPD      ll-AUG-88      MNPWR     DEMONSTRATION         RES      CORP

02-88-070-04-001      ESA        ADMIN     30-SEP-88      FY 86 ESA MGT LETrER

02-84-073-04-432      ESA        DLHWC     03-MAY-88      SPECIAL ASSESSMENT         FUND
02-87-106-04-432      ESA        DLHWC     14-JUL-88      LONGSHORE   HARBOR          WORKERS          F&C

02-86-037-04-435      ESA        DSWCS     01-AUG-88      PRIVATE    VS. FED WORKERS'          COMP

02-88-109-06-601      MSHA       GRTEES    23-MAY-88      MAINE DOL A-128
02-88-117-06-601      MSHA       GRTEES    24-MAY-88      NEW YORK A-128
02-88-193-06-601      MSHA       GRTEES    22-SEP-88      COMM OF MASSACHUSEITS                A-128




                                           85
                       FINAL AUDIT REPORTS                  ISSUED
                         APRIL 1-SEPTEMBER                 30, 1988
                                             DATE        SENT
     AUDIT                                   TO PROGRAM

 REPORT       NUMBER   AGENCY      PROGRAM   AGENCY             NAME       OF AUDIT/AUDITEE

02-88-078-07-735       OASAM       OPGM      04-AUG-88          RURAL      OPPORTUNITIES        INC

02-88-131-10--001      OSHA        ADMIN     09-JUN-88          UNIVERSITY        OF MAINE A-128

02-88-107-10-101       OSHA        OSHAG     23-MAY-88          MAINE DOL A-128
02--88-116-10-101      OSHA        OSHAG     24-MAY--88         NEW YORK A-128
02-88-192-10-101       OSHA        OSHAG     22-SEP-88          COMM OF MASSACHUSElq'S                A-128

02-88-108-11-111       BLS         BLSG      23-MAY-88          MAINE DOL A-128
02-88-119-11-111       BLS         BLSG      24-MAY-88          NEW YORK A-128

03-87-001-03-001       ETA         ADMIN     31-AUG-88          (CARE)     PROGRAM     STATISTICS

03-88-06303-340*       ETA         JTPA      05-AUG-88          EPILEPSY     FOUNDATN/AMERICA                 A-128
03-88-071-03-340"      ETA         JTPA      19-SEP-88          EPILEPSY     FOUNDATN/AMERICA                 A-128

03-88-068-03-355 *     ETA         DINAP     18-AUG-88          MATI'APONI-PAMUNKEY-MONACAN                       A128
03-88-073-03-355*      ETA         DINAP     27-SEP-88          COUNCIL OF THREE RIVERS A-128


03-88-051-03-360"      ETA         DOWP      05-AUG-88          NATL CNCL/SENIOR           CITIZENS    A-128

03-88-057-03-360"      ETA         DOWP      05-AUG-88          AMER ASSN/RETIRED   PERSONS              A-128
03-88-066-03-360*      ETA         DOWP      18-AUG-88          GREEN THUMB, INC. A-128
03-88.-072-03-360*     ETA         DOWP      19-SEP-88          AMER ASSN/REIIRED   PERSONS              A-128

03-88-059-03-370       ETA         OJC       14-SEP-88          KEYSTONE         JOB CORPS F&C

03-88-075-04-420       ESA         WHD       31-AUG-88          INTERNAL     CONTROLS        & BACKWAGES

03-88-025-04-433       ESA         CMWC      23-SEP-88          JOHNSTOWN         BLACK LUNG      OFFICE

03-88-054-06-601       MSHA        GRTEES    31-AUG-88          WV DIV OF VOC REI_B


03-88-042-06-610       MSHA        CMSH      30-SEP-88          MINE PLAN APPROVAL/ENFORCE                     ACT

03-88-069-07-711       OASAM       OA        18-AUG-88          PETI'Y    CASH    REVIEW

03-88-055-10-101       OSHA        OSHAG     18-AUG-88          NEW DIRECTIONS


03-88-052-98-599       OT    AGY   NO/DOL    14-APR-88          VIRGINIA COMM COLL A-128
03-88-064-98-599       OT    AGY   NO/DOL    10-AUG-88          BUCKS COUNTY PA A-128
03-88-065-98-599       OT    AGY   NO/DOL    10-AUG-88          FRANKLIN COUNTY PA A-128
03-88-067-98-599       OT    AGY   NO/DOL    17-AUG-88          CITY OF BALTIMORE   A-128
03-88-070-98-599*      OT    AGY   NO/DOL    19-SEP-88          PRINCE GEORGE'S   COUNTY MD A-128
03-88-074-98-599"      OT    AGY   NO/DOL    19-SEP-88          WASHINGTON    COUNTY PA A-128

04-88-005-02-201"      vE'rs       CONTR     06-JUN-88          ORANGE COUNTY FL FYE 9/87 A-128
04-88-102-02-201       VETS        CONTR     26-JUL-88          N.C. EMPL SEC COMM FY 85 A-128

04-88-077-02-210       VETS        VEI_PM    20-APR-88          NO. KY AREA       DEV DIST A-128
04..88-084-02-210      VETS        VE_PM     23-JUN-88          S.C.FY 86/87 A-128
04-88-086-02-210       _           VETSPM    22-JUN-88          FLORIDA FY 85 A-128
04-88-108-02-210       VE_         VETSPM    01-AUG-88          TENNESSEE     FY 86 A-128
04-88-125-02-210       VETS        VETSPM    27-SEP-88          NASHVILLE/DAVIDSON            CO "IN A-I28
04--88-127-02-210      VETS        vErSPM    27-SEP-88          TENNESSEE FY 87 A-128

04-86-074-03-315       ETA         UIS       23-SEP-88          HIGH     RISK EMPLOYERS       & TAX AUDIT




                                             86
                              FINAL AUDIT REPORTS ISSUED
                               APRIL 1-SEPTEMBER 30, 1988
                                             DATE SENT
    AUDIT                                    TO PROGRAM
REPORT NUMBER           AGENCY     PROGRAM   AGENCY       NAME OF AUDIT/AUDITEE
04-874330-03-325        ETA        SESA      08-AUG-88    SESA INVESTMENTS      OF UI FUNDS

04-88-082-03-325"       ETA        SESA      23-JUN-88    S.C. SESA FY 86/87 A-128
04-88-085-03-325        ETA        SESA      16-JUN-88    FLORIDA FY 85 A-128
04-88-101-03-325"       ETA        SESA      26-JUL-88    NC EMPL SEC COMM FY 85
A-12804-88-106-03-325   ETA        SESA      01-AUG-88    TENNESSEE    FY 86 A-128
04-88-126-03-325        ETA        SESA      27-SEP-88    TENNESSEE    FY 87 A-128
04-88-050-03-330        ETA        OTAA      01-AUG-88    SURVEY OF TRA - TEXAS
04-88-051-03-330        ETA        OTAA      12-SEP-88    SURVEY OF TRA - PENNSYLVANIA
04-88-052-03-330        ETA        OTAA      09-JUN-88    SURVEY OF TRA - WEST VIRGINIA

04--87-092-03-340       ETA        JTPA      30-SEP-88    N.C. DEPT OF ADMIN A-128
04-87-094-03-340*       ETA        JTPA      01-APR-88    PIC OF ESCAMBIA, INC A-128
04-88-009-03-340        ETA        JTPA      15-JUL-88    REVIEW OF LCAPDC
04-88-069-03-340        ETA        JTPA      15-JUL-88    HOME BUILDERS F&C
04-88-081-03-340        ETA        JTPA      29-APR-88    N.C. DIV OF SOCIAL SVCS A-128
04-88-093-03-340        ETA        JTPA      23-SEP-88    KENTUCKY
04-88-094-03-340        ETA        JTPA      16-AUG-88    MISSISSIPPI SUMMER REMED PRGM
04-88-104-03-340"       ETA        JTPA      01-AUG-88    SULLIVAN CO TN FYE 6/87 A-128
04-88-109-03-340        ETA        JTPA      01-AUG-88    TENNESSEE DOL FY 86 A-128
04-88-129-03-340        ETA        JTPA       27-SEP-88   TENNESSEE FY 87 A-128


04-88-006-03-355*       ETA        DINAP     13-JUN-88    FL GOV CNCL/INDIAN  AFF A-128
04-88-007-03-355*       ETA        DINAP     26-MAY-88    CUMBRLND ASSN/INDIAN    PEOPLE
04-88-060-03-355*       ETA        DINAP     01-APR-88    LUMBEE REGIONAL    DEV ASSN A-128
04-88-099-03-355*       ETA        DINAP     22-JUL-88    METROLINA   NATIVE AM ASSN A-128
04-88-121-03-355"       ETA        DINAP     13-SEP-88    GUILFORD  NATIVE AMER ASSN A-128
04-88-133-03-355        ETA        DINAP     27-SEP-88    EASTERN BAND OF CHEROKEE      A-128
04-88-134-03-355"       ETA        DINAP     29-SEP-88    FL GOV'S CNCL/INDIAN      AFF A-128

04-88-001-03-360        ETA        DOWP      01-JUN-88    TRIANGLE J CNCL OF GOVTS A-128
04..88-112-03-360       ETA        DOWP      01-AUG-88    TENNESSEE  FY 86 SCSEP A-128
04-88-114-03-360        ETA        DOWP      10-AUG-88    S.C. COMM/AGING    FY 85 A-128
04-88-122-03-360        ETA        DOWP      27-SEP-88    JACKSON, MS FY 87 A-128
04-88-124-03-360        ETA        DOWP      27-SEP-88    NASHVILLE/DAVIDSON       CO TN A-128
04-88-132-03-360        ETA        DOWP      27-SEP-88    TENNESSEE   FY 87 SCSEP A-128

04-87-095-03-365*       ETA        DSFP      01-APR-88    LEE CO HOUSING AUTHORrrY            A-128
04-88-030-0%365*        ETA        DSFP      26-JUL-88    MISS DELTA CNCL/FARMWKRS            A-128
04-88-113-03-365'       ETA        DSFP      19-AUG-88    TN OPP PRGRMS    FYE 12/87 A-128

04-88-115-03-365"       ETA        DSFP      26-AUG-88    FL NON-PROFIT   HOUSING     A-128

04-86-079-04-410        ESA        OFCCP     08-SEP-88    EFFECTIVENESS    AND EFFICIENCY

04-88-089-06-601        MSHA       GRTEES    22-JUN-88    FLORIDA FY 85 A-128
04-88-111-.06-601       MSHA       GRTEES    01-AUG-88    TENNESSEE FY 86 A-128
04-88-131-06-601        MSHA       GRTEES    27-SEP-88    TENNESSEE FY 87 A-128

04-88-067-07-735        OASAM      OPGM      07-JUL-88    MINACT INDIRECT COSTS
04-88-070-07-735        OASAM      OPGM      15-JUL-88    HOME BUILDERS   INDIRECT      COSTS

04-88-088-10-101        OSHA       OSHAG     22-JUN-88    FLORIDA FY 85 A-128
04-88-110-10-101        OSHA       OSHAG     01-AUG-88    TENNESSEE FY 86 A-128
04-88-130-10-101        OSHA       OSHAG     27-SEP-88    TENNESSEE FY 87 A-128

04-88-083-11-111        BLS        BLSG      23-JUN-88    S.C. FY 86/87 A-128
04-88-087-11-111        BLS        BLSG      22-JUN-88    FLORIDA FY 85 A-128




                                             87
                             FINAL AUDIT REPORTS              ISSUED
                              APRIL ][-SEPTEMBER             30, 1988

                                              DATE    SENT
    AUDIT                                     TO   PROGRAM

REPORT        NUMBER   AGENCY      PROGRAM    AGENCY          NAME   OF AUDIT/AUDITEE

04-88-103-11-111       BLS         BLSG       26-JUL-88       N.C. EMPL SEC COMM FY 85 A-128
04-88-107-11-111       BLS         BLSG       01-AUG-88       TENNESSEE   FY 86 A-128
04-88-128-11-111       BLS         BLSG       27-SEP-88       TENNESSEE   FY 87 A-128


04-88-008-98-599       OT    AGY   NO/DOL     10-JUN--88      PALM BEACH COUNTY FY 85 A-128
04-88-024-98-599       OT    AGY   NO/DOL     10-JUN-88       PALM BEACH COUNTY FY 86 A-128
04-88-032-98-599*      OT    AGY   NO/DOL     15-JUN-88       SARASOTA    COUNTY FY 85 A-128
04-88-055-98-599"      OT    AGY   NO/DOL     ll-JUL-88       BREVARD    COUNTY FL FY 87 A-128
04-88-061-98-599"      OT    AGY   NO/DOL     01-APR-88       GREENVILLE    COUNTY SC A-128
04-88-072-98-599"      OT    AGY   NO/DOL     07-APR-88       LEON COUNTY FL A-128
04-88-074-98-599*      OT    AGY   NO/DOL     07-APR-88       SEMINOLE    COUNTY FL A-128
04-88-075-98-599"      OT    AGY   NO/DOL     07-APR-88       HUNTSVILLE,   AL A-128
04-88-076-98-599*      OT    AGY   NO/DOL     20-APR-88       SARASOTA    COUNTY FL A-128
04-88-078-98-599*      OT    AGY   NO/DOL     20-APR-88       ALACHUA COUNTY FL A-128
04-88-079-98-599*      OT    AGY   NO/DOL     11-MAY-88       VOLUSIA COUNTY FY 87 A-128
04-88-080-98-599*      OT    AGY   NO/DOL     25-APR-88       MANATEE    COUNTY FL A-128
04-884Y)0-98-599"      OT    AGY   NO/DOL     27-JUN-88       WAKE COUNTY FY 86 A-128
04-88-091-98-599"      OT    AGY   NO/DOL     27-JUN-88       ALAMANCE COUNTY FY 85 A-128
04-88-092-98-599"      OT    AGY   NO/DOL     15-JUL-88       CUMBERLAND     COUNTY NC A-128
04..88-096-98-599*     OT    AGY   NO/DOL     26-JUL.-88      WAKE COUNTY NC FYE 6/87 A-128
04-88-098-98-599"      OT    AGY   NO/DOL     22-JUL-88       SC HUMAN AFFAIRS COMM A-128

04-88-100-98-599"      OT    AGY   NO/DOL     21-JUL-88       SC HUMAN AFFAIRS COMM A-128
04-88-105-98-599"      OT    AGY   NO/DOL     22-JUL-88       GREENVILLE  COUNTY SC A-128
04-88-117-98-599"      OT    AGY   NO/DOL     02-SEP-88       DAVIDSON COUNTY NC A-128
04-88-120-98-599"      OT    AGY   NO/DOL     02-SEP-88       PASCO COUNTY FL A-128

05-88-097-02-201       VETS        CONTR      25-AUG-88       NEBRASKA    DOL
05-88-116-02-201       VETS        CONTR      20-SEP-88       MINNESOTA    A-128

05-88-058.-02-210      VETS        VETSPM     15-APR-88       ST. PAUL MINN A-128
05-88-061-02-210       VETS        VETSPM     06-MAY-88       FULL EMPL CNCL A-128
05-88-070-02-210"      VETS        VETSPM     10-MAY-88       NE DEPT OF VETS AFFAIRS ATI" P
05-88-072-02-210       VETS        VE'TSPM    13-MAY-88       OMAHA, NEBRASKA A-128
05-88-076-02-210       VETS        V'Eq'SPM   01-JUN-88       ST. CLAIR COUNTY ILLINOIS A-128

05-88-001-03-315       ETA         UIS        23-AUG-88       NEBRASKA
05-88-009-03-315       ETA         UIS        25-APR-88       NC EMPL SEC COMM

05-88-096-03-325*      ETA         SESA       25-AUG-88       NEBRASKA DOL A-128
05-88-117-03-325       ETA         SESA       20-SEP-88       MINNESOTA A-128

05-86-080-03-340*      ETA         .rigA      01-JUN-88       MICHIGAN DOL NIT P
05-884381-03-340       ETA         JTPA       01-JUN-88       IOWA PLANNING/PRGMING       A-128

05.-88-060-03-345      ETA         CETA       26-MAY-88       CLEVELAND,   OHIO A-128
05-88-069-03-345       ETA         CETA       18-MAY-88       CLEVELAND,   OHIO A-128
05-88-075-03-345*      ETA         CETA       10-MAY-88       MISSOURI SOCIAL SVCS A'IT P
05-88-086-03-345       ETA         CETA       22-JUN-88       HAMILTON   CO OHIO E&T DEPT

05--88-055-03-355"     ETA         DINAP      01-APR-88      MINN AMER INDIAN C'rR A-128
05-88-056-03-355"      ETA         DINAP      07-APR-88      MINN AMER INDIAN CTR A-128
05-88-059-03-355"      ETA         DINAP      06-MAY-88      MILWAUKEE     INDIAN CNCL A-128
05-88-062-03-355"      ETA         DINAP      18-APR-88      MID-AMER ALL-INDIAN      CTR A-128
05-88-063-03-355       ETA         DINAP      05-MAY-88      WI WINNEBAGO      BUSINESS A-128
05--88-071-03-355      ETA         DINAP      ll-MAY--88     SAC/FOX   TRIBE OF MISS A-1.28
05-88-073-03-355"      ETA         DINAP      25-APR-88      NE INTER.TRIBAL    DEV A-128
05-88-074-03-355       ETA         DINAP      13-MAY-88      WHITE EARTH INDIAN RES A-128




                                              88
                             FINAL AUDIT REPORTS ISSUED
                              APRIL 1-SEPTEMBER 30, 1988
                                             DATE     SENT
    AUDIT                                    TO   PROGRAM

REPORT        NUMBER   AGENCY     PROGRAM    AGENCY          NAME      OF AUDIT/AUDITEE

05-88-077.-03-355      ETA        DINAP      01-JUN-88       STOCKBRIDGE-MUNCEE    TRIBE A-128
05-88-078--03-355*     ETA        DINAP      24-MAY-88       WISCONSIN INDIAN CNSRT A-128

05-88-079--03-355*     ETA        DINAP      20-MAY-88       WISCONSIN INDIAN CONSRT ATI" P
05-88..082--03-355*    ETA        DINAP      13-JUN-88       POTOWATOMI     INDIAN NATION A-128
05-88-085-03-355*      ETA        DINAP      20-JUN-88       AMER INDIAN CNCL E&T ATT P
05-88-090-03-355       ETA        DINAP      29-JUL-88       ONEIDA TRIBE OF WISCONSIN A-128
05-88-094-03-355       ETA        DINAP      10-AUG-88       MENOMINEE    TRIBE OF WI A-128
05-88-101-03-355       ETA        DINAP      30-AUG.-88      FONDU    LAC RES BUS COMM A-128
05-88-124-03-355       ETA        DINAP      27-SEP-88       INTER-TRIBAL   CNCL OF MI A-128

05-88.-091-03-360      ETA        DOWP       05-AUG-88       IOWA COMM      ON AGING   A-128
05-88-092-03-360       ETA        DOWP       05-AUG-88       INDIANA AGING/COMM   SVCS A-128
05.-88--095-03-360     ETA        DOWP       10-AUG-88       INDIANA AGING/COMM   SVCS A-128
05--88-103-03-360      ETA        DOWP       16-SEP-88       NEBRASKA  DEPT ON AGING A-128
05-88-135-03-360       ETA        DOWP       27-SEP-88       IOWA ELDERS AFFAIRS A-128

05-88-057-03-365"      ETA        DSFP       13-APR-88       PROTEUS     EMPL OPPS A-128
05-88-068-03-365"      ETA        DSFP       19-APR-88       NEBRASKA ASSN/FARMWRKRS           A-128
05-88-089-03-365*      ETA        DSFP       04-AUG-88       HOMES/CASAS/INC  A-128
05-88-1234)3-365"      ETA        DSFP       22-SEP-88       NEBRASKA ASSN/FARMWRKRS           A-128

05-88-065-06.-601      MSHA       GRTEES     21-APR-88       OHIO INDUSTRIAL     RELATIONS     A-128
05-88-067.-06..601     MSHA       GRTEES     25-APR-88       OHIO INDUSTRIAL     RELATIONS     A-128
05-88-100-06-601       MSHA       GRTEES     20-SEP-88       ILLINOIS MINES/MINERALS       A-128
05-88-118-06-601       SHA        G RTEES    20-SEP-88       MINNESOTA   A-128

05-88-064-10-I01"      OSHA       OSHAG      21-APR-88       OHIO INDUSTRIAL   RELATIONS A-128
05-88-066-10-101"      OSHA       OSHAG      25-APR-88       OHIO INDUSTRIAL   RELATIONS A-128
05--884393-10-101"     OSHA       OSHAG      05-AUG-88       LABOR SERVICES DIVISION A-128
05-88-099-10-101       OSHA       OSHAG      25-AUG-88       NEBRASKA DOL A-128
05-88-119-10-101       OSHA       OSHAG      20-SEP-88       MINNESOTA   A-128

05-88-098-11-111       BLS        BLSG       25-AUG-88       NEBRASKA DOL A-128
05-88-120-11-111       BLS        BLSG       20-SEP-88       MINNESOTA A-128

06-88-067-01-010       OSEC       ASP        02-MAY-88       NORTH DAKOTA JOB SERVICE A-128
06--88-091-01-010      OSEC       ASP        13-MAY--88      LOUISIANA  DOL A-128
06-88--097-01-010"     OSEC       ASP        06-.JUN-88      NM OCCUPATION   INFOR COORD A-128
0688-103--01-010"      OSEC       ASP        29-JUL-88       WY DOL A-128
06-88-121-01-010       OSEC       ASP        20-SEP-88       SOUTH DAKOTA DOL

06-88-052-02-210       VETS       VETSPM     19-APR-88       ARKANSAS  EMPL SEC DIV A-128
06-88-065-02-210       VETS       VETSPM     02-MAY.-88      NORTH DAKOTA JOB SERVICE A-128
06-88-077-02-210       VE-'rs     VE-'rSPM   05-MAY-88       NM EMPL SEC DEPT A-128
06-88..090-02-210      VETS       VETSPM     13-MAY.-88      LOUISIANA DOL A-128
06-88-122-02-210       VEq'S      VEq_PM     20-SEP.-88      SOUTH DAKOTA DOL A-128
06-88-330-02-210       VETS       vErSPM     16-SEP-88       CHEROKEE   NATION OK A-128

06-88-057-03-315"      ETA        UIS        02-MAY-88       NORTH DAKOTA JOB SERVICE          A-128
06-88-079-03-315       ETA        UIS        13-MAY-88       LOUISIANA DOL A-128

06-88-111-03-325"      ETA        SESA       09-SEP-88       WY EMPL SEC COMM A-128
06-88-113-03-325       ETA        SESA       13-SEP-88       UTAH A-128
06-88-118-03-325"      ETA        SESA       20-SEP-88       SOUTH DAKOTA DOL A-128

06-88-045-03-340*      ETA        JTPA       19-APR-88       ARKANSAS EMPL SEC DIV A-128
06-88-068-03-340*      ETA        JTPA       05-MAY-88       NM EMPL SEC DEPT A-128




                                             89
                             FINAL AUDIT REPORTS            ISSUED
                              APRIL 1-SEPTEMBER            30, 1988

                                            DATE    SENT
    AUDIT                                   TO PROGRAM

REPORT        NUMBER   AGENCY     PROGRAM   AGENCY          NAME    OF AUDIT/AUDITEE

06-88-297-03-340       ErA        JTPA      26-MAY-88       COLLEGE OF EASTERN UTAH A-128
06-88-308-03-340       ETA        JTPA      10-JUN-88       COLLEGE OF EASTERN UTAH A-128
06-88-800-03-340       ETA        JTPA      30-SEP-88       JTPA GRANT FUND PROTECTION
06-88-802-03-340       ETA        JTPA      28-SEP-88       SVC PROVIDERS CONTRACI'S-RPT  II

06-88-1M4-03-355"      ETA        DINAP     13-APR-88       MONTANA INDIAN ASSN A-128
06-88-056-03-355*      ETA        DINAP     01-MAY-88       FOUR TRIBES CNSRT OF OK A-128
06-88.-095-03-355"     ETA        DINAP     25-MAY--88      OK TRBL ASSIST PROGRAM      A-128
06-88-102-03-355"      ETA        DINAP     18-JUL-88       NM NATL INDIAN YOUTH CNCL A-128
06-88-109-03-355       ETA        DINAP     08-AUG-88       OK TRBL ASSIST PROGRAM      A-128
06-88-110-03-355"      ETA        DINAP     26-AUG-88       FOUR TRIBES CNSRT OF OK A-128
06-88-295-03-355       ETA        DINAP     25-MAY-88       OK INTER-TRIBAL    CNCL A-128
/)6-88-298-03-355      ETA        DINAP     07-JUN-88       OK KIOWA TRIBE A-128
06--88-301-03-355      ETA        DINAP     09-JUN-88       SD OGLALA SIOUX TRIBE A-128
06-88-303-03-355       ETA        DINAP     09-JUN-88       SD OGLALA SIOUX TRIBE A-128
06-88-305-03-355       ETA        DINAP     09-JUN-88       NM MESCALERO     APACHE   TRIBE A-128
06-88-307-03-355       ETA        DINAP     10-JUN-88       OK SEMINOLE NATION A-128
06-88-309-03-355       ETA        DINAP     10-JUN-88       SD CHEYENNE    RIVER SIOUX A-128
06-88-312-03-355       ETA        DINAP     13-JUN-88       THREE AFFILIATED    TRIBES A-128
06-88-313-03-355       ETA        DINAP     13-JUN-88       FLANDREAU    SANTEE SIOUX A-128
06-88-314-03-355       ETA        DINAP     14-JUN-88       CITIZEN BAND POTAWATOMI        A-128
06--88-316-03-355      ETA        DINAP     17-JUN-88       CENTRAL TRIBES/SHAWNEE        A-128

06-88-318-03-355       ETA        DINAP     17-JUN-88       RAMAH NAVAJO SCHOOL BD A-128
06-88-323-03-355       ETA        DINAP     22-JUN-88       SANTA CLARA PUEBLO A-128
06-88-324-03-355       ETA        DINAP     22-JUN-88       "IX TIGUA IND/AN TRIBE A-128
06-88-326-03-355       ETA        DINAP     22-JUN-88       NM TAOS PUEBLO A-128
06-88-327-03-355       ETA        DINAP     22-JUN-88       OK MUSCOGEE     CREEK NATION A-128
06.-88-328-03-355      ETA        DINAP     29-JUL-88       OK OTOE-MISSOURIA     TRIBE A-128
06.-88-329-03-355      ETA        DINAP     16-SEP-88       OK CHEROKEE     NATION A-128
06-88-331-03-355       ETA        DINAP     16-SEP-88       ND STANDING ROCK SIOUX A-128
06-88-332-03-355       ETA        DINAP     16-SEP-88       CENTRAL TRIBES/SHAWNEE        A-128
06.-88-333-03-355      ETA        DINAP     16-SEP-88       OK CHICKASAW NATION A-128
06-88-334-03-355       ETA        DINAP     16-SEP-88       MT ASSINIBOINE/SIOUX    A-128
06-88-337-03-355       ETA        DINAP     27-SEP-88       CHIPPEWA CREE/ROCKY       BOY'S A-128
06-88-338-03-355       ETA        DINAP     27-SEP-88       SD ROSEBUD SIOUX TRIBE A-128
06-88-339-03-355       ETA        DINAP     27-SEP-88       OK TONKAWA TRIBE A-128

06-88-300-03-360       ETA        DOWP      08-JUN-88       NM AGENCY ON AGING A-128
06-88-320.-03-360      ETA        DOWP      20-JUN-88       AR AGING/ADULT   SVCS A-128
06-88-321-03-360       ETA        DOWP      20-JUN-88       AR AGING/ADULT   SVCS A-128
06-88-340-03-360       ETA        DOWP      27-SEP-88       TX DEPT OF AGING A-128

06-88-042-03-365"      ETA        DSFP      06-APR-88      WY NORTHWESTERN    CAPS A-128
06-88-043-03-365*      ETA        DSFP      ll-APR-88      ARKANSAS HUMAN DEV CORP A-128
06-88-054-03-365"      ETA        DSFP      26-APR-88      TIERRA DEL SOL HOUSING A-128
06-88-055-03-365"      ETA        DSFP      27-APR-88      TIERRA DEL SOL HOUSING   A-128
06-88-093-03-365"      ETA        DSFP      20-MAY-88      OK ORO DEVELOPMENT    CORP A-128
06-884)94-03-365*      ETA        DSFP      23-MAY-88      ARKANSAS HUMAN DEV CORP A-128
06-88-098-03-365*      ETA        DSFP      15-JUN-88      CO ROCKY MTN SER/JOBS   A-128
06-88-104-03-365"      ETA        DSFP      25-JUL-88      LA MET, INC A-128
06-88-105-03-365"      ETA        DSFP      27-JUL-88      TX MET, INC A-128

(16-88-076-04-431      ESA        FECA      05-MAY-88       NM EMPL SEC DEPT A-128

06-88-087-(16-601      MSHA       GRTEES    13-MAY-88      LA STATE DOL A-128
06-88-107-06-601       MSHA       GRTEES    28-JUL-88      AR DOL A-128
06-88-117-126-601      MSHA       G RTEES   13-SEP-88      UTAH A-128




                                            90
                            FINAL AUDIT REPORTS             ISSUED
                              APRIL 1-SEPTEMBER            30, 1988
                                            DATE    SENT
    AUDIT                                   TO   PROGRAM

REPORT       NUMBER   AGENCY      PROGRAM   AGENCY         NAME       OF AUDIT/AUDITEE

06,-88-269426-601     MSHA        GRTEES    10-MAY-88      NM ENERGY/MINERALS   DEPT A-128
06-88-3114)6-601      MSHA        GRTEES    13-JUN-88      ND STATE BD/VOC ED A-128

06-88-322-06-601      MSHA        GRTEES    21-JUN-88      SD DEPT OF HEALTH            A-128
06-88-336-06-601      MSHA        GRTEES    20-SEP-88      ND STATE     BD/VOC      El) A-128

06-88-8044)7-735      OASAM       OPGM      05-AUG-88      NM EMPL SEC DEPT A-128

06-88-089-10-101      OSHA        OSHAG     13-MAY-88      LA STATE DOL A-128
06-88-106-10-101"     OSHA        OSHAG     28-JUL-88      AR DOL A-128
06-88-112-10-101      OSHA        OSHAG     14-SEP-88      NIT ROCKY MTN/AFL-CIO            A-128
06-88-116-10-101      OSHA        OSHAG     13-SEP-88      UTAH A-128

06-88-046-11-111      BLS         BLSG      19-APR-88      AR   EMPL SEC DIV A-12,8
06-88-064-11-111      BLS         BLSG      02-MAY-88      ND   JOB SERVICE A-128
06-88-078-11-111      BLS         BLSG      05-MAY-88      NM    STATE EMPL SEC A-128
06-88-088-11-111      BLS         BLSG      13-MAY-88      LA   STATE DOL A-128
06-88-101-11-111"     BLS         BLSG      13-JUL-88      AR   WORKERS' COMP COMM A-128
06-88-108-11-111"     BLS         BLSG      29-JUL-88      WY DOL/STATS         A-128

06-88-092-98-599*     OT AGY      NO/DOL    18-MAY-88      ND GOVERNOR'S   OFFICE A-128
06-88-099-98-599*     OT AGY      NO/DOL    25-JUL-88      HOUSTON-GALVESTON     CNCL A-128
06-88-100-98-599"     OT AGY      NO/DOL    26-JUL-88      HOUSTON-GALVESTON     CNCL A-128

09-88-596-014)10      OSEC        ASP       19-APR-88      PACIFIC    ISLANDS    TR TERR A-128

09-88-571-02-210      VETS        VETSPM    01-APR-88      WASHINGTON   EMPL SEC DEFT A-128
09-88-612-02-210      VETS        VETSPM    26-MAY-88      NEVADA A-128
09-88-622-02-210      VEI'S       VETSPM    29-JUN-88      CALIFORNIA FY 87 A-128
09-88-654-02-210      VETS        VETSPM    15-SEP-88      ANCHORAGE,   AL A-128
09-88-661-02-210      VETS        VETSPM    12-SEP-88      WASHINGTON   A-128

09-88-663-03-320      ETA         USES      13-SEP-88      AMERICAN      SAMOA      A-128

09-88-5694)3-325      ETA         SESA      01-APR-88      WASHINGTON   EMPL SEC DEPT A-128
09-88-609-03-325      ETA         SESA      26-MAY-88      NEVADA A-128
09-88-656--03-325*    ETA         SESA      12-SEP-88      COOP PERSONNEL   SVCS A-128

09-88-548-03-340      ETA         JTPA      27-SEP-88      JTPA-SDA    PROCUREMENT              PRACTICES
09-88-590-03-340"     ETA         .1TPA     13-APR-88      ALASKA     COMM/REGNL    AFFAIRS A-128
09-88-595-03-340      ETA         JTPA      19-APR-88      PACIFIC    ISLANDS TR TERR A-128

09-88-619-03-340      ETA         JTPA      23-SEP-88      CALIFORNIA  FY 87 A-128
09-88-6384)3-340      ETA         .rrPA     13-JUL-88      JTPA COST LIMITATIONS
09-88-658-03-340      ETA         JTPA      12-SEP-88      WASHINGTON   A-128

09-88-5094)3-355      ETA         INAP      02-MAY-88      W WASHINGTON    INDIAN E&T PROGRAM
09-88-5244)3-355      ETA         DINAP     24-MAY-88      KAWERAK INC A-128
09-88-5444)3-355*     ETA         DINAP     21-APR-88      INDIAN CENTER OF SAN JOSE A-128
09-88-5494)3-355"     ETA         DINAP     21-APR-88      MANIILAG MANPOWER     INC A-128
09-88-5664)3-355"     ErA         DINAP     ll-APR-88      PHOENIX INDIAN CENTER INC A-128
09-88-5824)3-355      ETA         DINAP     01-APR-88      WHITE MOUNTAIN APACHES A-128
09-88-583-03-355      ETA         DINAP     01-APR-88      COLVILLE CONFED TRIBES A-128
09-88-5844)3-355      ETA         DINAP     01-APR-88      COLVILLE CONFED TRIBES A-128
09-88-5884)3-355      ErA         DINAP     01-APR-88      METLAKATLA   INDIAN COMM A-128
09-88-5894)3-355      ETA         DINAP     14-APR-88      METLAKATLA   INDIAN COMM A-128
09-88-5914)3-355      ETA         DINAP     14-APR-88      SILETZ CONFED TRIBES A-128
09--88-5974)3-355"    ETA         DINAP     21-APR-88      MAUNELUK   MANPOWER     INC A-128




                                            91
                             FINAL AUDIT RE]?ORTS ]ISSUED
                              AFI?JL ]1-SEIPTEMBER 30, ]1988
                                               DATE        SENT
     AUDKT                                     TO PROGRAM

REPORT        NUMBER   AGENCY      PROGRAM     AGENCY             NAME     OF   AUDIT/AUDITEE

09-88-599-03-355       ETA         DINAP       26-AUG.-88         TANANA    CHIEFS   CONFERENCE          A-128
09-88-601-03-355       ETA         DINAP       04-MAY-88          AK TLINGIT/HAIDA   TRIBES A-128
09-88-603-03-355       ETA         DINAP       ll-MAY-88          PASCUA YAQUI TRIBE A-128
09-88-605-03-355       ETA         DINAP       25-MAY-88          KAWERAK INC A-128
09-88-606-03-355       ETA         DINAP       30-SEP-88          CHE-HO-QUI-SHO   CNSRT A-128
09-88-613-03-355"      ETA         DINAP       15-SEP-88          AM INDIAN COMM CFR ASSN A-128
09-88-614-03-355       ETA         DINAP       01-JUL-88          ALEUTIAN/PRIBILOFF ASSN A-128
09-88-615-03-355       ETA         DINAP       15-SEP-88          PASCUA YAQUI TRIBE A-128
09-88-617-03-355"      ETA         DINAP       12-SEP-88          BRISTOL BAY NATIVE ASSN A-128
09-88-623-03-355       ETA         DINAP       10-AUG-88          AZ TOHONO O'ODHAM/PAPAGO          A-128
09-88-624-03-355*      ETA         DINAP       13-SEP-88          UNTD INDIAN NATIONS CNSRT A-128
09-88-627.-03-355*     ETA         DINAP       16-SEP-88          W WASHINGTON     INDIAN E&T A-128
09-88-633-03-355*      ETA         DINAP       27-JUN-88          N CA INDIAN DEV CNCL INC A-128
09-88-634-03-355       ETA         DINAP       14-SEP-88          THE NORTH PACIFIC RIM A-128
09-88-635-03-355       ETA         DINAP       16-SEP-88          TANANA CHIEFS CONFERENCE       A-128
09-88-637-03-355       ETA         DINAP       15-SEP-88          SANTA CRUZ HOUSING     AUTH A-128
09-88-639-03-355       ETA         DINAP       16-SEP-88          CONFED TRIBES UMATILLA     A-128
09-88-650-03-355       ETA         DINAP       15-SEP-88          TOHONO O'ODHAM      NATION A-128
09-88-652-03-355       ETA         DINAP       13-SEP-88          WASHINGTON    SR COMM SVC A-128
09-88-653-03-355       ETA         DINAP       03-SEP-88          KENAITZE INDIAN TRIBE A-128
09-88-655-03-355       ETA         DINAP       13-SEP-88          AK SR CITIZENS EMPI, A-128
09.-88-665-03-355      ETA         DINAP       15-SEP-88          HOPI TRIBE A-128

09-87-543-03-365*      ETA         DSFP        28-APR-88          CTR FOR EMPL & TRNG A-128
09-87-598-03-365*      ETA         DSFP        10-MAY-88          CTR FOR EMPL & TRNG A-128
09-88-585-03-365*      ETA         DSFP        01-APR-88          ASSN/HISPANIC     ELDERLY     A-128
09-88-600-03-365       ETA         DSFP        04-MAY-88          KERN COUNTY      A-128
09-88-.604-03-365"     ETA         DSFP        27-MAY-88          PORT PRACTICAL ED/PREP A-128
09-88-607-03-365       ETA         DSFP        24-MAY-88          COMM HOUSING IMPROVEMT    A-128
09-88-625-03-365*      ETA         DSFP        16-JUN-88          IDAHO MIGRANT COUNCIL A-128
09-88-626-03-365       ETA         DSFP        10-AUG-88          RURAL COMM ASSISTANCE A-128
09-88-628-03-365*      ETA         DSFP        13-SEP-88          RURAL/FARMWORKER            HOUSING A-128
09-88-629-03-365*      ETA         DSFP        13-SEP-88          RURAL/FARMWORKER            HOUSING A-128
09-88-630-03-365"      ETA         DSFP        26-AUG-88          RURAL/FARMWORKER            HOUSING A-128
09-88-632-03-365       ETA         DSFP        13-SEP-88          SANTA CRUZ HOUSING          ALrFI-I A-128

09.-88-602-03-370      ETA         OJC         ll-MAY-88          UNIVERSITY    OF NEVADA       A-128


09-88-572-06-601"      MSHA        GRTEES      14-APR-88          IDAHO DOL/INDUSTR       SVCS A-128
09-88-611-06.601       MSHA        G RTEF_,S   26-MAY-88          NEVADA   A-128
09-88-621--06-601      MSHA        GRTEES      29-JUN-88          CALIFORNIA    A-128
09-88-660-126--601     MSHA        GRTEES      12-SEP-88          WASHINGTON     A-128

09-87--005-07.-001     OASAM       ADMIN       26-SEP-88          CARE   DPMS TFRA
09-88-009-07-001       OASAM       ADMIN       27-SEP-88          CARE   PERMIS TFRA

09-884K)8-07-730       OASAM       DAPP        01-APR-88          REGION   IX IMPRE,S_   FUND


09-88-593-10-001       OSHA        ADMIN       30-SEP-88          WASHINGTON      DOL/INDUS      A-128

09-88-610-10-101       OSHA        OSHAG       26-MAY-88          NEVADA A-128
09-88-620-10-101       OSHA        OSHAG       23-SEP-88          CALIFORNIA   FY 87 A-128
09-88--659-10-101      OSHA        OSHAG       12-SEP-88          WASHINGTON    A-128
09-88-664-10-101       OSHA        OSHAG       13-SEP-88          AMERICAN   SAMOA A-128

09-88-570-11-111       BLS         BLSG        01-APR-88          WASHINGTON   EMPL SEC DEPT A-128
09-.88-608-11-111      BLS         BLSG        26-MAY-88          NEVADA A-128
09-88-618-11-111       BLS         BLSG        23-SEP-88          CALIFORNIA FY 87 A-128




                                               92
                                         FINAL AUDIT REPORTS ISSUED
                                          APRIL 1-SEPTEMBER 30, 1988
                                                                      DATE      SENT
    AUDIT                                                             TO    PROGRAM

REPORT       NUMBER                AGENCY            PROGRAM          AGENCY            NAME      OF AUDIT/AUDITEE

09-88-657o11-111                   BLS               BLSG             12-SEP-88         WASHINGTON         A-128


09-88-502-98-599*                  OT AGY            NO/DOL           24-JUN-88         LOS ANGELES        FY 1986 A-128

09-88-573-98-599*                  OT AGY            NO/DOL           13-APR-88         SANTA CRUZ       COUNTY        AZ A-128

12-88-007-014201                   OSEC              ADMIN            19-APR-88         FY 1986 DOL ANNUAL            REPORT

12-88-0104)3-001                   ETA               ADMIN            30-SEP-88         FY 86 ETA MANAGEMENT              ADVISORY

12-87-0204)44)01                   ESA               ADMIN            12-SEP-88         FY 86 ESA FINANCIAL          STATEMENTS

12-87-022-07-001                   OASAM             ADMIN            30-SEP-88         FY 86 DOL CONSOL            FIN STMTS


12-88-019-98-599                   OT AGY            NO/DOL           30-SEP-88         DOL DAY CARE CENTER

13-87-003-03-370                   ETA               OJC              10-JUN-88         OP PLASTERERS/CEMENT               MASONS

13-87-002-03-380                   ETA               SPPD             09-JUN-88         HUMAN     RESOURCES          DEV INSTrI'UTION

13-87-005-07-735                   OASAM             OPGM             16-MAY-88         IL COMMERCE        & COMMUNITY            AFFAIRS

17-87-056422-001                   VETS              ADMIN            11-JUL-88         CALIFORNIA DVOP FUND
17-87-057-02-001                   _                 ADMIN            06-APR-88         WASHINGTON  DVOP FUND

17-88-003-02-210                   VETS              VETSPM           14-SEP-88         MARYLAND        DVOP FUND
17-88-009-02-210                   VETS              VETSPM           09-AUG-88         MINNESOTA       DVOP FUND
17-88-014-02-210                   VETS              VETSPM           26-AUG-88         MINNESOTA       DVOP FUND FY 87

18-88-004-03-340                   ETA               JTPA             28-SEP-88         PICO UNION      NBRHD        CNCL INC

18-88-002-03-355                   ETA               DINAP            05-MAY-88         NATL INDIAN       BUSINESS COUNCIL
18-88-037-03-355                   ETA               DINAP             08-JUI.,-88      NATL URBAN        INDIAN COUNCIL

18-88-009-03-370                   ETA              OJC               28-SEP-88         JOLIET JOB CORPS CENTER
18-88-010-03-370                   ETA              OJC               30-SEP-88         ENROLLEES   ALLOWANCE    SYSTEM
18.-88-017-03-370                  ErA              OJC               16-AUG-88         CORPSMEMBERS'    LEARNING   GAINS
18-88-018--03-370                  ETA              OJC               30-SEP-88         ATFERBURY   JOB CORPS CENTER
18-88-032-03-370                   ETA              OJC               30-SEP-88         CORPS MEMBERS STATUS CHANGES
18-884)3603-370                    ETA              OJC                25-APR- 88       SOUTH BRONX JOB CORPS CENTER

18-88-001-03-380                   E-_I'A            SPPD              14-SEP- 88       HUDSON      1NS'ITIZI'I_,    1NC F&C

19-874249-07-720                   0ASAM             DIRM              29-SEP-88        AUTOMATED         PURCHASE/PMT            SYSTEM

19-88-003-12-001                   PWBA              ADMIN             23-SEP-88        SYSTEM     DEVELOPMENT           MONITORING




* DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed above indicate those entities for which DOL
has cognizance. More than one audit report may have been issued or transmitted based on the type of funding and the agency/program
responsible for resolution. For example, DOL has cognizancy for Maine DOL. Most of the funds audited were SESA funds, thus the "lead"
report is asterisked and is the one used to count the total number of entities audited during the period. However, reports were also issued
on JTPA, CETA, MSHA, OSHA, and BLS funds and transmitted for determination and resolution.                 Thus, one entity was audited but six
reports were issued to various program on their funds.




                                                                      93
ABBREVIATIONS                                    USED IN THIS REPORT

 The   OIG     offices     are:


       IG                Inspector General
       02                New York
       03                Philadelphia
       04                Atlanta
       05                Chicago
       06                Dallas
       09                San Francisco
       12                Office of Financial Management       Audits
       17                Office of Performance Audits
       18                Office of Program Fraud Audits
       19                Office of Information Resource Management         Audits
       OA                Office of Audit
       OI                Office of Investigations
       OLR               Office of Labor Racketeering
       ORMLA             Office of Resource Management        and Legislative Assessment


 The   Agencies      are:

       BLS               Bureau of Labor Statistics
       ESA               Employment     Standards Administration
       ETA               Employment     and Training Administration
       MSHA              Mine Safety and Health Administration
       OASAM             Office of the Assistant Secretary for Administration       and Management
       OIG               Office of Inspector General
       OLMS              Office of Labor-Management      Standards
       OSEC              Office of the Secretary
       OSHA              Occupational   Safety and Health Administration
       PWBA              Pension and Welfare Benefits Administration
       SOL               Office of the Solicitor
       VETS              Veterans   Employment   and Training Service

       DOD               Department    of Defense
       DOL               Department    of Labor
       EPA               Environmental    Protection Agency
       FBI               Federal Bureau of Investigations
       GAO               General Accounting Office
       IRS               Internal Revenue Service
       OMB               Office of Management    and Budget


 The   types   of programs          are:

       ADMIN             Agency administration
       ADP               Automatic Data Processing
       BAT               Bureau of Apprenticeship   and Training
       BL                Black Lung
       BLDTF             Black Lung Disability Trust Fund
       BLSG              Bureau of Labor Statistics Grantees
       CCCA              Comprehensive     Crime Control Act
       CE_I'A            Comprehensive     Employment and Training Act
       CMSH              Coal Mine Safety and Health
       COMP              Comptroller
       DCMWC             Division of Coal Mine Workers' Compensation
       DFEC              Division of Federal Employees' Compensation
       DINAP             Division of Indian and Native American Programs
       DIRM              Directorate  of Information  Resources Management
       DLHWC             Division of Longshore and Harbor Workers' Compensation
       DPGM              Directorate  of Procurement and Grant Management
       DSFP              Division of Seasonal Farmworker Programs
       DOWP              Division of Older Worker Programs
       ERISA             Employee Retirement Income Security Act
       FECA              Federal Employees' Compensation Act



                                                      94
     FLSA        Fair Labor Standards Act
     GRTEES      Grantees
     ILA         International Longshoremen's Association
     IRM         Information Resources Management
     JTPA        Job Training Partnership Act
     LMRDA       Labor Management Reporting and Disclosure Act
     LSHWCA      Longshore and Harbor Workers' Compensation Act
     OJC         Office of Job Corps
     OPS         Office of Procurement Services
     OSPPD       Office of Strategic Planning and Policy Development
     OT AGY      Agency other than DOL
     OWCP        Office of Workers' Compensation     Programs
     PCIE        President's Council on Integrity and Efficiency
     PWBP        Pension and Welfare Benefits Program
     RICO        Racketeer Influenced and Corrupt Organizations    Statute
     SESA        State Employment Security Agency
     TRA         Trade Readjustment Allowances
     UIS         Unemployment      Insurance Service
     USES        United States Employment Service
     WH          Wage Hour Division

Miscellaneous:

     AICPA       American    Institute   of Certified    Public Accountants
     CARE        Controls    and Risk Evaluation        (GAO Audit Methodology)
     CPA         Certified   Public Accountant
     DTR         Diversified Transportation Resources
     FMFIA       Federal Managers' Financial Integrity Act
     GAAP        Generally Accepted Accounting Principles
     GMA         Gary Manpower Administration
     HERE        Hotel Employees and Restaurant Employees
     IBT         International Brotherhood  of Teamsters
     IPA         Independent Public Accountant
     PFCRA       Program Fraud Civil Remedies Act (of 1986)
     SCAT        Smart Card Applications and Technologies
     SDA         Service Delivery Area (under JTPA)
                 United Terminals, Inc.




                                                   95
          FACTSHEETS            AND AWARENESS BULLETINS

The following factsheets are part of a series designed to provide information and guidance to
DOL employees and members of the general public. Samples are provided on pages 97-102.

Factsheet No.                      Title

OIG 88-1 (rev.)                    Office of Inspector General

OIG 88-2 (rev.)                    Reporting Fraud, Waste, and Abuse

OIG 88-3 (rev.)                    Ethics and Integrity in the Workplace


During this reporting period, the OIG published two awareness bulletins. The awareness
bulletin series is designed to inform DOL personnel of OIG functions within the Department
and employees' ethical responsibilities. Samples are provided on pages 103-106.

Awareness Bulletin No.             Title

AB 88-1                            The Audit

AB 88-2                            The Program Fraud Civil Remedies Act


Copies of these documents may be obtained by writing to:

                                   U.S. Department of Labor
                                   Office of Inspector Genral
                                   200 Constitution Ave., N.W., Room S-5506
                                   Washington, D.C. 20210




                                             96
 U.S. Dep ment of Labor
 Program Highlights
 FactSheetNo. OIG 88-I       (rev.)



                   OFFICE             OF INSPECTOR               GENERAL

   In order to increase economy           and efficiency within the Federal Government,
   while improving accountability         for the vast amounts of funds assigned to various
   agencies, the Inspector General        Act of 1978 and its amendments have established
   an Office of Inspector General          (OIG) in the Department of Labor as well as in
   most other major departments            and agencies.


   Under the Act, each OIG is charged with            annual report to the Congress highlighting
   preventing fraud, waste, and abuse as well as      problems, and a requirement that the agency
   promoting economy, efficiency, and effec-          head report to the Congress within seven days
   tiveness in Federal programs and operations,       anyparticularly serious problem or deficiency
   This broad and complex mandate not only            identified by the Inspector General.
   expanded the scope of traditional audit and
   investigative work, but added a critical new       Within the Department of Labor, the OIG's
   dimension-- that of preventing fraud, waste,       specific functions are to:
   and abuse. This expansion of responsibility
   gave the Inspectors General additional au-           --    Conduct and supervise audits and
   thority to investigate and gain access to infor-   investigations relating to DOL programs and
   mation,                                            operations;

   In addition, the Labor Department has the            --    Investigate areas vulnerable to labor
   only Federal OIG engaged in a cooperative          racketeering, such as employee benefit funds,
   effort with the U.S. Department of Justice to      labor-management      relations, and internal
   control the influence of organized crime in        union affairs;
   labor-management     relations.
                                                             Recommend policies to prevent and
   Because of the OIG's unique role, the Act          detect fraud, waste, and abuse and increase
   ensures independence in conducting activi-         economy, efficiency, and effectiveness in
   ties through selection and appointment of          Department programs and operation; and
   Inspectors General directly by the President,
   a direct reporting channel to the individual         m    Keep the Secretary of Labor and the
   Secretary or agency head, freedom from inter-      Congress informed about programs and cor-
   ference in the conduct of all audits or investi-   rective actions needed in administering
   gations or issuance of subpoenas, a semi-          Department operations.




Thisisoneofaseriesoffactsheetshighlighting
                                        U.S.Delbartment
                                                     ofLaborprograms.
                                                                   Itisintended
                                                                              asageneraldescription
                                                                                                  only
anddoesnotcarrytheforceoflegalopinion.          97
The OIG's major        programs     include:              payments from management to labor offi-
                                                          cials, and extortion. Investigations establish-
OFFICE OF AUDIT                                           hagevidence of labor racketeering are prose-
                                                          cuted by the U.S. Attorney's Office or the
The OIG Office of Audit is responsible for                U.S. Department       of Justice Strike Force.
reviewing the fiscal and programmatic integ-
rity and efficiency of Department activities.             OFFICE OF RESOURCE MANAGEMENT
Audits are performed to evaluate compli-                  AND LEGISLATIVE ASSESSMENT
ance with applicable laws and regulations, to
review use of resources for economy and                   This office provides support and direction to
efficiency, and to determine whether desired              the OIG through various program and policy
program results are effectively achieved,                 functions. Examples include policydevelop-
Audits are planned on the high priority areas             ment and program analysis; legislative and
that affect Department programs and activi-               regulatory analysis; congressional reporting;
ties.                                                     training, communication, and awareness pro-
                                                          grams; liaison with the President's Council on
OFFICE OF INVESTIGATIONS                                  Integrity and Efficiency and other organiza-
                                                          tions; information resources for the OIG
Investigatiom are usually conducted as a result           through ADP functions; and budget, admin-
of allegations or suspicions of criminal activ-           istrative, and personnel management.
ity or misconduct. Once investigated, cases
are presented to the U.S. Attorney or local               Reporting    fraud,     waste,   and abuse
law enforcement agencies for possible prose-
cution. Examples of possible cases include                An OIG Hotline has been established for
employee misconduct, fraud schemes involv-                employees and the public to report suspected
ing Department programs, and improper use                 fraud, waste, and abuse. In Washington,
of Government funds. In addition, this office             D.C., the phone number is 357-0227. Else-
may pursue specific investigative projects to             where, the toll-free number is 800-424-5409.
deter improper activities. Matters may also
be referred to the program        agencies     for        Regional Offices are maintained in New York,
administrative action.                                    Philadelphia, Atlanta, Chicago, Dallas, San
                                                          Francisco, and Washington.
OFFICE OF LABOR RACKETEERING
                                                          For further information contact:
Formed in response to concern    over the growth
of labor racketeering by organized crime, this                   Office of Inspector General
office conducts investigations into three gen-                   U.S. Department of Labor
eral areas: employee benefit plans, labor-                       Room S-1303
management relations, and internal union                         200 Constitution Ave., N.W.
affairs. Activities of interest include embez-                   Washington, D.C. 20210
zlement of union or employee benefit funds,
kickbacks to benefit plan officials, illegal                     (202) 523-9909




                                                     98
 U.S. Department of Labor
 Program Highlights
 FactSheetNo OIG 88-2 (rev.)


             REPORTING               FRAUD, WASTE, AND ABUSE

   If you had information about a wrongdoing or crime involving the Department
   of Labor, would you know where to report it? Many people are unsure or
   uncomfortable about reporting fraud, waste, or abuse. Yet, depending upon the
   circumstances, several options may be available.

   One of the simplest and most direct approaches    Some specific examples of wrongdoing which
   employees can take is notifying their supervi-    should be reported to the Hotline include:
   sors of any information they reasonably be-
   lieve indicates wrongdoing. In many cases           --    Submission of false claims or fraudu-
   Form DL-156, the Incident Report, can be          lent statements byemployees, contractors, or
   used to report allegations of wrongdoing as       grantees of the Department of Labor;
   well.
                                                               Conspiracy    to defraud   the United
   Department of Labor employees and mem-            States;
   bers of the general public can also make use
   of the Hotline, operated by the Office of          _        Conflicts of interest;
   Inspector General (OIG), to report fraud,
   waste, or abuse in programs or operations,          m     Concealment, removal, falsification,
   Situations in which the Hotline should be         forgery, or alteration of official documents;
   considered include any activity which consti-
   tutes a serious violation of Federal law, gross    _     Misappropriation       or embezzlement of
   mismanagement or waste of funds, abuse of         Federal funds; and
   authority, or a substantial and specific danger
   to public health and safety.                        --      Other serious violations   or miscon-
                                                     duct.
   Wrongdoing also pertains to improper con-
   duct and activities which relate to or have an    Calls are not recorded, and no attempts are
   impact on the official positions of Depart-       made to track down anonymous callers.
   ment officers and employees, as well as per-      However, ira caller wishes to remain anony-
   sons involved in business with the Depart-        mous, that decision may limit the scope of an
   merit of Labor, such as grantees, contractors,    investigation, especially if information given
   and other groups,                                 by the caller is insufficient and the investiga-
                                                     tors have no way of following-up the allega-
                                                     t.ion.




ThisisoneofaseriesoffactsheetshighlightingU.S.Department
                                                       ofLaborprograms:Itisintendedasageneraldescriptiononly
anddoesnotcarrytheforceoflegalopinion.          99
The identity of an individual who makes a                   Special Counsel of the Merit SystemsProtec-
complaint or providesinformation to the Labor               tion Board (MSPB) to review the allegations.
Department's Hotline generally will not be                  A special hotline is operated by MSPB for
disclosed unless the Inspector General deter-               reporting prohibited personnel practices such
mines such disclosure is unavoidable during                 as reprisals, as well as for Hatch Act viola-
the course of an investigation,                             tions.

The Inspector General Act of 1978 protects                  The General Accounting Office (GAO) also
employees against reprisals for making corn-                maintains a hotline that both Federal era-
plaints or disclosing information to the In-                ployees and the general public may use to
spector General, unless the complaint was                   report wrongdoing within the Government.
made with the knowledge that it was false.                  Calls made to that hotline are usually re-
Employees who believe that they have been                   ferred to the appropriate Inspector General
threatened or harmed in any way from mak-                   for the Government agency involved.
ing complaints may request the Office of




      Telephone        numbers        for the hotlines are:

      U.$. Department of Labor Hotline ............................                  (202) 357-0227
       Toll-Free Number ..........................................................     800-424-5409

      MSPB Prohibited Personnel Practices Unit .........                             (202) 653-7188
       Toll-Free Number ..........................................................     800-872-9855
            Whistleblowlng Unit ............................................         (202) 653-9125
            Hatch Act Violations Unit ..................................             (202) 653°71143

      GAO Hotline ................................................................   (202) 272-5557
       Toll-Free Number ..........................................................     800.424°5454




                                                            100
  U.S. Department of Labor
  Program Highlights
 Fact SheetNo.    OIG 88-3 (rev.)


           ETHICS AND INTEGRITY IN THE WORKPLACE

       Can the Government            decide whether       or not you are allowed         to moonlight?

       Can you make an official decision that will affect the value of your stocks?

       Can you use office equipment             for personal     business matters.'?

       Can you accept free lunches from Government                     contractors?


   These questions are among many considera-              CONFLICT OF INTEREST
   tions which arise under the broad topic of
   ethics and integrityin the workplace. A wide           Employees are not permitted to have direct
   variety of laws, rules, and regulations apply,         or indirect financial interests that conflict
   Some requirements are Government-wide.                 substantially or appear to conflict substan-
   Others are specific to the LaborDepartment.            tially with their official duties and responsi-
                                                          bilities. Certain employees must also report
   And still others reflect the particular con-
   cernsof the individualagency. For answersto            their financialholdingsto determine whether
   the questions listed above, as well as many            their interests conflict or appear to conflict
   others, the following is a brief summary of           with their Government duties. There is also
   rules which are generally applicable through-         a specific prohibition against acting as an
   out the Labor Department.                             attorney, agent or representative of another
                                                         person in matters of interest to the United
   OUTSIDE EMPLOYMENT                                    States Government or the Government of the
                                                         District of Columbia. This prohibition ap-
  Federal employees should not hold outside              plies to representation before all courts and
  Jobs or engage in other business or profes-            all Federal agencies, not just the one for
  sional activities which result in a conflict of        which the individual works.
  interest or an appearance of a conflict with
  theirofficialGovernmentresponsibilities. Nor            MISUSE OF OR TAKING FEDERAL
  should Federal employees hold outside jobs              PROPERTY
  which impair their ability to perform their
  duties acceptably. Labor Department era-               Employees are expected to use Government
  ployees considering outside jobs or related            property only for officially approved activi-
  business or professional activities which raise        ties and to protect all property, equipment,
                                                         or supplies entrusted to them. This require-
  a substantial question of conflict or appear-
  ance of conflict must obtain prior written             ment applies to such areas as the mailing
  permission from the authorized supervisory             frank, the telephone, office machines, and
                                                         office supplies.
  level within the agency.

This is one of a seriesof factsheetshighlightingU.S.Departmentof Laborprograms:Itis intendedas a general descriptiononly
anddoes notcarrythe force of legalopinion.            101
GIFTS, G]tL&TUITIES, REIMBURSE-                      REPORTING FRAUD, WASTE, ABUSE, OR
MENTS, AND ENTERTAINMENT                             MISMANAGEMENT

Employees are generally prohibited from ac-          Employees have both a fight and a responsi-
eepting items offered by those who could be          bility to report wrongdoing. Such reports may
affected by agency actions or those appearing        be made to the supervisor or to the Depart-
to provide a reward for individual actions. A        ment's Hotline, operated by the Office of
number of specific rules and requirements            Inspector General. In many cases, Form DL-
apply: for example, a separate criminal stat-        156, the Incident Report, can be used for
ute prohibits employees from receiving sal-          reporting allegations.     Other Government
ary or anything else of monetary value from a        hotlines also exist for specified purposes. It is
private source as compensation for services          illegal for any supervisor or official to take
to the Government.         Federal employees         reprisal against any employee for reporting
generally should not accept payments for             allegations of wrongdoing.
honorariums from private sources in matters
related to official business. Moreover, con-         ADVICE AND ASSIST_CE
tributions and gifts to supervisors or superi-
ors are prohibited undermost circumstances,          Information presented here is only a sum-
except for those of nominal value given for          mary and should not be used alone for mak-
special occasions, such as retirement. In.for-       ing decisions about serious matters.     Any
marion regarding these rules can be found in         employee wishing additional information or
the Department's ethics and conduct regula-          assistance should seek advice from his or her
tions,                                               own supervisor or another, appropriate office
                                                     listed below.
TXME AND ATTENDANCE
                                                     OFFICES TO CONTACT
Some serious time and attendance abuses
are violations of" Federal statutes and can          Omce ofthe Solicitorm_                                     _23-7675
result in fines or even imprisonment. Failure         AssociateSolicitorfor Legislation
of an employee to comply with time and at-             andLegal Counsel ........ ::                             $23-8201
tendance requirements can result in a num-            Counsel for Special Legal Services _.                     $23-8088
ber of disciplinary actions ranging from ad-
ministrative reprimand to dismissal. Em-             Omce of lnspector General ...........        : .........   $23-9909
ployees should know what rules and proce-              DOLHotline ....:...............                          357-0227
dures apply.                                                    Hofline ........... -.............. ::::: _)0-424-$409
                                                        Toll-Fr¢_

"g_._VEL                                             Department Office of Personnel ::                          _23-9191
                                                     Office of Government Ethics                                632-2792
There are detailed rules and procedures re*
_ating to travel that may lead to serious con-       GeneralAccounting OfficeHotHne_                            272-$$S7
sequences for those who try to use the system
for fraudulent claims, Employees should be-          Merit Systems ProtectionBoard _                            (_3-7188
come thoroughly familiar with all applicable         ofnce of'GovernmentEthic_                                  632-2792
rules and requirements.



                                               102
U.S. Department of Labor
OIG Awareness Bulletin
Bulletin No. AB    88-i

                                                       THE    AUDIT



      This   bulletin    describes     what an   Office                        of  Inspector     General
  (OIG)  audit   means   to you    as a D0L  employee                         or manager     and how    it
  can improve    program   operations.

       An    auditor      visits     the   various      programs      and    agencies     of  the
  Department        to   review     program      operating       procedures       and   to   help
  agencies      improve     economy     and   efficiency.         Although     there  are many
  kinds     of    audits,     in   general,      an    audit     is   a   look    at  the    past
  performance        of a program        to determine        whether     funds    and  property
  were    properly      handled    and whether       government       programs     or projects
  have    met    or have     fallen     short    of aims      and expectations.          Various
  types     of    audits     may    include     financial       and     compliance     reviews,
  reviews       of     the     economy      and     efficiency        of    operations,       and
  assessments       of program      results.

       The purpose    of an audit        is not    to rehash      past   mistakes    but   to
  look     at   past     events     with     a    view     toward      improving     future
  performance.       Findings     from    an audit     can be used        as a basis     for
  adjusting    policies,     priorities,      structure     or procedures      in order    to
  make   operations    as efficient,       economical     and effective       as possible.

       OIG's   audit     priorities     are                   established     based     on a number      of
  criteria    and    are    described     in                   its  annual   plans.       In   the   audit
  planning    process,       DOL   programs                     or  activities      are   considered     in
  light   of:

         (I) their   susceptibility     to                   fraud,  abuse,   embezzlement,             program
        manipulation     or other   types                    of irregularities;

         (2)      their     newness      or    changed        conditions;

        (3) the           sensitivity          of     the    organization,         program,      activity        or
        function;

         (4) the      dollar         magnitude,         resources       involved      or   duration       of   the
        program;       and

         (5) the           results     of     other     evaluations,         inspections,         audits       and
        program           reviews.

       Key questions     which    may be asked   include:      Are employees    being
  used    in a way     that    leads  to maximum    potential?      Is money    being
  managed   well?    Are objectives     met and expected     results   achieved?

                                                            (more)


This is one of a series of bulletins highlighling U.S Department of Labor OIG areas ol concern   It _sintended as a general
description only and does not carry the force of legal opinion.
                                                              ]03
The audit     entrance       conference     begins    an OIG audit       and is held        prior
to    the    start      of    field     work°      The     purpose      is    to    provide       a
description       of     the    audit's     scope    and     objectives°          Other     areas
covered     include     the timeframes        for completing        the    audit,     access    to
required       records        and     information,         space     accommodations            and
introduction         of     the    audit      team     members°        Identification           of
potential      areas     which   may    warrant      special    review     are     also    discussed
at this     time°

Audit    field    work    consists      of reviewlng,       documenting       and  analyzing
relevant     data°      The    Inspector      General    Act    of 1978     authorizes      the
OIG   to    have     access     to    all    records,     reports,       audits,     reviews,
documents,          papers,         recommendations           or      other       materials°
Accordingly,        DOL    managers      are    to   ensure     that    employees      at   all
levels    cooperate      with   the OIG by making         available      all documents      and
information      deemed     necessary     for the adequate         conduct    of the audit°

An exit     conference      is held    with    program     officials    when    field   work
is completed       at each    level°      The   purpose     of the exit     conference     is
to   communicate       audit    results     to   the    affected     program     or   agency
before    issuance     of the audit      report°

The    audit      report,     given      after     completion         of   the   audit,      is    the
primary     document      used    by the OIG       to officially         present     the findings
and      recommendations           of     an     audit       or     review      to    appropriate
officials°         The    audit    report      generally        includes      a description         of
the   scope     and    objectives       of the     audit,      a statement       that    the    audit
was  made     in accordance        with    accepted       government       auditing     standards,
and    a   description         of   weaknesses         found      in   the    internal      control
system°       The   report    may    also    include      recommendations         for corrective
actions;       the   views     of   an    official       in'.the     program     concerning        the
auditors'          findings,          conclusions           and       recommendations;             and
noteworthy       accomplishments          disclosed      by the audit°

     The   audit    process     should    be   viewed    as  an   opportunity      for    an
objective,     skiYled    and   impartial     review   of program     operations,      and,
if appropriate,       can   result    in suggestions      for improvement°        In most
instances,      implementing       audit   recommendations      can    lead    to better
program    operations     and resource       savings_o

     For    additional       information          about    audits    performed        by   the   OIG,
review     the    most    recent     copy    of    the    Semiannual               Report     of    the
Inspector       General,     which      may    be   obtained      from             the    Office     of
Inspector      General,     Office     of   Resource     Management              and    Legislative
Assessment,       Frances    Perkins     Building,     Room   S-5506,             telephone      (202)
523-6747°




                                                     I04
U.S. Department of Labor                                                                             h,,,,
OIG Awareness Bulletin
Bulletin No.AB 88-2



         THE PROGRAM                      FRAUD CML REMEDIES ACT

 The Program Fraud Civil Remedies Act (PFCRA) establishes an additional,
 administrative remedy against anyone who makes a false claim or false written
 statement to the Department of Labor (or to any other Department or Agency
 of the United States Government covered by the Act). In general, this remedy
 applies to any person who, with knowledge or reason to know, submits a false,
 fictitious, or fraudulent claim or statement to the Department. Such a person can
•be held liable for up to a $5,000 penalty per claim or statement, as well as an
 assessment of up to double the amount falsely claimed. PFCRA does not create
 any new violations or change the way DOL receives allegations of false claims or
 statements. It simply provides an additional legal remedy.


What are your responsibilities under the                 What is the Program Fraud Civil
Act?                                                     Remedies Act?
 DOL employees who deal with grantees, claim             The Program Fraud Civil Remedies Act
 recipients, contractors, or others who submit           (PFCRA) was enacted on October 21, 1986,
 claims or statements to the Department for              as Section 6103-6104 of the Omnibus Budget
 money, services, or property should be aware            Reconciliation Act of 1986, and is codified at
 that these clients, are subject to the provisions       31 U.S.C. Section 3801-3812. DOL's regula-
 of the Act, which may include penalties of up           tions implementing the Act were published in
•to $5,000 for each false claim or statement as          the Federal Register on June 2, 1987. Copies
 well as an assessment of up to double dam-              of these regulations may be obtained from:
 ages.                                                   OIG/Office of Audit, FPB S-5022.
Employees of the Department should also be               The Department's Office of Inspector Gen-
aware that the Act applies to themselves, with           eral (OIG) will be the investigative agency
respect to submission to the Department of               under PFCRA and will have the power to
false or fraudulent claims for FECA, travel              subpoena documents and records.
reimbursement, time and attendance, or any
other claims for property, services, or money.



This is one of a seriesof bulletinshighlightingU.S.Departmentof Labor OIG areasof concern. It is intended as a
generaldescriptiononlyand doesnot carrytheforce of legalopinion.
                                                   105
Who is subject W PFCRA ?                             What is a false claim ?

Any person (or organization) who submits a           Any false, fictitious, or fraudulent claim for
false or fraudulent claim or a written, certi-       property, services, money, grants, loans, in-
lied statement to the Department is covered          surance, or benefits isconsidered to be a false
by the Act.                                          claim.

Any person who submits false claims or state-        What is the standard of knowledge?
ments to any recipient of money, property, or
services from the Department if the Govern-          A person must have actual knowledge that
ment pays for any portion of the underlying          the claim or statement is false; be deliber-
contract, grant, or loan is covered by the Act.      ately ignorant of its truth or falsity; or reck-
                                                     lessly disregard its truth or falsity.
Each false claim is subject to a civil penalty
even if the property, services, or money is not      What are the penalties ?
actually delivered or paid.                          Up to $5,000 per claim or statement.

What is a false statement?                           For false claims, an assessment of up to twice
                                                     the amount falsely claimed on claims which
Any falsely written representation, certifica-       were paid may also be levied.
tion, affirmation, document, record, or ac-
counting or bookkeeping entry made with              How does PFCIL4 work?
respect to a claim, contract, bid or proposal
                                                     If, after investigating a fraud case of claims
for contract, grant, loan, or benefit and ac-
companied by an express certification or af-         less than $150,000 under PFCRA, the OIG
firmation of the truthfulness and accuracy of        concludes that an action is warranted, a re-
its contents is considered to be a false state-      port of investigation is submitted to the So-
ment.                                                licitor's Office (SOL). If SOL determines
                                                     that there is adequate evidence for liability
Any omission of a material fact when there is        under the Act, it sends a written notice of
a duty to provide a fact with respect to a claim     intent to issue a complaint to the Department
or a statement and the claim or statement            of Justice. If the Attorney General approves
becomes false, fictitious, or fraudulent due to      the complaint the defendant is notified and
the omission is considered to be a false state-      may request a hearing. The complaint is then
ment as well.                                        referred to a DOL Administrative Law Judge
                                                     for hearing.


What do you do when you encounter           a possible false claim problem ?
Allegations of PFCRA fraud are handled by the same mechanisms in place for any other
significant allegations of fraud, waste, or criminal activity. If you are aware of possible false
claims or statements either by outside parties who may be involved in procurement, grants,
contracts, or entitlement programs or by DOL employees, you have a responsibility to report
them to: DOL/OIG Hotline ...........357-0227 (Wash/ngton Dialing Area)
                                     (800) 424-5409 (Toll Free/Outside Washington
                                                                                Area)

                                                   106
          Copies of this report may be obtained
          from the U.S.Departmentof Labor,
          Office of InspectorGeneral,
          Room S-5506
          200 ConstitutionAvenue N.W.,
          Washington,D.C.20210.




              DEPARTMENTOF LABOR
                  OIG HOTLINE
           357-0227(Washington Dialing Area)

    (800)424-5409(Toll Free--outside Washington Area)

    The OIG Hotline is open 24 hours a day, 7 days a
    week to receive allegations of fraud, waste, and
    abuse. An operator is normally on duty on work-
    days between 8:15 AM and 4:45 PM, Eastern Time.
    An answering machine handles calls at other times.
    Federal employees may reach the Hotline through
    FTS. The toll-free number is available for those
    residing outside the Washington Dialing Area who
    wish to report these allegations. Written com-
    plaints may be sent to:

            OIG Hotline
            U.S. Department of Labor
            Room $1303 FPB
            200 Constitution Avenue, N.W.
            Washington, D.C. 20210
I
U.S.
 Oe0a mentofLal!lill
                 or
Office of Inspector General
Washington, D.C.20210
                                     I _--_         !



Official Business
Penalty for pnvate use $300
Pl16                            Postage and Fees Paid
                              US. Department of Labor
                                             LAB 441

                              THIRD CLASS MAIL
